<html>
<title> - THE NATIONAL SECURITY IMPLICATIONS OF CLIMATE CHANGE</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                   THE NATIONAL SECURITY IMPLICATIONS
                           OF CLIMATE CHANGE

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 27, 2007

                               __________

                           Serial No. 110-58

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                        U.S. GOVERNMENT PRITNING OFFICE

34-720                         WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001



                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
DARLENE HOOLEY, Oregon               DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              PAUL C. BROUN, Georgia
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
          DOUG PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                           September 27, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     5
    Written Statement............................................     6

Statement by Representative F. James Sensenbrenner, Jr., Ranking 
  Minority Member, Subcommittee on Investigations and Oversight, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................     7
    Written Statement............................................     9

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science and Technology, U.S. House of Representatives..........    10

                                Panel 1:

General Gordon R. Sullivan, USA (Ret.), Chairman, Military 
  Advisory Board, The CNA Corporation
    Oral Statement...............................................    11
    Written Statement............................................    12
    Biography....................................................    14

Mr. R. James Woolsey, Vice President, Booz Allen Hamilton
    Oral Statement...............................................    15
    Written Statement............................................    16
    Biography....................................................    17

Discussion
  Climate Change Disaster Planning...............................    18
  Strategic Planning to Create Goodwill Towards the U.S..........    20
  Ocean Acidification............................................    21
  Transporting Fuel in Iraq......................................    23
  Are Humans Causing Climate Change?.............................    23
  Can Human Behavior Reverse Climate Change?.....................    25
  Global Warming Is an Important Issue...........................    25
  More on How Humans Effect Global Warming.......................    27
  Scientists Who Oppose the Idea of Man-made Global Warming......    28
  Military Prioritizing to Reduce Global Warming.................    31
  Public Prioritizing to Reduce Global Warming...................    31
  More on Military Prioritization................................    33
  More on Energy in Iraq.........................................    33
  Dependence on the Wrong Regimes................................    34
  Domestic Energy Sources........................................    35
  Nuclear Power and Plug-in Hybrids..............................    36
  High Temperature Gas-cooled Reactors...........................    37
  New Materials for Armoring Vehicles............................    38
  Justifying Cost to Reduce Emissions............................    38
  Evaluating Current Methods to Reduce Emissions.................    39
  Trade-offs in Decision-making..................................    39
  Inter-Governmental Panel on Climate Change Report..............    40
  Rallying Americans Behind Energy Problems......................    41

                                Panel 2:

Dr. Alexander T.J. Lennon, Research Fellow, International 
  Security Program, Center for Strategic and International 
  Studies; Editor-in-Chief, The Washington Quarterly
    Oral Statement...............................................    43
    Written Statement............................................    44
    Biography....................................................    50

Dr. Andrew T. Price-Smith, Assistant Professor, Department of 
  Political Science, Colorado College; Director, Project on 
  Health, Environment, and Global Affairs, Colorado College/
  University of Colorado-Colorado Springs; Senior Advisor, Center 
  for Homeland Security, University of Colorado
    Oral Statement...............................................    51
    Written Statement............................................    53
    Biography....................................................    59

Dr. Kent Hughes Butts, Professor of Political Military Strategy; 
  Director, National Security Issues, Center for Strategic 
  Leadership, U.S. Army War College
    Oral Statement...............................................    60
    Written Statement............................................    62
    Biography....................................................    72

Discussion
  Are Current Multinational Structures Sufficient?...............    73
  Disease Vectors................................................    74
  DOD Thinking About Climate Change..............................    75
  More on the IPCC Report........................................    76
  Policy Measures to Reduce Spread of Disease....................    77
  U.S. Assistance in Major Global Disasters and Emergencies......    78
  More on Disease Vectors........................................    80

             Appendix 1: Answers to Post-Hearing Questions

Mr. R. James Woolsey, Vice President, Booz Allen Hamilton........    82

Dr. Alexander T.J. Lennon, Research Fellow, International 
  Security Program, Center for Strategic and International 
  Studies; Editor-in-Chief, The Washington Quarterly.............    84

Dr. Andrew T. Price-Smith, Assistant Professor, Department of 
  Political Science, Colorado College; Director, Project on 
  Health, Environment, and Global Affairs, Colorado College/
  University of Colorado-Colorado Springs; Senior Advisor, Center 
  for Homeland Security, University of Colorado..................    86

Dr. Kent Hughes Butts, Professor of Political Military Strategy; 
  Director, National Security Issues, Center for Strategic 
  Leadership, U.S. Army War College..............................    88

             Appendix 2: Additional Material for the Record

CNA Security and Climate Executive Summary.......................    94


          THE NATIONAL SECURITY IMPLICATIONS OF CLIMATE CHANGE

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2007

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                   The National Security Implications

                           of Climate Change

                      thursday, september 27, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose:

    The purpose of this hearing is to examine current thinking on the 
nature and magnitude of the threats that global warming may present to 
national security, and to explore the ways in which climate-related 
security threats can be predicted, forestalled, mitigated, or remedied.
    Among the many direct consequences of warming temperatures may 
number: flooding, drought, soil and coastal erosion, melting of 
glaciers and sea ice, and change in the range of disease vectors. Such 
phenomena can lead to water shortages, diminution of food supplies from 
both agriculture and the oceans, the spread of disease to new areas and 
the emergence of new diseases, increased risk of fire, and decreased 
production of electrical power. Through famine, epidemic, and 
competition of resources, these can contribute to the breakdown of 
civil order--and, where governments are already stressed, 
disintegration of the state--as well as rampant human misery, mass 
migration, the rise of extremist ideologies, and armed conflict. This 
hearing will look at the current state of research into these 
possibilities, as well as the strategic thinking that is being 
developed in hopes of anticipating and coping with such threats.
    In so doing, the hearing should help the Committee in identifying 
new areas of research, or new emphases in existing areas, that have 
begun emerging with the recently burgeoning of attention to the links 
between climate change and national security.

Background:

    The Committee on Science and Technology has long been a leader in 
bringing the importance of climate change to the attention of the 
Nation and in advocating measures to deal with this critical problem. 
It played a crucial role in the creation of the U.S. Global Change 
Research Program in 1990 and, just this June, reported out a measure, 
H.R. 906, amending that original act. This legislation would require 
the President to present to Congress a quadrennial assessment that 
analyzes, among other things, ``the vulnerability of different 
geographic regions of the world to global change, including analyses of 
the implications of global change for international assistance, 
population displacement, and national security.''
    In addition, both Houses of Congress are now considering 
legislation that would put Federal intelligence experts to work 
studying the connection between climate change and national security. 
Both H.R. 2082 and S. 1538 would direct the Director of National 
Intelligence to submit to Congress, within 270 days of enactment, ``a 
National Intelligence Estimate (NIE) on the anticipated geopolitical 
effects of global climate change and the implications of such effects 
on the national security of the United States.'' The provision was 
inserted into the Senate version of the bill via an amendment offered 
by three Democrats and three Republicans.
    Even with the legislation pending, the National Intelligence 
Council (NIC) has begun working with the U.S. Global Change Research 
Program and the Joint Global Research Institute, a collaborative effort 
of Battelle Memorial Institute and the University of Maryland, on a 
study of the sort the bills describe. Whether the study will be 
published as an NIE or a National Intelligence Assessment is to be 
determined closer to publication, which is expected in early 2008.
    This legislation parallels the rise in prominence in policy circles 
of the issue of global climate change's potential impacts on U.S. 
national security. Early this year the Global Business Network, a 
private consultant, issued a report titled Impacts of Climate Change: A 
System Vulnerability Approach to Consider the Potential Impacts to 2050 
of a Mid-Upper Greenhouse Gas Emissions Scenario.
    A report to be considered at this hearing appeared shortly 
thereafter: The CNA Corporation, which incorporates the Center for 
Naval Analyses, produced National Security and the Threat of Climate 
Change. The Subcommittee will receive testimony on this report 
presented by a former U.S. Army Chief of Staff, General Gordon 
Sullivan, USA (Ret.), who chaired the Military Advisory Board that CNA 
formed in conjunction with this project. At about the same time, the 
Strategic Studies Institute of the Army War College and the Triangle 
Institute for Security Studies jointly held a colloquium on ``Global 
Climate Change: National Security Implications'' two of whose speakers, 
Dr. Butts and Prof. Andrew Price-Jones of Colorado College, will also 
be among the witnesses at this hearing.
    Awaiting publication within the next year is a report, to be titled 
``The Foreign Policy and National Security Implications of Global 
Climate Change,'' based on a year-long review by the Center for 
Strategic and International Studies. Two men involved with its 
production will testify at this hearing: Mr. James Woolsey, the former 
Director of Central Intelligence, who wrote one of the three climate 
change scenarios that make up the report; and Dr. Alexander Lennon, who 
is serving as Co-Director of the report for CSIS.

Witnesses:

Panel One

General Gordon R. Sullivan, USA (Ret.), is the former Chief of Staff of 
the U.S. Army and is serving as the Chairman of the Military Advisory 
Board that The CNA Corporation formed in conjunction with its report 
National Security and the Threat of Climate Change.

Mr. James Woolsey, a former Director of Central Intelligence and 
currently Vice President of Booz Allen Hamilton, is the author of a 
chapter of the forthcoming Center for Strategic and International 
Studies report ``The Foreign Policy and National Security Implications 
of Global Climate Change.''

Panel Two

Dr. Kent Hughes Butts is the Director of National Security Issues at 
the U.S. Army War College's Center for Strategic Leadership.

Dr. Alexander Lennon is a Research Fellow in the International Security 
Program at the Center for Strategic and International Studies and co-
director of the forthcoming CSIS report ``The Foreign Policy and 
National Security Implications of Global Climate Change.''

Dr. Andrew Price-Smith is Assistant Professor of Political Science at 
Colorado College, Director of the Project on Health and Global Affairs, 
and author of the book The Health of Nations: Infectious Disease, 
Environmental Change, and Their Effects on National Security and 
Development.
    Chairman Miller. Good morning. This hearing will come to 
order. Today's hearing is entitled The National Security 
Implications of Climate Change.
    The seeds of the Second World War and the Holocaust were 
sown in the world-wide depression of the 1930s. European 
democracies fell and were replaced with authoritarian regimes 
with repugnant ideologies.
    Last year the British Government issued a report that 
concluded that environmental devastation from global warming 
could result in a five to 20 percent decrease in the world's 
economic production, which would be comparable to the Great 
Depression or the World Wars.
    The report concluded that global warming could result in 
hunger from diminished agricultural production and fisheries, 
water shortages, epidemics, and coastal flooding that could 
displace as many as 200 million people. Other experts argued 
that the report's conclusions were overstated and alarmist. But 
what if the report was right?
    Are we ready for the world we could face if the report's 
conclusions prove correct? Will environmental and economic 
devastation result in failed states, authoritarian regimes, the 
spread of extremism and terror, and warfare over scarce 
resources?
    Our national security professionals don't like surprises. 
They make it their business to anticipate events and plan for 
different contingencies, however unlikely. In the '40s and the 
'50s we were frequently surprised when governments we thought 
were stable fell to coups or revolutions. Our intelligence 
community developed models to predict which societies were 
unstable or might become unstable. And contingency planning is 
second nature to our military. Few adversaries are polite 
enough to tell us in advance what their military plans are.
    Have we considered which societies may become unraveled as 
a result of environmental and economic devastation, whether or 
not we are certain that those results will materialize? The 
possibility of a world transformed by climate change is not a 
science fiction myth of a post-apocalyptic society. It is not a 
road warrior movie. It is happening now.
    There is another Holocaust now in Darfur. The barbaric 
Bashir regime certainly is responsible for the genocide in 
Darfur, but the U.N. General Secretary Ban Ki-Moon recently 
called the Darfur conflict an ``ecological crisis'' that had 
arisen ``at least in part from climate change.''
    Arab tribes and African tribes lived together more or less 
in harmony for centuries, maybe millennia, but precipitation in 
what was already an arid region has declined by 40 percent in 
the last two decades, as the Sahara moves south into what had 
been Sub-Saharan Africa. There is no longer enough water both 
for Arab herders and for African farmers. The fighting in the 
Sudan has resulted in 400,000 to 450,000 deaths, 2.5 million 
people are living in refugee camps, and four million people in 
Darfur, about half the region's population, depend on food 
assistance to survive.
    How many struggling governments in developing nations will 
collapse from the economic consequences of global warming? Will 
those ungoverned regions become, to use General Anthony Zinni's 
phrase, petri dishes for extremism and terrorism?
    The consequences of global warming affect the work of many 
Committees of this Congress. They have certainly been the 
subject of other hearings by the Science and Technology 
Committee. The national security implications of global warming 
certainly may guide the work of this committee. What research 
should we be doing that we are not doing already? What research 
should we move up in priority because of national security 
concerns?
    Can we be better prepared to protect our national security 
interests by conducting research that will predict what 
consequences can come from global warming and where? Can we be 
better prepared by conducting research into how to mitigate the 
consequences of global warming because the consequences are so 
dire, whether or not we are certain they will happen?
    To give just one example of the decisions this committee 
faces, this committee fought for years the decision to 
eliminate sensors designed to collect climate-related data from 
the NPOESS satellite, the National Polar Orbiting Operational 
Environmental Satellite System. The Department of Defense 
decided to eliminate the sensors to save money in what was 
already an embarrassingly large cost overrun. Is the 
elimination of those sensors shortsighted just on the basis of 
national security concerns and our national security needs?
    Each of our witnesses today will have five minutes to 
answer those questions. If you do not need the entire five 
minutes, of course, you may waive your time.
    And now I will recognize Mr. Sensenbrenner for his opening 
remarks.
    [The prepared statement of Chairman Miller follows:]
               Prepared Statement of Chairman Brad Miller
    The seeds of the Second World War and the Holocaust were sown in 
the world-wide depression of the 1930s. European democracies fell and 
were replaced with authoritarian regimes with repugnant ideologies. 
Last year the British Government issued a report that concluded that 
environmental devastation from global warming could result in a five to 
20 percent decrease in the world's economic production, which would be 
comparable to the Great Depression or the World Wars. The report 
concluded that global warming could result in hunger from diminished 
agricultural production and fisheries, water shortages, epidemics, and 
coastal flooding that could displace as many as 200 million people.
    Other experts argued that the report's conclusions were overstated 
and alarmist. But what if the report was right? Are we ready for the 
world we would face if the report's conclusions prove correct? Will 
environmental and economic devastation result in failed states, 
authoritarian regimes, the spread of extremism and terror, and warfare 
over scarce resources? Our national security professionals don't like 
surprises. They make it their business to anticipate events, however 
unlikely, and to plan for different contingencies.
    In the forties and the fifties, we were frequently surprised when 
governments we thought were stable fell to coups or revolutions. Our 
intelligence community developed models to predict which societies were 
unstable, or might become unstable. And contingency planning is second 
nature to our military. Few adversaries are polite enough to notify us 
of their military plans.
    Have we considered which societies may come unraveled as a result 
of environmental and economic devastation, whether or not we are 
certain that those results will materialize? The possibility of a world 
transformed by climate change is not a science fiction image of a post-
apocalyptic society, it is not a road warrior movie, it is happening 
now.
    There is another holocaust now in Darfur. The barbaric Bashir 
regime certainly is responsible for the genocide in Darfur, but U.N. 
Secretary General Ban Ki-Moon recently called the Darfur conflict an 
``ecological crisis'' that had arisen ``at least in part from climate 
change.'' Arab tribes and African tribes had lived together more or 
less in harmony for centuries, perhaps millennia. But precipitation in 
what was already an arid region has declined by 40 percent in the last 
two decades as the Sahara moves south. There is no longer enough water 
for Arab herders and for African farmers. The fighting in the Sudan has 
resulted in 400 to 450 thousand deaths, 2.5 million are living in 
refugee camps, and 4 million people in Darfur--roughly half the 
region's population--now depend on food assistance. How many struggling 
governments in developing nations will collapse from the economic 
consequences of global warming? Will those ungoverned regions become, 
to use General Anthony Zinni's phrase, petri dishes for extremism and 
terrorism?
    The consequences of global warming affect the work of many 
Committees of this Congress, and have been the subject of other 
hearings by the Science and Technology committee. The National Security 
implications of global warming certainly may guide the work of this 
Committee. What research should we be doing that we're not doing? What 
research should we move up in priority? Can we better prepared to 
protect our national security interests by conducting research that 
will predict what consequences can come from global warming, and where? 
Can we be better prepared by conducting research into how to mitigate 
the consequences of global warming?
    To give just one example, this committee fought for years the 
decision to eliminate sensors designed to collect climate-related data 
from the national polar orbiting operational environmental satellite 
system. The Department of Defense decided to eliminate the sensors to 
save money in a program with embarrassingly cost overruns. Is the 
elimination of the sensors shortsighted on the basis of our national 
security needs? Each of our witnesses today will have five minutes to 
answer those questions. But won't be the last time we discuss the 
topic.

    Mr. Sensenbrenner. Thank you, Mr. Chairman. The purpose of 
today's hearing is to examine the current thinking on the 
nature and magnitude of the threats that global warming may 
present to national security. I have experience with this 
issue.
    This April I participated in a hearing on exactly the same 
topic before the Select Committee on Energy Independence and 
Global Warming. The issue was not new to me then either. As 
Chair of the Science Committee I have held numerous hearings on 
that topic.
    I chaired related hearings as evidence that I believe it is 
important, but increasingly discussions about climate change 
are dominated by alarmism instead of commonsense. As global 
warming has become more and more popular politically, 
predictions of the Earth's future have become more and more 
dire, and the images of a world a degree warmer sound almost 
post-apocalyptic.
    Some of the scenarios I am told we are destined to face 
include increased border and immigration stress on the United 
States from Mexico and the Caribbean, a widening wealth cap and 
fleeing of intellectual and financial elite within developing 
countries, increased poverty, floods, monsoons, melting 
glaciers, tropical cyclones, hurricanes, water contamination, 
ecosystem destruction, political unrest throughout Asia and 
Europe, even full-scale war between China and Russia.
    Education and understanding of the effects of global 
warming are critical, but sermons about an environmental 
apocalypse, while effective in rallying political support, 
ultimately monger fear, force a poor prioritization of 
resources, and threaten our ability to respond to more imminent 
threats.
    The national security risk posed by climate change need to 
be balanced against other threats and priorities. Climate 
change and its effect on national security have not exactly 
been ignored. As I mentioned, the Select Committee has already 
held an identical hearing. There have been a slew of books and 
policy papers, several of which will be discussed today. And 
most importantly, the intelligence community is already 
studying the issue.
    The Office of the Director of National Intelligence 
informed me that it expects to release an NIE on the issue in 
early 2008. Nonetheless, both the Senate and House are 
considering legislation that would force the DNI to submit that 
NIE that his office is already working on. Holding identical 
hearings and mandating reports that are already being written 
has more to do with politics than preparedness.
    This is not the first time someone has claimed the sky is 
falling. The predictions surrounding Y2K were similarly dire. 
Of course, this time it is different. Every time the sky falls 
it is different, and every time those who advocate commonsense 
are chastised for ignoring inescapable peril. Maybe it is my 
unwavering optimism that protects me from paranoia, or maybe it 
is just a lifetime of experience with dire prognostications.
    As unwise as it would be for us to ignore the national 
security implications of climate change, it is equally unwise 
to politicize our security to agree that we exaggerate certain 
threats and ignore others.
    Environmental consequences are not the only problems we 
have to address in our response to global warming. The other 
side of this challenge, the side that politicians and green 
extremists are reluctant to acknowledge, is that our energy 
demands are rising and will continue to rise. Running out of 
conventional power plants is a real threat. We need to find 
solutions like nuclear power that limit carbon emissions but 
also ensure that our energy needs will be met.
    We are also facing unprecedented economic challenges. Does 
the challenge of competing in the globalized economy mount, 
rapidly-growing countries like China and India have made it 
clear again and again that they do not intend to hinder their 
economic growth to curb climate change. This means that any 
modest successes we enjoy at limiting our emissions will be 
completely offset by China and other nations. That also means 
that we cannot afford to stall our own economic development 
when other nations will not be similarly handicapped. Solutions 
that compromise our ability to produce energy or compete in the 
global economy will be disastrous for America's future.
    Fostering a more robust economy is our strongest defense 
against climate change. The New York Times published an article 
called ``Feel Good Versus Do Good on Climate.'' The weather 
matters a lot less now than how people respond to it. According 
to the article, Robert Davis, a climatologist at the University 
of Virginia, concluded that the number of heat-related deaths 
in New York in the 1990s was 33 percent lower than in the '60s. 
That it was not, of course, cooler in the '90s than it was the 
'60s, but an increase in air conditioning saved lives.
    Because it is too late to prevent rising temperatures, the 
best response is to insure our economy is strong enough to 
adequately respond. Everyone agrees that the wealthiest 
countries' individuals will be the least affected by global 
warming. Putting more people in a position to afford air 
conditioning will actually save lives.
    It has become controversial in today's warming political 
climate, but it not outrageous to trust that American ingenuity 
can respond to this challenge as it has responded to challenges 
in the past. Preparedness demands that we consider how changing 
circumstances affect the overall picture of our national 
security, but ultimately solutions to global warming and the 
multitude of problems that it presents will be solved by the 
scientific community and emerging technological industries.
    As policy-makers our focus should be on encouraging these 
industries, insuring that our energy needs are met by sources 
that limit carbon emissions, then by responding to anticipating 
problems engendered by climate change.
    Thank you.
    [The prepared statement of Mr. Sensenbrenner follows:]
    Prepared Statement of Representative F. James Sensenbrenner, Jr.
    The purpose of today's hearing is to ``examine current thinking on 
the nature and magnitude of the threats that global warming may present 
to national security.'' I have experience with this issue. This April, 
I participated in a hearing on the same topic before the Select 
Committee on Energy Independence and Global Warming. The issue was not 
new to me then either. As Chairman of the Science Committee, I held 
numerous hearings on this topic.
    That I chaired related hearings is evidence that I believe it is 
important, but increasingly, discussions about climate change are 
dominated by alarmism instead of common sense. As global warming has 
become more and more popular politically, predictions of the Earth's 
future have become more and more dire and images of the world a degree 
warmer sound almost post-apocalyptic. Some of the scenarios I am told 
we are destined to face include: increased border and immigration 
stress on the United States from Mexico and the Caribbean, a widening 
wealth gap and fleeing of intellectual and financial elite within 
developing countries, increased poverty, floods, monsoons, melting 
glaciers, tropical cyclones, hurricanes, water contamination, ecosystem 
destruction, political unrest throughout Asia and Europe, and even a 
full-scale war between China and Russia.
    Education and understanding of the effects of global warming are 
critical, but sermons about an environmental apocalypse, while 
effective at rallying political support, ultimately monger fear, force 
a poor prioritization of resources, and threaten our ability to respond 
to more imminent threats. Each of the above disasters could happen, but 
the risks need to be balanced against other threats and priorities.
    Climate change and its affect on national security have not exactly 
been ignored. As I mentioned, the Select Committee on Energy 
Independence has already held an identical hearing. There have been a 
slew of books and policy papers, several of which will be discussed 
today. And, most importantly, the intelligence community is already 
studying the issue. The Office of the Director of National Intelligence 
informed me that it expects to release a National Intelligence Estimate 
(NIE) on the issue in early 2008. Nonetheless, both the House and 
Senate are considering legislation that would force the Director of 
National Intelligence to submit the NIE that his office is already 
working on. Holding identical hearings and mandating reports that are 
already being written has more to do with politics than preparedness.
    This is not the first time someone has claimed that ``the sky is 
falling.'' The predictions surrounding Y2K were similarly dire. Of 
course, this time is different. Every time the sky falls it is 
different, and every time, those who advocate common sense are 
chastised for ignoring the inescapable peril. Maybe it is my unwavering 
optimism that protects me from paranoia, or maybe it is just a lifetime 
of experience with dire prognostications. As unwise as it would be for 
us to ignore the national security implications of climate change, it 
is equally unwise to politicize our security to a degree that we 
exaggerate certain threats and ignore others.
    Environmental consequences are not the only problems we have to 
address in our response to global warming. The other side of this 
challenge, the side that politicians and green extremists are reluctant 
to acknowledge, is that our energy demands are rising and will continue 
to rise. Running out of conventional power plants is an actually 
imminent threat. We need to find solutions, like nuclear power, that 
limit or eliminate carbon emissions but also ensure that our energy 
needs will be met.
    We are also facing unprecedented economic challenges. As the 
challenges of competing in a global economy mount, rapidly growing 
countries like China and India have made clear that they do not intend 
to hinder their economic growth to curb climate change. This means that 
any modest successes we enjoy at limiting our emissions will be 
completely offset by China and other nations. It also means that we 
cannot afford to stall our own economic development when other nations 
will not be similarly handicapped. Solutions that compromise our 
ability to produce energy or compete in a global economy will be 
disastrous for America's future.
    Fostering a more robust economy is our strongest defense against 
climate change. As the New York Times published in an article titled 
``Feel Good vs. Do Good on Climate,'' ``the weather matters a lot less 
than how people respond to it.'' Robert Davis, a climatologist at the 
University of Virginia, concluded that the number of heat-related 
deaths in New York in the 1990s was 33 percent lower than the number of 
deaths in the 1960s. It was not, of course, cooler in the 1990s than it 
was in the 1960s, but the increase in air conditioning was saving 
lives. Because it is too late to prevent global warming, the best 
response is to ensure that our economy is strong enough to adequately 
respond. Everyone agrees that the wealthiest countries and individuals 
will be the least affected by global warming.
    It has become controversial in today's warming political climate, 
but it is not outrageous to trust that American ingenuity can respond 
to this challenge as it has responded to challenges in the past. 
Preparedness demands that we consider how changing circumstances affect 
the overall picture of our national security, but ultimately, solutions 
to global warming and the multitude of problems that it presents will 
be solved by the scientific community and the emerging technological 
industries. As policy-makers, our focus should be on encouraging these 
industries, ensuring that our energy needs are met by sources that 
limit carbon emissions, and by responding to and anticipating problems 
engendered by climate change.
    As our witnesses testify today, I hope they will focus their 
answers less on scare tactics and hypothetical cataclysms than on 
common sense approaches to dealing with the problems we are facing. 
After all, we know the sky isn't falling if only because hot air rises.

    Chairman Miller. Thank you. Other Members may submit 
written testimony for the record.
    [The prepared statement of Mr. Costello follows:]
         Prepared Statement of Representative Jerry F. Costello
    Good morning. I want to thank the witnesses for appearing before 
our committee to discuss The National Security Implications of Climate 
Change.
    Within the past year, the Nation has focused on the increasing 
trends of global warming and the potential devastating results. I 
believe it is vital to understand the potential national security 
threats due to the effects of global warming combined with our limited 
energy supply.
    Congress continues to focus on energy reform and ways to curtail 
our dependence on foreign oil while maintaining a sound environment and 
national economy. Given the volatility of the oil and gas markets, it 
makes sense to develop policies that place a greater dependence on 
domestic resources. As I have said before, one way to accomplish this 
goal is through the use of domestic fuels.
    Towards this end, the United States enjoys an abundant amount of 
coal, which currently used to produce half of our electricity. I firmly 
believe coal used in conjunction with carbon capture and storage (CCS) 
gasification and other clean coal technologies, is part of the solution 
to achieving U.S. energy independence, continued economic prosperity 
and improved environmental stewardship.
    As we continue to address our energy crisis and the potential 
threats it poses to the United States, it is imperative to invest in 
multiple domestic energy sources in order to reduce our dependence on 
foreign oil and strengthen our national security. I look forward to 
working with my colleagues as we find practical solutions that lead us 
down the path of energy independence.

    Chairman Miller. At this time we will, I would like to 
introduce our first panel, and it is an impressive, 
distinguished panel.
    General Gordon R. Sullivan is the former Chief of Staff of 
the United States Army and is currently the Chairman of the 
Military Advisory Board to the Report by the CNA Corporation 
entitled, ``National Security and the Threat of Climate 
Change.'' Mr. James Woolsey is the former Director of the 
Central Intelligence Agency and is currently Vice-President at 
Booz Allen Hamilton. He is the author of a chapter in a 
forthcoming report by the Center for Strategic and 
International Studies entitled, ``Potential Foreign Policy and 
National Security Implications of Global Climate Change.''
    It is the spoken testimony--the oral testimony is limited 
to five minutes. I think you, yes, you all have both submitted 
written testimony, which is longer or may be longer. It is the 
practice of the Subcommittee to take testimony under oath. We 
are an investigations committee. This is not truly an 
investigation. Since we are asking you to speculate about the 
future, it is pretty hard to imagine you will be prosecuted 
later for perjury if your forecasts prove to be incorrect, but 
do either of you have any objection to being sworn in? We do 
prefer that you tell us the truth, however, even if perjury 
prosecutions appear unlikely.
    And you have the right to be represented by counsel. Do 
either of you have counsel with you today?
    All right. These are men who are confident of their, of 
what they will say. If you would now please stand and raise 
your right hands.
    [Witnesses sworn]
    Chairman Miller. Thank you. General Sullivan, you may 
begin.

                                Panel 1:

STATEMENT OF GENERAL GORDON R. SULLIVAN, USA (RET.), CHAIRMAN, 
          MILITARY ADVISORY BOARD, THE CNA CORPORATION

    General Sullivan. Mr. Chairman, Members of the Committee, I 
am here as the Chairman of the Military Advisory Board to the 
CNA Corporation. The Advisory Board consists of retired three- 
and four-star flag officers from the Army, Navy, Air Force, and 
Marines.
    We were charged with looking at the emerging phenomenon 
known as global climate change through the prism of our own 
experience and specifically looking at the national security 
implications of global climate change.
    Having said this, I must admit I came to the Advisory Board 
as a skeptic. There are lots--and I am not sure some of the 
others didn't as well--there are lots of conflicting 
information on the subject of climate change, and like most 
public policy issues in America, many opinions on this specific 
issue.
    After we listened to leaders of the scientific, business, 
and Governmental communities, both I and my colleagues came to 
agree that global climate change is and will be a significant 
threat to our national security. The potential destabilizing 
impacts of global climate change include reduced access to 
fresh water, impaired food production, health issues, 
especially from vector and food-borne diseases, and land loss, 
flooding and so forth. And the displacement of major 
populations.
    And overall we view these phenomena as related to failed 
states, growth of terrorism, mass migrations, and greater 
regional and inter-regional instability.
    The findings of the Board are first, projected climate 
change poses a serious threat to America's national security. 
Potential national threats to the Nation--potential threats to 
the Nation's security require careful study and prudent 
planning. Read the NIE.
    Second, climate change acts as a threat multiplier for 
instability in some of the most volatile regions of the world.
    Projected climate change will add to tensions even in 
stable regions of the world.
    Fourth, climate change, national security, and energy 
dependence are a related set of global challenges.
    The recommendations of the Board are that we cannot wait 
for certainty in this issue, as been pointed out here in the 
two statements this morning. There is a lack of certainty, but 
there is certainly no lack of challenges, and in our view 
failing to act because a warning isn't precise would be 
imprudent.
    Second, the United States should commit to a stronger 
national and international role to help stabilize climate 
changes at levels which will avoid significant disruption to 
global stability and security.
    And we should commit to global partnerships to work in that 
regard, and I believe there have been a number of activities 
this week which support that finding.
    Fourth, the Department of Defense, which it is doing, 
should enhance its operational capabilities by accelerating the 
adoption of improved business processes and innovative 
technologies.
    And fifth, DOD should conduct an assessment of the impact 
on military installations worldwide of the rise of sea level, 
extreme weather events, and other possible climate change 
impacts over the next 30 to 40 years.
    Climate change, national security, and energy dependence 
are all interrelated. Simply hoping that these relationships 
will remain static is simply not acceptable given our training 
and experience as military leaders. And hoping that everything 
is going to be great probably won't work, at least in our view.
    In closing, I would say that most of us on the Advisory 
Board were in the military service of the United States of 
America for over 30 years, most of it during the Cold War. Very 
high levels of catastrophe would have--could have taken place 
and might have taken place--if we didn't invest in military 
preparedness and awareness of the threats we face. In our view 
there is uncertainty here, and it would be prudent for us to 
pay attention and to do our best to understand what is really 
going on so that we could respond if asked.
    Mr. Chairman, I request my full statement be added to the 
report, and I stand ready to answer your questions.
    [The prepared statement of General Sullivan follows:]
      Prepared Statement of General Gordon R. Sullivan, USA (Ret.)
    Thank you, Mr. Chairman, and distinguished Members of the 
Subcommittee, for the opportunity to appear before you on this 
important issue. Today I am here as Chairman of the Military Advisory 
Board to The CNA Corporation report on ``National Security and the 
Threat of Climate Change.'' The Advisory Board consists of three and 
four star Flag Officers from the Army, Navy, Air Force and Marine 
Corps. Our charge was to learn as much as we could in a relatively 
short period about the emerging phenomenon of global climate change 
using our experience as military leaders to process our learning 
through a national security lens. In other words, what are the national 
security implications of climate change?
    When I was asked to be on the Military Advisory Board, I was both 
pleased and skeptical. Pleased because of one simple and 
straightforward fact--I am 70 years old, I have served my country for 
over 50 years in both peace and war and now in the late stages of my 
life I feel as if the sacrifices I and my soldiers, colleagues, 
friends, and my family made for America are now being overtaken by a 
much more powerful and significant challenge to the well-being of our 
nation.
    Having said this, I must admit I came to the Advisory Board as a 
skeptic. There is a lot of conflicting information on the subject of 
climate change and like most public policy issues in America, many 
opinions, on the subject.
    After listening to leaders of the scientific, business, and 
governmental communities, my colleagues and I came to agree that global 
climate change is and will be a significant threat to our national 
security and in a larger sense to life on Earth as we know it to be.
    The potential destabilizing impacts of climate change include: 
reduced access to fresh water; impaired food production, health 
catastrophes--especially from vector- and food-borne diseases; and land 
loss, flooding and the displacement of major populations.
    What are the potential security consequences of these destabilizing 
effects? Overall, they increase the potential for failed states and the 
growth of terrorism; mass migrations will lead to greater regional and 
global tensions; and conflicts over resources are almost certain to 
escalate.
    The findings of the Military Advisory Board are:

        <bullet>  First, projected climate change poses a serious 
        threat to America's national security.
           Potential threats to the Nation's security require careful 
        study and prudent planning--to counter and mitigate potential 
        outcomes.

        <bullet>  Second, climate change acts as a threat multiplier 
        for instability in some of the most volatile regions of the 
        world.
           Many governments in Asia, Africa, and the Middle East are 
        already on edge in terms of their ability to provide basic 
        needs: food, water, shelter, and stability. Projected climate 
        change will exacerbate the problems in these regions and add to 
        the problems of effective governance.

        <bullet>  Third, projected climate change will add to tensions 
        even in stable regions of the world.
           Developed nations, including the U.S. and countries in 
        Europe, may experience increases in immigrants and refugees as 
        drought increases and food production declines in Africa and 
        Latin America. Pandemics and the spread of infectious diseases, 
        caused by extreme weather events and natural disasters, as the 
        U.S. experienced with Hurricane Katrina, may lead to increased 
        domestic missions for U.S. military personnel-lowering troop 
        availability.

        <bullet>  And, fourth, climate change, national security and 
        energy dependence are a related set of global challenges.
           As President Bush noted in his 2007 State of the Union 
        address, dependence on foreign oil leaves us more vulnerable to 
        hostile regimes and terrorists, and clean domestic energy 
        alternatives help us confront the serious challenge of global 
        climate change. Because the issues are linked, solutions to one 
        affect the others.

    The recommendations of the Military Advisory Board are:

        <bullet>  First, the national security consequences of climate 
        change should be fully integrated into national security and 
        national defense strategies.
           As military leaders we know we cannot wait for certainty. 
        Failing to act because a warning isn't precise is unacceptable. 
        Numerous parts of the U.S. Government conduct analyses of 
        various aspects of our national security situation covering 
        different timeframes and at varying levels of detail. These 
        analyses should consider the consequences of climate change.

        <bullet>  Second, the U.S. should commit to a stronger national 
        and international role to help stabilize climate changes at 
        levels that will avoid significant disruption to global 
        security and stability.
           All agencies involved with climate science, treaty 
        negotiations, energy research, economic policy, and national 
        security should participate in an interagency process to 
        develop a deliberate policy to reduce future risk to national 
        security from climate change. Actions fall into two main 
        categories: mitigating climate change to the extent possible by 
        setting targets for long-term reductions in greenhouse gas 
        emissions and adapting to those effects that cannot be 
        mitigated.

        <bullet>  Third, the U.S. should commit to global partnerships 
        that help less developed nations build the capacity and 
        resiliency to better manage climate impacts.
           Some of the nations predicted to be most affected by climate 
        are those with the least capacity to adapt or cope. This is 
        especially true in Africa. The U.S. should focus on enhancing 
        the capacity of weak African governments to better cope with 
        social needs and to resist to overtures of well-funded 
        extremists to provide schools, hospitals, health care, and 
        food.

        <bullet>  Fourth, the Department of Defense (DOD) should 
        enhance its operational capability by accelerating the adoption 
        of improved business processes and innovative technologies that 
        result in improved U.S. combat power through energy efficiency.
           DOD should require more efficient combat systems and include 
        the actual cost of delivering fuel when evaluating the 
        advantages of intervention in efficiency.

        <bullet>  And, fifth, DOD should conduct an assessment of the 
        impact on U.S. military installations worldwide of rising sea 
        levels, extreme weather events, and other possible climate 
        change impacts over the next 30 to 40 years.
           As part of prudent planning DOD should assess the impact of 
        rising sea levels, extreme weather events, drought, and other 
        climate impacts on its infrastructures so its installations and 
        facilities can be made resilient.

    Climate change, National Security and energy dependence are inter-
related. Hoping that these relationships will remain static is simply 
not acceptable given our training and experience as military leaders.
    The path to mitigating the worst security consequences of climate 
change involves reducing global greenhouse gas emissions. There is a 
relationship between carbon emissions and our national security. I 
think that the evidence is there that would suggest that we have to 
start paying attention.
    The Federal Government and the Department of Defense can help and 
lead in this area. DOD is the largest energy user in the U.S. 
Government and one of the largest energy users in the Nation. One of 
our key vulnerabilities on the battlefield today is transportation of 
fuel for combat use. We are using a lot of fuel in Iraq, and the Army 
in particular is experiencing battlefield casualties on their fuel 
convoy's--they are difficult to protect--so to the extent that DOD can 
develop new technologies to protect the troops by improving energy 
efficiency, so too can those technologies be beneficial to our country. 
In fact, a Defense Science Board study now underway and another one in 
2001 said that the energy challenges of our nation and those of our 
military are similar and that DOD can lead in resolving our nation's 
energy challenges even as DOD meets its own challenges in this area. In 
a very real sense, the buying power of the Federal Government can help 
lead our nation to low carbon energy futures.
    In closing I would say that most of us on the Military Advisory 
Board were in the service through the Cold War. All of us served for 
over 30 years. Most of us retired in the '90s. Very high levels of 
catastrophe could have occurred at that time, and by investing in 
military preparedness we were able to avert the dangers of that time. 
In our view, there's a lot of uncertainty here, but we need to be 
paying attention to what might happen and what is happening around the 
world from the threats of climate change.
    Thank you again, Mr. Chairman, for the opportunity to appear before 
you here today. Mr. Chairman, I request my statement and the report to 
be entered into the record.

                Biography for General Gordon R. Sullivan
    General Sullivan was the 32nd Chief of Staff--the senior general 
officer in the Army and a member of the Joint Chiefs of Staff. As the 
Chief of Staff of the Army, he created the vision and led the team that 
helped transition the Army from its Cold War posture.
    During his Army career, General Sullivan also served as Vice Chief 
of Staff (June 1990-June 1991); Deputy Chief of Staff for Operations 
and Plans (July 1989-June 1990); Commanding General, 1st Infantry 
Division (Mechanized), Fort Riley, Kansas (June 1988-July 1989); Deputy 
Commandant, U.S. Army Command and General Staff College, Fort 
Leavenworth, Kansas (March 1987-June 1988); and Assistant Commandant, 
U.S. Army Armor School, Fort Knox, Kentucky (November 1983-July 1985). 
His overseas assignments included four tours in Europe, two in Vietnam 
and one in Korea. He served as he served as Chief of Staff to Secretary 
of Defense Dick Cheney under the first Bush Administration.
    General Sullivan was commissioned a second lieutenant of Armor and 
awarded a Bachelor of Arts degree in History from Norwich University in 
1959. He holds a Master of Arts degree in Political Science from the 
University of New Hampshire. His professional military education 
includes the U.S. Army Armor School Basic and Advanced Courses, the 
Command and General Staff College, and the Army War College.
    General Sullivan is currently the President and Chief Operating 
Officer of the Association of the United States Army, headquartered in 
Arlington, Virginia. He assumed his current position at the Association 
in February 1998 after serving as President, Coleman Federal in 
Washington, D.C.
    He is the co-author, with Michael V. Harper, of Hope Is Not a 
Method (Random House, 1996), which chronicles the challenges of 
transforming the post-Cold War Army. Gordon Sullivan is a trustee of 
Norwich University and serves on the boards of several major 
corporations, including Newell-Rubbermaid, Shell Oil and Getronics 
Government Solutions, L.L.C. He is also a Director of the Atlantic 
Council of the United States and the George C. Marshall Foundation and 
the Chairman Emeritus of the Marshall Legacy Institute.

    Chairman Miller. Thank you, General. It will, of course, be 
added.
    Mr. Woolsey.

 STATEMENT OF MR. R. JAMES WOOLSEY, VICE PRESIDENT, BOOZ ALLEN 
                            HAMILTON

    Mr. Woolsey. Thank you, Mr. Chairman. It is an honor to be 
asked to appear before you today and to appear beside my 
friend, General Sullivan.
    I want to stress I am speaking only for myself and not for 
any institution that I am associated with. I have attached a 
24-page draft of the chapter that you referred to when you 
introduced me, and I would like to use these five minutes to 
point out several things in that chapter.
    I deal there with two types of risks to our future. I call 
them malignant and malevolent disruptions. By malignant I mean 
something that, like cancer in the human body, is not 
intentionally caused but is the, results from our behavior to 
some extent--and this could either be overloading our 
electricity grid and having it fail because of storms and tree 
branches falling in Ohio, as it did four years ago, or putting 
too much carbon into the atmosphere and, some decades from now, 
perhaps contributing to sinking Bangladesh beneath the waves. 
We are not trying to take down Canada's electricity, and we are 
not trying to sink Bangladesh beneath the waves, but sometimes 
our behavior can cause cascading failures in complex systems.
    We also, however, face a second set of problems that I 
called malevolent because terrorists are a lot smarter than 
tree branches. And the vulnerabilities of our energy systems to 
intentional malevolent interference from terrorism are set 
forth and described rather fully in the first pages of the 
report.
    I think with respect to climate change, it is important to 
realize that the most disastrous potential effects are, I 
think, ocean, sea-level height changes. And those may come 
about at unexpected times and in unexpected ways, because we 
have entered a period in which there is exponential change as a 
result of warming to a degree that we have not--even if we have 
not accurately forecast precisely when that is going to occur. 
I think certainty is very difficult in this field, but what 
should not be difficult is realizing that, for both potential 
malignant changes such as climate change and malevolent changes 
such as terrorism, the cause may operate and act in ways that 
we cannot fully understand at this point.
    What I want to stress is, and I set it up in a perhaps 
curious way as a dialogue between what I call a tree hugger and 
a hawk: My tree hugger is the ghost of John Muir, and my hawk 
is the ghost of George S. Patton. Muir in the chapter is 
concerned exclusively with carbon. Patton is concerned 
exclusively with terrorism. The point is that, although they 
don't convince one another of the importance of their concern, 
what they end up finding they need to do in order to deal with 
both sets of problems rather remarkably overlaps.
    Both in the chapter come to the conclusion that radical 
improvement in efficiency of buildings, particularly as steps 
that have positive paybacks, not costing anything but having 
internal rates of return of 10 percent or more, radically 
increasing the use of combined heat and power or cogeneration 
as Denmark does, and substantially changing the incentives for 
long-term movement toward distributed generation of electricity 
and heating and cooling. Together with following California's 
lead in decoupling revenues from earnings for electric 
utilities, so that a utility may make money by improving its 
efficiency and investing, even if that doesn't produce more 
electricity. That has led California in the last 20 years to be 
absolutely level in its degree of energy use per capita, 
electricity use per capita, whereas the rest of the country has 
gone up 60 percent.
    Some of these changes, including--and I have run out of 
time--moving toward also plug-in hybrid gasoline electric 
vehicles, flexible fuel vehicles, biofuels, more use of 
electricity for automobile propulsion as well, are all steps 
that Patton and Muir find they can agree on, even though they 
are solving different problems.
    And I would urge on really all participants in this debate, 
Mr. Chairman, that even though I think both of these problems 
are serious, I consider myself in this context both a tree 
hugger and a hawk. I don't think there should be any problem, 
nearly as much problem in cooperating and working together on 
solutions as there may be on convincing one another of the 
substantive concern that each of several different groups may 
have.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Woolsey follows:]
                 Prepared Statement of R. James Woolsey
    Mr. Chairman and Members of the Committee. It is an honor to be 
asked to testify before you today on this important subject. By way of 
identification, I am now a Vice President of a large consulting firm, 
where I work on energy issues; before I became a consultant five years 
ago I practiced law for 22 years in the field of civil litigation and I 
have also served in the Federal Government for a total of twelve years 
on five different occasions, holding Presidential appointments in four 
administrations, two Republican and two Democratic--all in the field of 
national security. Most recently I served as Director of Central 
Intelligence 1993-95. I am speaking today solely on my own behalf and 
not that of any institution with which I am associated.
    I have attached to this opening statement a 24-page draft of a 
chapter I am contributing to a collection to be published in several 
months on national security and climate change. As the chapter's text 
indicates, of the several authors submitting contributions to this book 
I was asked to concentrate on the extremely severe case of several 
possible climate change scenarios.
    In my view, in the interest of our nation's security, for the 
foreseeable future we need to keep our attention on two potentially 
disastrous types of disruptions of our society. I call these 
``malignant'' and ``malevolent'' disruptions. The first, like cancer in 
the human body, is not intentionally caused but the risk of disruption 
or even disaster may be enhanced by some aspects of our behavior--if we 
overload our electricity grid we may become more vulnerable to 
blackouts, or if we put too much carbon into the atmosphere we may 
enhance the risk of climate change. But terrorists are smarter than 
tree branches in storms, so we also need to be concerned about 
``malevolent,'' or intentional, attacks. Some of these may exploit 
vulnerabilities in our energy production and distribution or other 
weaknesses in our infrastructure.
    If we want to be as secure as possible, we cannot ignore either 
type of threat. But normally these two threats are addressed by 
different groups who sometimes give short shrift to the threat that is 
of central concern to the other. In the chapter I call the group that 
focuses on malignant threats such as climate change the ``tree 
huggers'' and that which focuses on malevolent threats such as 
terrorism the ``hawks.'' The first 15 pages of the chapter address both 
of these types of risk: malignant and malevolent.
    I would emphasize that although there is broad scientific agreement 
that future climate change is a serious problem and, in important 
measure, one that is caused by human activity, there is substantial 
uncertainty in predicting the point at which the increasing 
concentration of global warming gases in the atmosphere would have 
enough of an effect on temperature to lead to irreversible climate 
change. This is because climate models tend to be linear and have great 
difficulty forecasting the exponential changes which at some point 
could tip us over into irreversibility--for example, the rapid melting 
of the West Antarctic ice sheet, which could cause a rise of five 
meters or more in sea levels. So most of the predictions of disastrous 
change rely on data but use that data to construct analogies to climate 
change in the past (pp. 4-6 of chapter). As NASA's James Hansen puts 
it, ``I'm a modeler, too, but I rate data higher than models.''
    Still, even relying on analogies, when one considers today's level 
of CO<INF>2</INF> emissions and the prospect of substantial growth in 
them as world population increases and economies develop (pp. 6-7), it 
seems clear that there is enough degree of risk that some action must 
be taken. This is in substantial part because of prospective sea level 
rise and coastal flooding, which Dr. Hansen calls ``the big global 
issue.'' Such flooding could have disastrous effects on populations in 
this country and all over the world and seriously affect our military 
capabilities, world political balance, energy and water systems, and 
much else (pp. 7-11).
    At the same time, many aspects of our society, including the way we 
produce and use energy, make us vulnerable to terrorist attack for the 
foreseeable future. These include our dependence on oil (pp. 11-13) and 
the vulnerability of our electricity grid, particularly to physical 
attack on its transformers and cyber attack on its Supervisory Control 
and Data Acquisition (SCADA) systems (pp. 13-14). An important recent 
commission report also describes the vulnerability of the grid to 
Electro-Magnetic Pulse (EMP) attack, unfortunately something that could 
readily be contemplated in the not-distant future by countries having 
only a primitive nuclear weapon, a SCUD missile, and a fishing boat 
(pp. 14-15).
    The last eight pages of the chapter set out an imaginary meeting 
between a ``tree hugger'' and a ``hawk'' to try to design an energy 
policy for the country in light of the need to deal with both malignant 
and malevolent risks. I picked two of my favorite Americans for these 
roles. For the tree hugger I chose the ghost of John Muir and for the 
hawk the ghost of General George S. Patton. In the meeting Muir is 
focused exclusively on climate change and Patton exclusively on 
terrorism, but although there are points where they disagree, they are 
somewhat surprisingly able to come up with a common nine-part energy 
plan that reduces both types of risks substantially--it involves energy 
conservation, distributed and renewable production of both electricity 
and alternative fuels, plug-in hybrids and flexible fuel vehicles. 
Whatever package the United States settles on, Mr. Chairman, in my view 
we should do so in the spirit of this mythical Muir-Patton discussion 
and treat seriously both of these looming threats to our nation and 
indeed to civilization itself.

                     Biography for R. James Woolsey
    R. James Woolsey joined Booz Allen Hamilton in July 2002 as a Vice 
President and officer. He is with the firm's Energy practice, located 
in McLean, Virginia. Previously Mr. Woolsey served in the U.S. 
Government on five different occasions, where he held Presidential 
appointments in two Republican and two Democratic administrations. He 
was also previously a partner at the law firm of Shea & Gardner in 
Washington, DC, where he practiced for 22 years in the fields of civil 
litigation and alternative dispute resolution.
    During his 12 years of government service Mr. Woolsey was: Director 
of Central Intelligence from 1993 to 1995; Ambassador to the 
Negotiation on Conventional Armed Forces in Europe (CFE), Vienna, 1989-
1991; Under Secretary of the Navy, 1977-1979; and General Counsel to 
the U.S. Senate Committee on Armed Services, 1970-1973. He was also 
appointed by the President as Delegate at Large to the U.S.-Soviet 
Strategic Arms Reduction Talks (START) and Nuclear and Space Arms Talks 
(NST), and served in that capacity on a part-time basis in Geneva, 
Switzerland, 1983-1986. As an officer in the U.S. Army, he was an 
adviser on the U.S. Delegation to the Strategic Arms Limitation Talks 
(SALT I), Helsinki and Vienna, 1969-1970.
    Mr. Woolsey is currently Co-Chairman (with former Secretary of 
State George Shultz) of the Committee on the Present Danger. He is also 
Chairman of the Advisory Boards of the Clean Fuels Foundation and the 
New Uses Council, and a Trustee of the Center for Strategic & 
International Studies and the Center for Strategic & Budgetary 
Assessments. He also serves on the National Commission on Energy 
Policy. Previously, he was Chairman of the Executive Committee of the 
Board of Regents of The Smithsonian Institution, and a trustee of 
Stanford University, The Goldwater Scholarship Foundation, and the 
Aerospace Corporation. He has also been a member of The National 
Commission on Terrorism, 1999-2000; The Commission to Assess the 
Ballistic Missile Threat to the U.S. (Rumsfeld Commission), 1998; The 
President's Commission on Federal Ethics Law Reform, 1989; The 
President's Blue Ribbon Commission on Defense Management (Packard 
Commission), 1985-1986; and The President's Commission on Strategic 
Forces (Scowcroft Commission), 1983.
    Mr. Woolsey is presently a managing director of the Homeland 
Security Fund of Paladin Capital Group and a member of VantagePoint 
Management, Inc.'s Cleantech Advisory Council. He has served in the 
past as a member of boards of directors of a number of other publicly 
and privately held companies, generally in fields related to technology 
and security, including Martin Marietta; British Aerospace, Inc.; 
Fairchild Industries; Yurie Systems, Inc.; and USF&G. He also served as 
a member of the Board of Governors of the Philadelphia Stock Exchange.
    Mr. Woolsey was born in Tulsa, Oklahoma, and attended Tulsa public 
schools, graduating from Tulsa Central High School. He received his 
B.A. degree from Stanford University (1963, With Great Distinction, Phi 
Beta Kappa), an M.A. from Oxford University (Rhodes Scholar 1963-1965), 
and an LL.B from Yale Law School (1968, Managing Editor of the Yale Law 
Journal).
    Mr. Woolsey is a frequent contributor of articles to major 
publications, and from time to time gives public speeches and media 
interviews on the subjects of foreign affairs, defense, energy, 
critical infrastructure protection and resilience, and intelligence. He 
is married to Suzanne Haley Woolsey and they have three sons, Robert, 
Daniel, and Benjamin.

                               Discussion

    Chairman Miller. Thank you, Mr. Woolsey. It is difficult to 
wear both Birkenstocks and combat boots at the same time.
    Mr. Woolsey. Well, it is one foot each maybe.

                    Climate Change Disaster Planning

    Chairman Miller. In the draft of your report that you did 
provide us, you began with a quote from a British intelligence 
officer who retired in 1950 after 47 years of service and said, 
``Year after year the worriers and the fretters came to me with 
awful predictions of the outbreak of war. I denied it each 
time. I was only wrong twice.''
    Mr. Woolsey. Yes, sir.
    Chairman Miller. How dire--well, how probable--do the 
consequences that we have. . .? Neither of you are scientists. 
Neither of you really can predict. We haven't called you for 
that reason. But how probable do the dire consequences need to 
be for us to feel some urgency in planning for the 
possibilities?
    General Sullivan.
    General Sullivan. Well, my response to that is that I, 
first of all, I believe there is some planning going on, and it 
is interesting that this morning, when I arrived at the office, 
I had the statement of General George Casey, Jr., Chief of 
Staff in the Army, which was made yesterday in a hearing. 
General Casey said the following: ``Population growth and its 
youth bulge will increase opportunities for instability, 
radicalism, and extremism. Resource demand for energy, water, 
and food for growing populations will increase competition and 
conflict. Climate change and natural disasters will cause 
humanitarian crises, population migrations, and epidemic 
diseases.'' That was in his hearing yesterday before the 
Senate.
    I think the leadership in the Pentagon and around the globe 
in their official positions are well aware of the nature of 
this phenomenon and responding appropriately. I have every 
reason to believe they are. AFRICOM, the new African command, 
which is being stood up, I feel quite sure will be paying a lot 
of attention to some of the issues which are raised.
    Chairman Miller. Mr. Woolsey, do you have any sense of what 
kind of planning should be taking place and how probable the 
different scenarios need to be for us to be well deep into 
planning for them?
    Mr. Woolsey. If one looks at probabilities, as the models 
of the IPCC do, one comes up with sea-level rise, and I tend to 
use that as a proxy for a number of climate effects. Sea-level 
rise of something between six or eight inches and two feet 
during the 21st century. That could be substantial for some 
parts of the world, such as Bangladesh. And it could be 
accompanied by a number of very difficult climate circumstances 
such as glacial melting, which would make parts of South 
America very difficult to live in from the point of view of 
water and the like. It could be quite serious.
    But the really serious problem is if we hit--and it is hard 
to attach a probability to this--if we hit one of these tipping 
points which causes something like a rapid melting of the West 
Antarctic ice shelf. If I could just, an analogy in history: 
Between 14,000 and 15,000 years ago, sea level was rising at 
four or five times today's rate. And then it went from rapid to 
amok and increased another factor of four or five and went up 
by about 20 meters in 400 years, so about five meters a 
century. Five meters a century is absolutely huge.
    A lot of climatologists believe that was because the West 
Antarctic ice shelf may have melted. It could have been 
something else. But what we have to worry about is not 
something that human beings can predict very well with their 
models, which operate in a linear fashion. The key point is: 
When do you hit these tipping points, the knee of the curve, 
the exponential change in which from our point of view 
everything begins to accelerate? From the point of view of 
nature it has probably been operating exponentially all the 
time, going up by factors of one to two to four to 16, et 
cetera.
    So I--it is a long-winded way of saying--I have a hard time 
attaching a probability to it, and I think the climatologists 
do, too. It is the judgment of people like Dr. Hansen and 
others about these historical analogies and when things have 
changed rapidly in the past and why, that I think we really 
have to rely on to say it is prudent to begin to do some 
things, and some important things, now.
    But a lot of what we need to do serves other purposes such 
as making us more resilient against terrorism, and a good deal 
of it actually makes money rather than costing money. So I come 
out that we should begin to move now, even if we don't have a 
really good sense of the probabilities.
    Chairman Miller. My time is now expired.
    Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.

         Strategic Planning to Create Goodwill Towards the U.S.

    I guess I want to go from big philosophical things to 
little, practical things.
    I think we all know that America's standing in many parts 
of the world is not what we would like to have it be. I look 
back at when the earthquake and tsunami hit in Southeast Asia. 
The fact that we had military assets available ended up being a 
lifesaver in Indonesia, again, one of the countries where our 
approval rating is in the tank.
    But even people who might have been Islamic fundamentalists 
who hate the values that we stand for recognize that we saved a 
lot of lives, and we also saved a lot of suffering of people 
whose lives were not in jeopardy.
    How do you, each of you think that we ought to be looking 
at an intelligence estimate in terms of not necessarily dealing 
toward a catastrophic event which may or may not have been 
caused by climate, but essentially building up goodwill that we 
are on their side in things like providing agricultural self-
sufficiency, which we have done very well since the end of the 
Second World War, encouraging reforestation, which everybody 
agrees helps sop up carbon, and reversing the denuding of the 
rainforests in certain parts of Africa and South America and 
other parts of the world.
    How does intelligence and strategic planning fit into that?
    General Sullivan. I think very closely. If you look at East 
Africa, there is migration from north to south out of Somalia 
into Kenya and nations south. The problem is--well, not the 
problem--they are seeking food, they are seeking in some cases 
fish, but the Wildlife Federation has a program to assist 
countries in East Africa to create coast guards. Interestingly 
enough, with relatively small boats people in those countries 
are able to go out to patrol their own shores, which, in fact, 
limits overfishing.
    I think there are many things as you point out which can be 
done, and I think commands like AFRICOM under General Kip Ward 
and his people, they are looking at those issues: deforestation 
and economic self-sufficiency, agricultural self-sufficiency. 
And there have been pretty good examples of how reforestating--
if there is such a word; reforesting, or whatever the word is--
helps.
    And I think those are simple things which can be done and 
will be done. I feel reasonably sure they will be done.
    Mr. Sensenbrenner. How do you put an American face on that, 
though?
    General Sullivan. How do you put it?
    Mr. Sensenbrenner. How do you put an American face on that?
    General Sullivan. Well, I think, I don't know this for 
sure, but I think the Special Forces and some of the military 
missions which are going in parts of our effort do have an 
American face.
    Mr. Woolsey. Congressman, I think that in the. . . Even 
short of any of these sort of catastrophic changes that I 
referred to earlier, even modest amounts of climate change, 
particularly warming in the Southern Hemisphere let us say 
here, is likely to have enough weather changes associated with 
it and crop yield changes and fresh water changes that you may 
start to see rather substantial beginnings of migrations. And a 
lot of refugees and so forth, particularly from places which 
are very low-lying: deltas, Bangladesh, et cetera.
    I think that until one gets into rather large levels of 
sea-level rise, the worldwide potential deploying and 
assistance that U.S. military forces can provide can be of 
benefit, very substantial benefit in foreign countries, such as 
they were in Indonesia, as you said--after the tsunami. But 
they can also be good ambassadors for the country.
    And I think that some of relatively easy things to do could 
pay big dividends. For example, we have some amphibious ships, 
as I understand it, that are about to get scrapped. And it 
might not be too expensive, I know some groups are talking 
about doing this, to turn one or more of them into hospital 
ships for the purpose of rapid deployment for our own country--
in case we have to deal with another tsunami of our own, such 
as the hurricane damage in New Orleans--but also for places 
like Indonesia and the rest. One can do a great deal by showing 
up with even a relatively small contingent of the U.S. Navy in 
a hospital ship.
    Mr. Sensenbrenner. Thank you.
    General Sullivan. Can I come back to follow up?
    Chairman Miller. General Sullivan, go ahead.
    General Sullivan. Just to Sensenbrenner. I have just been 
told Colonel Retired Kent Butts will be on the next panel. Next 
week--I don't want to steal his thunder, I will let him explain 
it--but he is hosting a conference up at Carlisle Barracks with 
AFRICOM and the Army people, working on the type of issues you 
just raised, and I would let him explain it to you.
    Chairman Miller. Thank you, General Sullivan.
    Mr. Baird.

                          Ocean Acidification

    Mr. Baird. Just a couple of questions. Thank you, first of 
all, for your service and for being here today.
    We tend to focus on climate change as the, maybe, the 
headline impact of CO<INF>2</INF> accumulation in the 
atmosphere. But the CO<INF>2</INF> accumulation also has 
another effect which in some ways may be at least as dramatic, 
and that has to do with increasing the acidification of the 
oceans. And at least some research studies are suggesting 
rather strongly that as acidification goes up, the coral reefs 
go down. In fact, my understanding is in geological history the 
last time that we estimate that CO<INF>2</INF> levels were this 
high and acidification was this high, there are no fossil 
records of coral reefs for that period. Because--basically, and 
this is not--you don't have to look at climate trends, you can 
replicate this in a lab. You can make an enclosed base, pump 
some CO<INF>2</INF> into the air, it gets dissolved into the 
water, that changes the acidity. That acidity takes up the 
calcium carbonate, and there you go: You have got no coral 
reefs.
    And I don't know if that has been looked at. And I am not--
it is not clear to me how the national security implications--
except, for some countries, it is their nation, the lack of 
coral--so any comments on that would be more than welcome on 
that issue. And also it has an effect on sea life, et cetera.
    General Sullivan. I am not, as been pointed out--and truth 
in lending--I am not a scientist. I am a history major. I was a 
soldier for the bulk of my adult life, so let the record show 
that.
    But number two, I have visited Woods Hole Oceanographic 
Institute and actually I have visited a couple of times, and I 
do know that scientists there are very clear on the subject 
which you raise. That is, acidization of the oceans is having a 
detrimental effect on plankton, on the growth of krill, so 
forth and so on. And coral reefs are, in fact, diminished, 
which is reducing sea life, which is reducing food for 
populations which get their, frankly, get their protein--much 
of their protein--from the ocean.
    And there is a direct link in my view connecting the dots, 
not as a scientist, but as a soldier. There is a direct link 
between that--those phenomenon--and unrest, and that unrest 
causes the rest of the chain to be activated: that is, 
extremists, opportunists who are selling food for exorbitant 
amounts of money and so forth and so on. Terrorism.
    Mr. Woolsey. Congressman, I would agree with General 
Sullivan, but I would jump perhaps quickly to what do we do 
about it. And if we look at the fact that today the carbon 
dioxide concentrations in the atmosphere are approaching double 
what they have historically been when the world's climate has 
been more or less like this, two major recent studies by 
institutions cited on page 17 of my chapter indicate that if 
you just take the world's buildings and just look at projects 
to improve their, reduce their use of energy, that has a 10 
percent or greater internal rate of return. So all of these 
make money. They don't cost anything. Up front they cost 
something, but they all have at least a 10 percent or greater 
internal rate of return.
    Just from the buildings in the world, one could hold global 
warming or, say, CO<INF>2</INF> concentrations to somewhere 
between 450 and 550 parts per million. That would be a stunning 
achievement compared with all of what else is being discussed, 
with respect to CO<INF>2</INF> concentrations. That is the 
first thing that my mythical John Muir and mythical George 
Patton agree on doing. And it is money-making.
    So I think if one is even to a modest degree concerned 
about CO<INF>2</INF> concentrations in the ocean--I think for 
the reasons General Sullivan said we ought to be more than 
modestly concerned--why not go ahead and make the money and do 
it: make these changes anyway before we have to decide whether 
it is disastrous or just difficult?

                       Transporting Fuel in Iraq

    Mr. Baird. I appreciate it. Let me raise one other issue, 
and my time will probably be expired, but if you look at the 
situation we have in Iraq right now with the infrastructure--
particularly energy being a critical factor--transporting 
petroleum products or energy over either long pipelines or long 
transmission lines creates a system that is vulnerable to even 
the most rudimentary insurgent group of RPGs. You can blow up a 
pipeline, you can knock down a transmission line with a 
hacksaw.
    Amory Lovins, who I am sure you gentlemen probably know, 
has done some very important work on national security 
implications of dispersed energy versus local energy, soft 
energy paths. My understanding is he has gotten scant 
attention. He has tried to get attention from our planners in 
Iraq, but I would certainly think we ought to spend a whole lot 
more time talking to Amory, listening to Amory Lovins, and 
implementing some of his recommendations in Iraq rather than 
trying to secure these pipelines at the lives of our boys over 
there.
    Mr. Woolsey. Congressman, Amory is an old friend of mine. I 
wrote the forward to his book, Brutal Power, 25 years ago. He 
was on my panel for the Defense Science Board. I chaired the 
policy panel of their recent study of energy issues in defense 
that is about to come out.
    And I think you are exactly right. The real fuel cost at 
the front lines is many hundreds of dollars per barrel of fuel 
if you allocate all of the logistical training that is needed 
to get the fuel forward. And energy-savings capabilities for 
our deployed forces are a very important part of their being 
able to fight effectively, as well as all of the other issues 
that we are discussing today.
    Mr. Baird. Thank you.
    General Sullivan. Seventy percent of the weight the Army 
carries into battle is liquid. It is either fuel or water. It 
is a huge number, and they are working very hard: I can assure 
you the scientists and the research and development people are 
working very, very diligently to reduce energy usage to move, 
you know, this. I am not looking at the numbers, but it is big. 
We will have to get it there.
    Chairman Miller. Thank you for your testimony. Your written 
testimony also makes a point that gasoline convoys are 
especially difficult to protect. I believe it was, maybe it was 
General Woolsey, Mr. Woolsey.
    General Sullivan. Right.
    Chairman Miller. Mr. Rohrabacher.

                   Are Humans Causing Climate Change?

    Mr. Rohrabacher. Thank you. I can tell from your testimony 
that you both believe that there is climate change taking 
place, and I think most people will agree that there is a 
climate change taking place. Are you both convinced that the 
climate change that is taking place is manmade as compared to 
the many other climate changes that we have gone through as Mr. 
Woolsey has already made reference to in his testimony?
    Mr. Woolsey. I am not certain it all is. I think it is, a 
substantial share of it is, as the scientists call it, 
anthropogenic. That is certainly the conclusion of the Inter-
Governmental Panel on Climate Change, but I don't think it 
matters in a way.
    Mr. Rohrabacher. Okay. I am going to follow up on that, but 
General, do you believe that the climate change that we are 
going through as compared to all these other times that there 
has been a climate change that has occurred on this Earth is 
now caused by human activity?
    General Sullivan. No.
    Mr. Rohrabacher. That is very important, because in the 
decisions that we are making here, we are being told we have to 
do certain things and restrict human activity in a way to stop 
the climate change, which both of you now seem to indicate 
there is a natural occurrence.
    Now, those of us who are skeptical about the climate change 
theory are not skeptical that there are climate, major climate 
changes that happen in the Earth, and as Mr. Woolsey has 
repeatedly pointed out in his testimony, we should be prepared 
for that.
    And also let me note that those of us who are skeptics of 
the global warming theories that were being presented, I would 
agree totally with you, Mr. Woolsey, when you suggest that we 
should be making our engines more efficient for energy 
independence, also for health reasons, and because we are 
concerned about clean air and the health of our people. And 
also there are long-term economic benefits to having more 
efficient engines.
    But there is a difference about where you put your emphasis 
if you buy into what is being told to us today that the climate 
cycle that we are in is caused by human activity, by humans 
producing more CO<INF>2</INF>. And then it is a whole different 
thing. I certainly buy into, I think there is nothing we are 
going to do that is going to prevent a cycle of climate that, 
by the way, is going on on Mars and Jupiter at the same time.
    General Sullivan. Well, I----
    Mr. Rohrabacher. Yes, sir. Go right ahead.
    General Sullivan.--don't agree with that.
    Mr. Rohrabacher. Okay.
    General Sullivan. I don't agree with that.
    Mr. Rohrabacher. So you think----
    General Sullivan. I think----
    Mr. Rohrabacher.--you think there is some things that we 
can actually do----
    General Sullivan. I think there are some things we can do 
to mitigate----
    Mr. Rohrabacher. Oh, no, no. Not mitigate. Reverse. No, no. 
Mitigate is----
    General Sullivan. Well, I don't know, even reverse. We 
reversed ozone.
    Mr. Rohrabacher. Well----
    General Sullivan. We reversed the hole, the ozone hole, by 
limiting hair spray and other, the use of freon in our cars.

               Can Human Behavior Reverse Climate Change?

    Mr. Rohrabacher. But that is another issue that I will have 
to say deserves some debate, but in terms of actually reversing 
the climate change that we are going through today by changing 
human activity is a lot different than saying, which is what 
Mr. Woolsey is saying, we need to do things to plot a strategy 
so that that does not, this climate change that is coming about 
like the many other cycles that have, we have gone through on 
this Earth, that we need to be prepared for it because there 
will be national security implications.
    Mr. Woolsey. Congressman.
    Mr. Rohrabacher. Go ahead.
    Mr. Woolsey. Even if some portion of the climate--let us 
say the CO<INF>2</INF> concentrations--are from non-
anthropogenic causes, if the pace is the pace that we are 
seeing now, and we do a number of things that make sense anyway 
for counter-terrorism purposes, for saving money purposes----
    Mr. Rohrabacher. Yeah.
    Mr. Woolsey.--et cetera, we may be able to have an effect 
whether or not they are all, the changes are all anthropogenic, 
or as I believe, probably substantially all anthropogenic----
    Mr. Rohrabacher. Well, that is correct.
    Mr. Woolsey.--or only a little bit anthropogenic.
    Mr. Rohrabacher. That is correct. However, there is a great 
debate, and obviously there are, you may not be aware that 
there are a large number of scientists who suggest that as the 
Earth changes and has gone through this cycle, that is what is 
producing more CO<INF>2</INF>. It is not the fact that human 
beings are producing more CO<INF>2</INF> that is creating the 
climate change.
    And thus what we should be doing is, many of the 
suggestions you have made, which are absolutely on target, and 
I might add, this is my continual conversation with Governor 
Schwarzenegger in California, is that there are areas, a large 
number of areas where those of us who are skeptical that the 
human beings are causing global warming, but we should be doing 
the right thing. And making things more efficient and cleaner 
for that reason.
    But to try to do this in the name of stopping this climate 
change, Mr. Woolsey, I think you are more on target that we 
should be aiming our efforts, realizing that the climate is 
changing, as it has so many times in the past, prepare for it 
in case there are national security implications.
    Mr. Woolsey. We can do smart things for Patton reasons or 
for Muir reasons or for Patton and Muir reasons, and I am 
perfectly happy for scientists who don't go along with the 
climate change theory to take these----
    Mr. Rohrabacher. Very well.
    Mr. Woolsey.--taking these steps for Patton.
    Mr. Rohrabacher. Thank you very much.

                  Global Warming Is an Important Issue

    General Sullivan. Speaking for myself, and I believe the 
rest of this committee, we make it very clear that we are not 
scientists. We are not physicists, although some of them happen 
to be scientists. One happens to be an astronaut, and the other 
is intimately involved with the nuclear industry, nuclear 
power, but as a group we were not into all of the data because 
the data can be contradictory, and we are not qualified.
    What we tried to do is look at the trends, and the fact 
that you can sail a boat from the Atlantic Ocean to the Bering 
Sea, and they actually have people sailing 35-foot boats, tells 
us something. Something is going on, and I have no idea.
    Mr. Rohrabacher. General, what it tells us is that just as 
the Vikings were able to do that very same thing, the Earth is 
going back to a warmer time period just as it was during the 
Viking time period.
    General Sullivan. Agreed. I don't have any problem with 
that, but the fact----
    Mr. Rohrabacher. All right. Thank you.
    General Sullivan.--of the matter is it is worth paying 
attention to.
    Mr. Rohrabacher. Yes, sir. Thank you.
    Chairman Miller. Mr. Rohrabacher's time has expired.
    We have been joined by Dr. Ehlers, not a Member of the 
Subcommittee but someone for whom this is a subject near and 
dear to his heart. And in the interest of having more material 
for late-night special orders, Dr. Ehlers, do you have 
questions?
    Mr. Ehlers. Thank you, Mr. Chairman. I appreciate you 
recognizing me.
    I just simply came here to learn something, and I have 
learned something. I can't help but respond to my colleague 
about the many thousands of scientists he says support his 
point of view. I would say there are many, many, many more 
scientists who disagree with that. So it is a preponderance of 
scientific evidence and scientific belief that is on the other 
side. I normally don't bother arguing this point, but I just 
wanted to make that particular point.
    The, I, as I say, I came here primarily to learn, but in 
terms of the response we make, I was intrigued by Mr. 
Sensenbrenner's comment relating to Indonesia, and it occurred 
to me that perhaps the response, the military's response, since 
that is what this hearing is about, the military response might 
more appropriately be just send larger contingents of the Army 
Corps of Engineers than to send combat troops abroad, if, in 
fact, the problem is flooding of Bangladesh, which is a major 
concern. Maybe the Army Corps can do much more than combat 
troops could.
    I have not, I don't want to get into all the pluses and 
minuses, but I appreciate the comments that both of you have 
made, and I appreciate the understanding you displayed. This is 
a serious problem, and it does have very strong national 
security factors related to it, as does our continued overuse 
of energy from various other parts of the world. I think it is 
one of our greatest national security problems, not just so 
much the consumption of it, but the fact that we have developed 
such a dependence on it that we have become very vulnerable to 
military actions which reduce the amount of energy available 
from other countries.
    So I appreciate the insight that both of you have brought. 
I have no specific questions. Just wanted to make those 
comments, and thank you for being here.
    I yield back.

                More on How Humans Effect Global Warming

    Chairman Miller. Thank you, Dr. Ehlers. I now recognize 
myself for a second round of questioning.
    There have been questions about the extent to which the 
changes in the climate--the warming of the globe--are natural, 
cyclical, and the extent to which they are caused by human 
activity. And I am not sure either of you got to answer your 
questions entirely, and again, neither one of you are 
scientists. You are dealing with information from scientists on 
that, but is it your understanding or belief that human 
activity can affect the extent to which the planet may warm, 
and therefore what consequences may result?
    Mr. Woolsey.
    Mr. Woolsey. Mr. Chairman, you have not one but two history 
majors in front of you today, so I would very much stress that. 
But I would, I think, basically go with what I understand is a 
preponderance of scientific views here as reflected in the IPCC 
report, that at least a very substantial share--possibly all, 
but perhaps slightly less than all--of the concentrations of 
CO<INF>2</INF> that we see today are anthropogenic. They tend 
to have taken off around the beginning of the industrial era, a 
couple of centuries ago. They are approaching double what they 
have been for extended periods of time, although Congressman 
Rohrabacher's right, of course: There have been many periods in 
the history of the world in which climate has changed a lot.
    But the correlation seems substantial to, I think, about 90 
percent of the scientists that have looked at this, and I can't 
do any better than to say I would go along with that. But there 
is, I think, some uncertainty. There are some distinguished 
people who have not signed onto it.
    Chairman Miller. General Sullivan, your testimony is that 
military planning or national security planning generally 
doesn't just take into account what is certain to happen. You 
plan given a certain amount of uncertainty what might happen, 
how likely it is, and how to be prepared for those different 
events. Is it also part of military planning or national 
security planning to see how the likelihood of different events 
may be changed by what we do?
    General Sullivan. Mr. Chairman, you are right on both 
counts. We normally look at any number of threats and the 
likelihood of something happening, and try to figure out how we 
could stop it from happening or do something that might stop it 
from happening, if it is in our area of responsibility. And I 
think that is what is going on in this case.
    In all cases, though, it is not within the military's 
purview or the Department of Defense purview to be the only 
action agent. Other agencies of the government are involved, 
and we recognize that.
    So you are right on both counts, and that is really what 
the basis of our study is. Look, the trends are not good, and 
what can we do in our planning and our analyses? And I think 
what is going on at Carlisle next week up at the Army War 
College is a pretty good indicator of how people are starting 
to think about it.
    Mr. Woolsey. Mr. Chairman, if I could just have one----
    Chairman Miller. Mr. Woolsey.
    Mr. Woolsey. When I was Director of Central Intelligence, 
the head of the National Intelligence Council for me was Joseph 
Nye of the Kennedy School, Harvard. And Joe and I came up with 
an effort to try to put probabilities on things that really 
depend on human judgment--what an enemy or a potential enemy 
may do--that it is very, very hard actually to put odds on. We 
would try to use vague formulations of gamblers' odds--you 
know, one change in ten, something like that--in order to give 
a feel for probabilities.
    But the reality is that in dealing with a conscious enemy, 
a malevolent enemy, it depends on whether he is shrewd or not. 
If you are fighting Stonewall Jackson, you are probably going 
to lose unless you have an equally--and there were very few--
brilliant general on your side. And if you are trying to deal 
with something like climate change here, it depends on in a 
sense at what point--and we don't know--the methane begins to 
be released from the tundra. And since it is 20 times worse 
than carbon dioxide as a global-warming gas, it begins to speed 
up the warming and the release, and speed it up further and 
further and further. Where is that tipping point? Nobody really 
knows.
    So it is very tough, if you are dealing with really serious 
matters like a conscious enemy or something like these tipping 
points, to put probabilities on it. We try, but it is really 
something that is probably doomed to failure. Qualitative 
judgment is about the best you can do, I think.
    Chairman Miller. Thank you. Mr. Sensenbrenner is not here, 
so we will turn to Mr. Rohrabacher.

       Scientists Who Oppose the Idea of Man-made Global Warming

    Mr. Rohrabacher. Thank you very much.
    I take it that when you were doing your studies that you 
did not have any in-depth discussions with any of the major 
scientists who oppose this concept of manmade global warming. 
Is that correct?
    General Sullivan. No. In our case we did.
    Mr. Rohrabacher. Okay. Which scientist----
    General Sullivan. Am I on or off?
    Mr. Rohrabacher. Well, do you have a name of one or two of 
the scientists who you talked to?
    General Sullivan. Dr. Hansen was the first one.
    Mr. Rohrabacher. Dr. Hansen is a major proponent of the----
    General Sullivan. Yeah. I mean----
    Mr. Rohrabacher. Okay. Let me just note for, I will put in 
the record at this point the statements by several prominent 
and respected, world class scientists who not only doubt global 
warming but lament the fact that many of their fellow 
scientists are being lured away from their integrity by grants 
over the last 10 and 20 years, which have been readily 
available to those people who support the manmade global 
warming theory but not available to those people who were 
opposed to the manmade global warming theory. And I will put 
those quotes into the record from several very renowned, 
respected scientists.
    [The information follows:]
                       INFORMATION FOR THE RECORD
    The following are examples of scientists who are skeptical of 
global warming and have had their careers significantly affected by 
their positions.

Summary

        1.  Dr. William Gray was cut off from funding during the 
        Clinton/Gore Administration for his position on climate change.

        2.  Dr. Fred Singer was pressured by Gore and his staff to 
        remove Dr. Roger Revelle's name from a paper criticizing Gore. 
        Revelle was a mentor to Gore on climate change.

        3.  Dr. William Happer was asked to resign his position as 
        Director of Energy Research at the Department of Energy for his 
        views on climate change.

        4.  Dr. Christopher Landsea resigned from the IPCC for the 
        politicalization of his work.

        5.  Dr. Hendrik (Henk) Tennekes was dismissed from the Royal 
        Dutch Meteorological institute for questioning the scientific 
        basis for climate change assertions.

Dr. William Gray

    William M. Gray is a world famous hurricane expert and emeritus 
Professor of Atmospheric Science, Colorado State University.
    From an interview with Dr. William M. Gray in Discover Magazine, 
September 2005 Title: ``Weather Seer: `We're Lucky.' ''

    ``Are your funding problems due in part to your views?

    ``G: I can't be sure, but I think that's a lot of the reason. I 
have been around 50 years, so my views on this are well known. I had 
NOAA money for 30 some years, and then when the Clinton administration 
came in and Gore started directing some of the environmental stuff, I 
was cut off. I couldn't get any NOAA money. They turned down 13 
straight proposals from me.''

Dr. Roger Revelle/Dr. Fred Singer

    Roger Revelle was a leader in the field of oceanography. Revelle 
trained as a geologist at Pomona College and at U.C. Berkeley. Then, in 
1936, he received his Ph.D. in oceanography from the Scripp Institution 
of Oceanography. Revelle was a member of the National Academy of 
Sciences (NAS) and served as a member of the Ocean Studies Board, the 
Board on Atmospheric Sciences and Climate, and many committees. Dr. 
Revelle passed away in 1991. See http://dels.nas.edu/osb/
about<INF>-</INF>revelie.shtml
    S. Fred Singer, an atmospheric physicist, is professor emeritus of 
environmental sciences at the University of Virginia, adjunct scholar 
at the National Center for Policy Analysis, and former director of the 
U.S. Weather Satellite Service. He is also a research fellow at the 
Independent Institute and author of Hot Talk. Cold Science: Global 
Warming's Unfinished Debate (The Independent Institute, 1997).
    Al Gore refers to Dr. Revelle in his film An Inconvenient Truth and 
his book Earth in the Balance. He cites Dr. Revelle as a person who 
influenced his views regarding the dangers of global warming.
    But an article, co-authored by Revelle in the April 1991 issue of 
Cosmos magazine, and later reprinted in the New Republic, states: ``The 
scientific base for a greenhouse warming is too uncertain to justify 
drastic action at this time,'' and ``[t]he bright light of political 
environmentalism [Gore], seems increasingly to believe that the only 
correct stance is to press the panic button on every issue.''
    A dispute ensued regarding whether Dr. Revelle's name should be 
shown as co-author of the Cosmos article which was being subsequently 
being placed in an anthology on climate change by Dr. Richard Geyer.
    According to Dr. Fred Singer, on July 20 1992, in a telephone 
conversation between Singer (a co-author of the article) and Dr. Julian 
Lancaster (a former associate of Revelle) Lancaster requested that 
Revelle's name be removed.
    ``When I refused his request, Dr. Lancaster stepped up the pressure 
on me. ...he suggested that Dr. Revelle had not really been a co-author 
and made the ludicrous claim that I had put his name on the paper as a 
co-author `over his objections.' ''
    See http://www.findarticles.com/p/articles/mi<INF>-</INF>m1282/
is<INF>-</INF>n12<INF>-</INF>v46/ai<INF>-</INF>15544248; http://
media.hoover.org/documents/0817939326<INF>-</INF>283.pdf
    ``Subsequently, Dr. Anthony D. Socci, a member of Senator Gore's 
staff, made similar outrageous accusations in a lengthy letter to the 
publishers of the Geyer volume, requesting that the Cosmos article be 
dropped.''
    Jonathan Adler in the Washington Times on July 27, 1994:

         ``Concurrent with Mr. Lancaster's attack on Mr. Singer, Mr. 
        Gore himself led a similar effort to discredit the respected 
        scientist. Mr. Gore reportedly contacted 60 Minutes and 
        Nightline to do stories on Mr. Singer and other opponents of 
        Mr. Gore's environmental policies. The stories were designed to 
        undermine the opposition by suggesting that only raving 
        ideologues and corporate mouthpieces could challenge Mr. Gore's 
        green gospel. The strategy backfired. When Nightline did the 
        story, it exposed the vice president's machinations and 
        compared his activities to Lysenkoism: The Stalinist 
        politicization of science in the former Soviet Union.''

    Nightline 2/24/94 Ted Koppel:

         ``There is some irony in the fact that Vice President Gore, 
        one of the most scientifically literate men to sit in the White 
        House in this century, that he is resorting to political means 
        to achieve what should ultimately be resolved on a purely 
        scientific basis.''

Dr. William Rapper Jr.

    In 1991 William Happer was appointed by President George Bush to be 
Director of Energy Research in the Department of Energy and served 
until 1993. On his return to Princeton, he was named Eugene Higgins 
Professor of Physics and Chair of the University Research Board. Dr. 
Happer is a Fellow of the American Physical Society, the American 
Association for the Advancement of Science, and a member of the 
American Academy of Arts and Sciences, the National Academy of Sciences 
and the American Philosophical Society.
    Happer, Director of Energy Research at the U.S. Department of 
Energy for two years, was asked to leave. ``I was told that science was 
not going to intrude on policy he says.''
    ``With regard to global climate issues, we are experiencing 
politically correct science,'' Happer says. ``Many atmospheric 
scientists are afraid for their funding, which is why they don't 
challenge Al Gore and his colleagues. They have a pretty clear idea of 
what the answer they're supposed to get is. The attitude in the 
administration is, 'If you get a wrong result, we don't want to hear 
about it.''
    See http://www.sepp.org/Archive/controv/controversies/happer.html
    . . .Bush appointee William Happer, the highly regarded Director of 
Research at the Department of Energy, was slated to stay on-board after 
the 1992 election. But Happer, in internal discussions and 
congressional testimony, continued to discount global-warming alarmism 
and push for additional research before taking draconian action. One 
former Energy employee remembers a meeting where a high-ranking civil 
servant told Happer, ``I agree with you, Will, but I'd like to keep my 
job.'' Happer got the axe.
    From an article in National Review October 14, 1996.
    See http://www.findarticles.com/p/articles/mi<INF>-</INF>m1282/
is<INF>-</INF>n19<INF>-</INF>v48/ai<INF>-</INF>18763610/pg<INF>-</INF>3

Dr. Christopher Landsea

    Christopher Landsea, formerly a research meteorologist with 
Hurricane Research Division of Atlantic Oceanographic & Meteorological 
Laboratory at NOAA, is now the Science and Operations Officer at the 
National Hurricane Center. He is a member of the American Geophysical 
Union and the American Meteorological Society. He earned his doctoral 
degree in Atmospheric Science at Colorado State University.
    Dr. Landsea wrote an open letter withdrawing from the IPCC because 
of politicalization of his work on the committee. The first and last 
paragraphs of that letter are below. For the complete letter see http:/
/www.lavoisier.com.au/papers/articles/landsea.html

``Dear colleagues,

    After some prolonged deliberation, I have decided to withdraw from 
participating in the Fourth Assessment Report of the Intergovernmental 
Panel on Climate Change (IPCC). I am withdrawing because I have come to 
view the part of the IPCC to which my expertise is relevant as having 
become politicized. In addition, when I have raised my concerns to the 
IPCC leadership, their response was simply to dismiss my concerns.''

. . . . . . . . . . . .

    I personally cannot in good faith continue to contribute to a 
process that I view as both being motivated by pre-conceived agendas 
and being scientifically unsound. As the IPCC leadership has seen no 
wrong in Dr. Trenberth's actions and have retained him as a Lead Author 
for the AR4, I have decided to no longer participate in the IPCC AR4.

Sincerely,

Chris Landsea

17 January 2005

Dr. Hendrik (Henk) Tennekes

    Hendrik (Henk) Tennekes is formerly Director of Research at the 
Royal Dutch Meteorological Institute and a professor of aeronautical 
engineering at Penn State. Tennekes pioneered methods of multi-modal 
forecasting.
    Richard Lindzen is an atmospheric physicist, the Alfred P. Sloan 
Professor of Meteorology at MIT and a member of the National Academy of 
Science Lindzen is known for his research in dynamic meteorology--
especially atmospheric waves.
    In an article posted on the Science & Environmental Policy Project 
web site (Jan 2006) he said:

         ``I protest against overwhelming pressure to adhere to the 
        climate change dogma promoted by the adherents of IPCC. . .. 
        The advantages of accepting a dogma or paradigm are only too 
        clear. . .. One no longer has to query the foundations of one's 
        convictions, one enjoys the many advantages of belonging to a 
        group that enjoys political power, one can participate in the 
        benefits that the group provides, and one can delegate 
        questions of responsibility and accountability to the 
        leadership. In brief, the moment one accepts a dogma, one stops 
        being an independent scientist.''

    See http://www.sepp.org/

    According to Richard Lindzen: ``In Europe, Henk Tennekes was 
dismissed as research director of the Royal Dutch Meteorological 
Society after questioning the scientific underpinnings of global 
warming.''

    From a Wall Street Journal op ed, April 12, 2006; Page A14

    See http://www.opinionjournal.com/extra/?id=110008220

             Military Prioritizing to Reduce Global Warming

    Let me ask both of you in your professional, you both come 
from a national security background. If it was being proposed 
by Congress, if there was a motion in Congress that would 
require the military in the name of doing our part to stop this 
global warming and the military's part, but would insist, for 
example, on lighter armor on tanks or that the tanks wouldn't 
produce as much pollution out the other end, even though that 
lighter armor put our men in jeopardy, or lighter body armor 
because the process in developing the body armor was something 
that caused more pollution, CO<INF>2</INF> going into the air. 
Would you support that move by Congress?
    General Sullivan. No.
    Mr. Woolsey. Congress is the wrong institution to design 
armored vehicles, I think.

              Public Prioritizing to Reduce Global Warming

    Mr. Rohrabacher. Right. But they prioritize. I agree with 
that, but they--if we end up with global warming, we say, okay. 
That is going to be our greatest worry now, not terrorism, not 
military, possible military, so the military has to step in 
line. You guys would both oppose this.
    Let me ask you this. When they say to us, we have to then 
make our automobiles less armored, meaning you can't have a 
heavy car. I have three kids at home. I want them safe, I want 
them in a heavier car. Now, the people who are global warming 
advocates would like to outlaw me.
    Now, is it any less reasonable for me to say that I am 
going to make the decision as to the weight of my car than it 
is for you to say that you would oppose the efforts of Congress 
to oppose the weight of armored vehicles of men going into 
action?
    Mr. Woolsey. For several years of my life I had three 
little boys who were in Boy Scouts and soccer teams and 
baseball teams, and I drove a Chevy Suburban because I was 
driving baseball teams----
    Mr. Rohrabacher. Right.
    Mr. Woolsey.--around. But what I would say today is that if 
you want a large SUV and you need one for any reasonable 
purpose, as long as we have it be a plug-in hybrid--that is 
also a flexible fuel vehicle and is running on 85 percent 
ethanol--it will be getting something on the order of 200 miles 
per gallon of gasoline. And that isn't bad.
    Mr. Rohrabacher. Sure.
    Mr. Woolsey. I think----
    Mr. Rohrabacher. And the market will take care of that 
because people will want to pay less for their gasoline. But 
what if someone wanted to mandate it, which is basically like I 
said, it is going to be mandated whether or not that hybrid 
technology is already available and thus Dana or whoever else 
who has kids cannot make the choice of buying a heavier car.
    Mr. Woolsey. And Congress's role and the Executive Branch's 
role ought to be to get the incentives right and to do away 
with barriers to competition, such as having vehicles that can 
only drive on gasoline and can't also drive on alternative 
liquid fuels.
    But when the Executive Branch or Congress or together has 
tried to pick a solution, they picked the Synfuels Corporation 
in the late '70s and early '80s, which went bankrupt in '86, 
when the oil price went down. And it picked the hydrogen 
highway at the beginning of this decade, which has not worked 
out well at all for family cars and the rest.
    So I don't think the record, frankly, of either Congress or 
the Executive Branch in picking a single solution is very good, 
but in terms of getting the incentives right for all of us in 
removing barriers, I think that is----
    Mr. Rohrabacher. The greatest incentive, Mr. Woolsey, 
probably is the high price of oil, which will make the American 
people choose more efficiency.
    Mr. Woolsey. I agree
    Mr. Rohrabacher. And by the way, thank you, General and Mr. 
Woolsey, and Mr. General, I will make you, give you that last 
say here. But I do appreciate the fact that it was very clear 
to you that military is going to do their primary mission, and 
even though you do obviously hold it important that we be 
involved with global trends, but your job is to make sure those 
men going into action are safe. And you are not advocating----
    Chairman Miller. General Sullivan, do you have an answer 
that you wanted to----
    General Sullivan. Yeah. I want to make it very clear that 
the Department of Defense, certainly the Department of the Army 
is trying to make tanks lighter. That gives the same protection 
and make vehicles lighter and giving the same protection.
    Chairman Miller. Right.

                    More on Military Prioritization

    General Sullivan. Research and development efforts are 
moving in that direction. Now, whether they are going to be 
able to solve the problem or not remains to be seen. That is 
out there, and it may be ceramics or something, but the point 
is we cannot afford to have 70 percent of the weight which the 
Army carries be liquid, and that relates to how we power these 
pieces of equipment. And we have to get them there, to the 
fight, quickly.
    By the way, our job is to win. Okay. It is to win for the 
American people, and we will do our best, and I am speaking for 
myself. I believe the Army, Navy, Air Force, and Marines will 
do their best to do that with these tradeoffs.
    Chairman Miller. All right. Mr. Rohrabacher's time has 
expired. Mr. Baird, in your last round of questioning I think 
you established that the Maldives have a good deal more to 
worry about than we do. Mr. Baird.

                         More on Energy in Iraq

    Mr. Baird. Yeah, I think the Maldives do. But I also hope I 
established that a decentralized energy approach, as that 
advocated by Amory Lovins, is much more likely, I think, to 
provide a sustainable power source. Not only ultimately for our 
troops; and I was really referring to how you get lights on in 
Baghdad, and air conditioning working. Because we----
    But I will tell you when I was over there, and I met the 
energy minister of Iraq, the electrical energy minister, his 
main concern was that the Iraqis face a difficult challenge. If 
they use oil to produce energy, then they don't have oil to 
sell on the foreign reserve market or, sorry, on the 
international market and then thereby bring capital in. When I 
asked him if they had talked to Amory Lovins, and I asked the 
U.S. consultants who were accompanying them, they did not know 
who Amory Lovins was.
    So I would encourage you, Admiral, if you have a chance to 
try to talk to General Lute or any of our lead strategists over 
there to give another look at that, because I spoke personally 
after that visit to Iraq, I called Amory Lovins and spoke to 
him on the phone, and he said he had tried three times to get 
folks to really pay attention, and basically they don't get the 
concept. And I hate to think our guys are going to try to 
defend a couple hundred or a thousand-mile pipeline when we 
could have some alternatives.
    I welcome any thoughts you have about how you can convince 
our military.
    And then the second question, if I may, is if you look at 
some of the areas where we have conflicts, they are clearly 
related to oil, and if you look at some of the international 
impressions of our country, it is that we go to war for oil 
regardless of human rights sometimes. And certainly I have 
heard that from constituents back home. And you look at Nigeria 
and elsewhere in the world where our policies have not 
necessarily backed progressive regimes.
    A second question after the Amory Lovins one if you have 
time to get to both would be how does our dependence on oil 
cause us to back regimes that may lower our international 
standing or actually lead ultimately to conflict that we might 
otherwise avoid.
    General Sullivan. One of our panel members--this is to the 
Lovins question--one of our panel members was Admiral Truly, 
and he and Dr. Lovins have collaborated on a number of issues. 
And Dr. Lovins, certainly his name and some of his feelings, 
came up during the study group. In a previous study that our 
executive director, this man behind me, participated in, he was 
a part of that. So I think his feelings were well known by the 
group.
    Mr. Baird. The Pentagon is not paying much attention, I 
will tell you. In Iraq they didn't even know the guy's name.
    General Sullivan. I don't know.
    Mr. Baird. This was the electrical minister for Iraq. So 
the concepts are alien to them.
    Mr. Woolsey. Congressman, I think the notion of 
distributed-generation electricity that is dealt with on pages 
18 and 19 of the text of my chapter that I submitted is very 
important for the military, and sometimes it takes awhile for 
things to filter through. But the Science Board report that is 
about to come out moves us both domestically and, I think, in 
terms of operations overseas toward fuel conservation in many 
ways and distributed generation in many ways. I think you will 
find it a useful thing.

                    Dependence on the Wrong Regimes

    As far as dependence on the wrong regimes, I surely could 
not agree more. There is a professor at Oxford named Paul 
Collier who was an economist for the World Bank, I believe, for 
some years, and he has written extensively about the degree to 
which oil--or, indeed, it is true of anything that has a lot of 
economic rent associated with it, that is, a lot of economic 
return that is not based on either investment or labor. A lot 
of economic rent tends to concentrate power in the central 
government of the country that is producing it. It is not 
accidental that of the top 12 oil reserve countries in the 
world, about ten of them are either dictatorships or autocratic 
kingdoms.
    And as Bernard Lewis puts it, there should be no taxation 
without representation, but it is also true that there is no 
representation without taxation. If you don't need taxes, you 
don't need a legislature, and a number of these countries that 
are very rich in oil don't have real legislatures. The 
executive branches of those countries don't have to sit in 
front of hearings and be asked questions by independent, 
elected representatives of the people.
    And so in a way, by helping move away from oil I think, for 
powering our transportation system almost exclusively, by 
introducing competitive fuels--electricity, ethanol, butanol, 
whatever--I think one is, over the long run, taking some very 
positive directions for the governments of some of these other 
countries and societies. But I think you are exactly right on 
that.
    Mr. Baird. Very grateful for your comments. I wish our 
Administration would call upon the American people to make some 
of these changes as a patriotic duty in the interest of our 
national security. I think it would put a much different light 
on our energy policy, and it is certainly merited. And I am 
grateful for your service and insights today.
    Thank you, Mr. Chairman, for this good hearing.
    Chairman Miller. Thank you. Mr. Sensenbrenner. Mr. Broun.

                        Domestic Energy Sources

    Mr. Broun. Mr. Woolsey, in your report you point to the 
Nation's dependence on foreign oil as a major point of concern, 
and I certainly agree with that and concur fully. Yet, there 
are significant supplies of domestic oil and natural gas in 
areas such as out on the continental shelf and in Alaska, not 
only in ANWR but in other areas up there. Nuclear power has 
proven to be one of the cleanest energy sources on Earth, and 
the last nuclear power plant that we built in this nation I 
believe was in 1973.
    Now, I know that there are no permanent solutions, but it 
seems to me that the most expedient solution might be looking 
for domestic sources of oil as well as other energy sources. 
Certainly in my area of Georgia we don't have the amount of 
wind that they do out west to develop energy through wind 
technology or other things, some of these other alternative 
sources of fuel.
    And I am for one very eager to search for alternative 
energy sources, not only to power automobiles but also 
electricity and certainly we seem to use a lot of that around 
here, too. So don't you think that maybe searching for domestic 
sources of energy is maybe a best type of policy that we should 
have as a government?
    Mr. Woolsey. It is certainly part of what we need to do, 
Congressman. Nuclear is not going to substitute for oil, 
imported oil or any other oil, however, because only about two 
percent of our electricity is produced by oil. Back in the '70s 
it was different. Twenty [percent] or so was produced. So if 
you built a nuclear power plant in the '70s, you could well be 
replacing oil consumption, but today our use of oil for 
electricity is almost negligible.
    I think nuclear power has some advantages. Lack of global 
warming gas emissions is certainly one, and if Congress and the 
Executive Branch can agree on the degree of essentially public 
insurance that is to be provided for nuclear power, it may well 
take up some of the slack that may be needed for new power-
plant construction.
    But I don't think we ought to look at it as a long-term 
solution globally because I believe today over 60 percent of 
the new nuclear power plants that are being built are being 
built in developing countries. And because the International 
Treaty Regime for proliferation does not really deter countries 
that have nuclear power plants from getting into the fuel cycle 
with uranium enrichment or plutonium reprocessing; once you 
have a nuclear power plant, you are unfortunately likely to be 
off into the business of producing fissionable material. It is 
not really a problem here, although we have to store our 
nuclear waste and agree on how to do it, but it is a problem in 
lots of parts of the world unless we want to see proliferation 
grow substantially.
    As far as domestic oil is concerned, I have been generally 
in favor of offshore drilling. I think that is now ecologically 
and in engineering terms quite sound. I have opposed drilling 
in the Alaskan National Wildlife Refuge in substantial measure 
because of the insecurity of the Alaska Pipeline, which Amory 
Lovins and I have written together about and call a very large 
piece of Chapstick just about to happen. It is extremely 
vulnerable even to rifle fire, much less anything else.
    I think that what has to take place is that we need to do 
to oil and its monopoly on transportation, its 97 percent 
monopoly of transportation, what electricity and refrigeration 
did to salt at the end of the 19th century. In the late 19th 
century salt was a strategic commodity. It mattered whether 
your country had salt mines, countries fought wars over salt 
mines. It is hard to imagine now. Today we don't care, because 
salt's unique role in preserving meat was effectively destroyed 
by electricity and refrigeration.
    What we need to do is not destroy oil and not stop using 
oil, but we need to break oil's monopoly on transportation. And 
I think that if we do that, things will sort themselves out--
given the amount of carbon used, given its accessibility and so 
forth--in a reasonable way. But I think the first priority to 
me is things like plug-in hybrids and alternative liquid fuels 
so that we can break oil's monopoly on transportation, and then 
I think some domestic oil production, particularly off shore, 
sure.
    Mr. Broun. Well, I think with the current technology with 
the hybrids, if, it depends on how far you drive every day 
whether they make sense economically or not, and it looks to me 
in the short run maybe expediting building safe nuclear power 
plants as well as looking for domestic sources of petroleum 
products and maybe new coal technology, et cetera, make more 
sense if we can ever figure out how to create hydrogen. That 
may be even another source, but that is just my point.
    And looking domestically makes more sense to me than trying 
to further things that may be not economically feasible now. 
So----
    Chairman Miller. Thank you.
    Mr. Broun.--would you comment about that?
    Chairman Miller. Well, actually the gentleman's time has 
expired.
    Mr. Broun. Excuse me.
    Chairman Miller. That is all right. Dr. Ehlers, do you have 
any questions? You don't have to if you don't want to but----
    Dr. Ehlers, your mike apparently is not on.
    Mr. Ehlers. I am sorry.
    Chairman Miller. Or not working. Okay.
    Mr. Ehlers. Thank you.

                   Nuclear Power and Plug-in Hybrids

    I have been an advocate of nuclear energy for some time, 
even though I am Mr. Muir. I have been a Sierra Club member for 
many years and have argued with them on this point simply 
because the issue is not displacing oil. It is displacing 
carbon dioxide producing materials, which is largely coal and 
natural gas and the power plants at this point.
    And if we are going to impinge, and I agree with you Mr. 
Woolsey, that the real problem is transportation, and if we do, 
in fact, go the route of plug-in hybrids, we are going to need 
considerable amounts of electricity, and I would prefer that 
that be produced by nuclear plants rather than coal burning or 
natural gas burning plants, particularly since natural gas in 
my opinion is too good to burn. It is an incredible feedstock 
for the petro-chemical industry, and it is ideal for serving, 
for providing heat for residences. Burning it in an electric 
power plant I think is not an optimum use.
    Mr. Woolsey. Congressman, I certainly agree that 
electricity needs to be produced cleanly, and nuclear may be 
one way to do that, with the qualifications I mentioned 
earlier. I would only add that the Pacific Northwest National 
Laboratories has done a very thorough study of plug-in hybrids, 
and they say that 85 percent of the cars on the road could be 
plug-in hybrids before you need a single new power plant, 
because you are using off-peak, overnight power.
    Mr. Ehlers. Yeah.
    Mr. Woolsey. And that is one of the reasons why shifting 
from an internal combustion engine to a plug-in hybrid, even in 
coal-heavy states where the grid is largely run by coal, still 
saves something on global warming gas emissions. And in a state 
like California with very clean grid it saves a great deal with 
respect to global warming gas emissions.
    Mr. Ehlers. Yes.
    Mr. Rohrabacher. Would the colleague yield for a question?

                  High Temperature Gas-cooled Reactors

    Mr. Ehlers. Yes. I will be happy to yield.
    Mr. Rohrabacher. Yes. This is where we agree.
    I appreciate your comments on nuclear energy, and I would 
draw your attention and ask, this is in the form of a question, 
but drawing our attention of the panel as well to the high 
temperature gas-cooled reactor that has now been designed and 
prototypes have been built by General Atomics in San Diego. Are 
you aware of the high temperature, gas-cooled reactor?
    Mr. Ehlers. I am aware of a number of different reactors, 
and I think the great lack is we have not done adequate 
research on the many types of reactors. For example, the 
hydrogen project which is, no one seems to say much about 
today, depends entirely on being able to produce and transport 
hydrogen at fairly low cost. Clearly the traditional ways of 
doing it are not good. Perhaps I----
    Mr. Rohrabacher. The reason I bring up that, Mr. Ehlers, is 
that Mr. Woolsey brought up the problems of nuclear waste and 
also the proliferation issue, and those two issues do not need 
to prevent us from moving forward with nuclear energy, and I 
would suggest that maybe our panel would like to look at this 
alternative, because it is a nuclear power plant that cannot, 
that does not produce waste at the same level and it will not 
produce material that can be turned into bombs. And so it takes 
care of a lot of problems, and I would hope that you, Mr. 
Ehlers, as someone I deeply respect and pay attention to, as 
well as our panel, would look at this alternative when looking 
at the issue we are discussing today.
    Thank you very much.
    Mr. Ehlers. I yield back.
    Chairman Miller. Thank you. I accept your time. Mr. 
Reichert.
    Mr. Reichert. I have no questions.
    Chairman Miller. All right. That was convenient. We have 
time, I think, for another round of questions if everyone does 
their length of time, and then we do have a set of votes. We 
probably will need to carry over into the first couple of 
minutes of votes, but if we could have a quick last round of 
questions for this distinguished panel, and the next panel is 
also distinguished, and we will hear their testimony after the 
votes.

                  New Materials for Armoring Vehicles

    General Sullivan, in the earlier questions whether you 
would favor reducing the armor if it made armored vehicles less 
sturdy in battle, you said ``No,'' but you also said that you 
thought that the need for lighter vehicles because of fuel 
needs certainly justified research and developing lighter but 
still strong materials. Is that correct?
    General Sullivan. That is correct. I am not in favor of . . 
. Protection, validity, and mobility are the three variables 
which are considered in armored vehicles, and you can see in 
the MRAP--this new vehicle which the troops will receive--the 
vehicle is very heavy because that is what you need to protect 
the troops, . . .
    Chairman Miller. Uh-huh.
    General Sullivan. . . .our most precious asset. But that 
doesn't mean that the scientists and the people in the labs 
aren't working to reduce the weight of the armor which goes on 
vehicles, and it may be that it is ceramics or some substance 
which--I am sorry the doctor left--plastics and so forth and so 
on.
    So you have got a tradeoff, and I am sure they will work 
their way through that.

                  Justifying Cost to Reduce Emissions

    Chairman Miller. The British report that I referred to in 
my opening remarks estimated that the world's response to 
carbon dioxide emissions, greenhouse gas emissions, would cost 
perhaps one percent of the world's GDP. In view of the threat, 
does that expense seem justified by the threat we face? General 
Sullivan.
    General Sullivan. One percent. I don't know. I am not 
qualified to----
    Chairman Miller. Okay.
    General Sullivan.--I am really not qualified to draw that 
kind of conclusion.
    Chairman Miller. Okay. Mr. Woolsey.
    Mr. Woolsey. I think it does, yes--in part, however, 
because taking the steps that one needs to take also makes the 
whole system much more resilient against terrorism. And also a 
number of those steps that the Stern, I guess it is the Stern 
report, in the numbers, I think, don't take into account some 
of the things we were talking about before: some of the ideas 
that Amory Lovins's Rocky Mountain Institute has been 
instrumental in pushing, of what they call ``negawatts''--that 
is, of efficiency improvements that make money. I don't think 
those types of considerations played a major role in the Stern 
report: for example, these building improvements that my Patton 
and Muir start off with.
    So, yes, I mean, if it takes one percent--because these are 
both important issues, both terrorism and climate change--in my 
personal judgment it is worth it. But I think we ought to make 
sure that we aren't taking expensive and unnecessary steps 
rather than profit-making ones in order to get where we want to 
go.
    Chairman Miller. You think one percent may have been 
overstated?
    Mr. Woolsey. It is possible. I think so. I think if you 
turn the Stern report over to the Rocky Mountain Institute and 
ask them to critique it, I will bet you would find that they 
would say there are cheaper ways to take the steps that we are 
taking.

             Evaluating Current Methods to Reduce Emissions

    Chairman Miller. And I think both of you have either 
explicitly or implicitly already addressed this. Whether the 
steps are--or what the Stern report suggested--are there other 
cheaper, smarter things to do? Do you think what we have done 
to this point or [are] doing now are aggressive enough in view 
of the threats we face?
    General Sullivan.
    General Sullivan. I will only speak to what I know. I think 
that General Casey's point yesterday was indicative of an 
awareness by the senior leaders--one of the chiefs, a member of 
the Joint Chiefs, a senior Army officer--that these issues are 
important. And I have reason to believe AFRICOM is another case 
in point that the senior military leaders of our country are 
addressing the issue of global climate change. And the NIE, I 
think, is another example: Admiral McConnell, who is doing the 
NIE, who is responsible for it, has said that it is important. 
And so I think everybody is getting the word, and it is moving.
    Chairman Miller. Mr. Rohrabacher is recognized for just 
five minutes.

                     Trade-offs in Decision-making

    Mr. Rohrabacher. Well, thank you, and I do think it is 
important for us to note that the general said exactly the 
right thing, and that is his job is making sure that our 
country is protected and those people can do their job in 
defending our country. And while no one disagrees with the fact 
that we should try and be trying to develop better, more 
efficient technologies, the question is when we have to make 
decisions right now versus climate change that we are going to 
have some effect on climate change that will in some way 
prevent the military from doing their job, the General is going 
to have the military do their job.
    General Sullivan. Well, I think that is exactly what 
happened with the MRAP and body armor and everything else that 
is protecting the troops. They are giving the troops what they 
need. We can't wait for 10 or 20 years----
    Mr. Rohrabacher. There you go.
    General Sullivan.--to make it happen.
    Mr. Rohrabacher. And General, the same principle is true, 
unfortunately, we are being told by the alarmists here about 
climate change that we have to have another criteria for how we 
make our decisions based on, and certainly I agree with Mr. 
Woolsey, yes. We should have SUVs that can protect our people, 
our kids, and our families, but we should not necessarily 
mandate it now if the technology isn't ready and say that SUVs 
have to be lighter or whatever, if that is not ready right now.
    And the alarmists would have us put people in jeopardy. It 
is as simple as that. And I, first of all, I appreciate both 
your testimony today, and I respect both of you tremendously.

           Inter-Governmental Panel on Climate Change Report

    This question. When you look over this report, when you 
examined the Inter-Governmental Panel on Climate Change report, 
what it did say that if we implemented all of their 
recommendations at, with the tremendous cost to the world that 
we are talking about, what percentage of the climate, of the 
increase in the temperature of the planet would we achieve?
    Mr. Woolsey. I don't----
    Mr. Rohrabacher. What are we going to get out of--if we 
went along with all the Inter-Governmental Panel Climate Change 
(IPCC) recommendations and the things that they said we need to 
do, which many of them are very draconian, what type of change 
would we expect to achieve and did they say they would achieve 
in terms of the, preventing the increase in the temperature of 
the plant?
    Mr. Woolsey. Congressman, I tend to use the sea-level rise 
as the proxy. And I realize that is not a perfect way to go at 
it, but the IPCC's predicted range, I think, for the 21st 
century is somewhere between around eight inches and two feet.
    Mr. Rohrabacher. And how, if all the recommendations were 
followed with all of the costs associated with that, what would 
be the change in the ocean?
    Mr. Woolsey. I don't know. I don't think of the IPCC as 
being the institution that is likely to be providing the best 
recommendations for action. I think----
    Mr. Rohrabacher. No, no. I am not talking about action. If 
they, if all of their actions, the IPCC had recommendations for 
us and with the Kyoto treaty, et cetera, through the Kyoto 
treaty, if all of those recommendations were put in place, let 
me just note for the record the actual achievement would be 
minuscule. Minuscule. And I don't have it with me right here 
the exact amount, and but just let us note that you have to, 
one of the reasons some of us were skeptical about what is 
going on not only is the fact that leading scientists have said 
that their colleagues have been lured away from their integrity 
by the promise of grants, but that what the General suggested, 
his reasonable decision-making process was not being used in 
meeting the other demands on the civilian economy in terms of 
what we would get out of those decisions. So, out of 
implementing those recommendations.
    Mr. Woolsey. There are a number of things that the IPCC 
doesn't touch on that could be far cheaper and far more 
effective than other points that are being made. I will just 
refer you to Patton's and Muir's nine points in this chapter I 
wrote. And these are not original with me. They have been 
picked up from all----
    Mr. Rohrabacher. Sure.
    Mr. Woolsey.--sorts of different sources, but some of them 
are rather dramatic. For example, Denmark today gets 50 percent 
of its electricity from combined heat and power. It means they 
just take the waste heat from factories, turn generators, 
supply power to themselves. It is heat that is wasted today.
    Mr. Rohrabacher. I appreciate----
    Mr. Woolsey. We are way under 10 percent of that in the 
United States.
    Mr. Rohrabacher. My time is----
    Mr. Woolsey. Simply by being smart----
    Mr. Rohrabacher.--up, and let me just note I appreciate 
your testimony. I agree with everything you have said today, 
and the bottom line is is that we should be more efficient and 
more save consumption of oil and et cetera, become more 
independent for a lot of the reasons----
    Chairman Miller. The gentleman's time----
    Mr. Rohrabacher.--other than climate change. Thank you.
    Chairman Miller. Mr. Baird.
    Mr. Baird. You recognize me for just five minutes?
    Chairman Miller. If you use less, you would be viewed by 
the Chair as a great American.

               Rallying Americans Behind Energy Problems

    Mr. Baird. Thank you. I would like to thank these two great 
Americans for what I think is one of the--actually we have a 
tremendous number of hearings in this body as you know, and I 
think this hearing is one that all Americans should have a copy 
of. And I commend you for your insights and the perspective you 
bring to this.
    As historians I would ask you this question. One of my 
concerns about this conflict we currently face in Iraq--and 
about how we deal with potential for climate change, 
acidification of the oceans, and all the other impacts--is that 
there seems to be a reluctance on the part of our political 
leaders to truly call on the American people to dig deep in the 
spirit of patriotism and national and international interest to 
change their behaviors.
    Post-World War II. . .when World War II broke out, the 
Nation was in the fight. When September 11 happened, we were 
told to go shopping. As historians, what insights can you give 
us in terms of ways that we might rally the American people to 
change their behavior in relation to how we use energy and 
where energy comes from--as a national security as well as 
environmental--and other interests?
    General Sullivan. Well, first of all, I am, you know, a 
soldier, I am a retired general officer. I am somewhat 
reluctant to get into an area that is not my own. But certainly 
as you allude to, I think, this is an important conflict we are 
in. However you may feel about it politically; and I understand 
there are varying views on that, certainly up here as well as 
elsewhere throughout America. But we do have young men and 
women serving in both Afghanistan and Iraq, and they could use 
more of their fellow citizens. And asking the American people 
to support the Army, Navy, Air Force, and Marines with 
qualified people is, in my view, an important indication of how 
Americans feel about their own security. And service to the 
Nation in uniform is a noble calling.
    Now, to your point about sacrificing: If somebody somewhere 
can draw a link, and I am not sure I can, but if they could 
draw a link--as I say, I don't see how I could. If I were in 
the position of trying to mobilize public opinion to this issue 
that we are discussing here and this conflict, I think, I 
suppose you could if you went into the discussion that Mr. 
Woolsey was involved in and where oil comes from and the 
politics of all of that. Okay. Reduce the consumption of oil, I 
think in the long run that is very important. But other than as 
a catalyst for that discussion, I think it would be tough to 
sell it on what is going on in Iraq, and Iraq mainly.
    It could be done, but other people more expert than me in 
that: the mobilization of the American people, a la World War 
II and Ken Burns and all of that which is apparent to everyone 
who watches it. I think you have a good point but----
    Mr. Woolsey. Congressman, I would say that a clear call for 
a national commitment to move toward alternative fuels for 
transportation and distributed generation of energy: both fuels 
and electricity, with an eye towards renewables, but if you 
move toward distributed generation, it tends to be renewables. 
It is hard to put a coal-fired power plant on your roof. And I 
think the technologies are moving that way. Photovoltaics is 
taking off in part because of the progress that was already 
made with silicon chips for computers, and much of the 
technology is similar. Genetically modified biocatalysts to 
make transportation fuel out of waste and so forth is taking 
off because of genetic modification work done for 
pharmaceuticals, and battery capabilities are taking off 
because nobody wants to recharge their cell phones more than 
once a day.
    And because, unrelated to energy, these three things are 
all happening, and they give us an opportunity to exploit these 
technologies, and, I think, have the kind of call for national 
action that you were suggesting.
    Chairman Miller. Thank you. This panel is now concluded. I 
think we all need to run to the Floor to vote, but thank you 
very much, both Mr. Woolsey and General Sullivan.
    We will be in votes for a while, it looks like. There are 
five votes, so we could be gone for 45 minutes. But we will 
take the testimony of the next panel when we return. Thank you.
    [Whereupon, at 11:43 a.m., the Subcommittee recessed, to 
reconvene at 1:05 p.m., the same day.]
    Ms. Hooley. [Presiding] Dr. Alexander Lennon is a Research 
Fellow in the International Security Program at the Center for 
Strategic and International Studies and Co-Director of the 
forthcoming CSIS report, ``The Potential Foreign Policy and 
National Security Implications of Global Climate Change.'' Dr. 
Andrew Price-Smith is an Assistant Professor of Political 
Science at Colorado College, Director of the project on Health 
and Global Affairs, and author of the book, ``The Health of 
Nations: Infectious Disease, Environmental Change, and Their 
Effects on National Security and Development.'' Dr. Kent Hughes 
Butts is Professor of Political Military Strategy and the 
Director of the National Security Issues Group at the U.S. Army 
War College's Center for Strategic Leadership.
    Welcome to all of you. As our witnesses should know, spoken 
testimony is limited to five minutes each, after which the 
Members of the Committee will have five minutes each to ask 
questions.
    It is also the practice of the Subcommittee to take 
testimony under oath. Do you have objections to being sworn in?
    You also have the right to be represented by counsel. Is 
anyone represented by counsel at today's hearing?
    Okay. Please stand and raise your right hand.
    [Witnesses sworn]
    Ms. Hooley. Dr. Lennon, you may begin, and you can be 
seated.

                                Panel 2:

   STATEMENT OF DR. ALEXANDER T.J. LENNON, RESEARCH FELLOW, 
   INTERNATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC AND 
    INTERNATIONAL STUDIES; EDITOR-IN-CHIEF, THE WASHINGTON 
                           QUARTERLY

    Dr. Lennon. Thank you, Madam Chairman. It is an honor to be 
invited here before the Subcommittee to share my experiences 
with you today.
    Coming from the national security community, I think most 
Members traditionally approach climate change thinking about 
how Russia might be affected and how our competition with other 
major powers could come into play.
    With Members from the environmental community, climate 
change connotes images of glaciers melting, sea levels rising, 
polar bears losing their homes.
    My experience with this issue has turned both of these 
premises on their head. Over the next generation the foreign 
policy and national security implications for the United States 
are strongest because of the weakness that simply things like 
more frequent storms, more severe storms, and changes in 
rainfall patterns might be able to cause over a generation. 
Over the past year I have learned a tremendous amount from 
being the Co-Director of a project at CSIS, the Center for 
Strategic and International Studies, that has sought to combine 
the best insight of two traditionally separate communities: 
both the scientists in policy and climate change with analysts 
of foreign policy and national security.
    The project intentionally did not delve into questions 
about whether climate change is occurring, who is responsible 
for it, or what to do about it. It focused exclusively on how 
to understand the better potential foreign policy and national 
security implications, if climate change were to occur.
    The key to our focus was to change the timeframe of both 
communities' traditional analysis. That timeframe was to bring 
the national security community to look at a problem over the 
course of a generation, or about 30 years, or the time it takes 
for the purchases of major military platforms.
    Over the climate change what we found is that while the 
greatest temperature changes will be observed toward the Poles, 
the fragility of societies and governments that are closest to 
the equator means that the national security implications for 
the United States are greatest in those regions of the world.
    Four risks in particular struck me through our work. First 
is that climate change would exacerbate water, food, and energy 
shortages and increase the risk of at least political stress, 
particularly because of water shortages in the Middle East.
    Second, while many countries face stress from climate 
change, the geopolitical significance of China and the water 
shortages, desertification, migration, and public unrest that 
it may face over the next 30 years could undermine any fragile 
progress in economic and political modernization in that 
country or Beijing's ability to act as a responsible 
stakeholder in the international system.
    Third, migration within and from both South Asia and Sub-
Saharan Africa, particularly to Europe, threatens to cause 
instability in the developing world and increase the risk of 
radicalization in Europe of Muslim communities, which then must 
deal with politically-sensitive migration issues.
    Finally, and potentially of greatest concern to me, the 
effects of global climate change such as famine, disease, and 
storms can strain the poor regions of the world, undermine 
brittle confidence in governments, and increase the risk of 
state weakness and failure, a contributing cause to terrorism 
over the course of the next generation.
    The single greatest lesson from the project that I learned 
is that well before we get to the stage of rising sea levels or 
islands disappearing, there are sincere national security 
consequences to at least consider from simply storms and 
changing patterns of rainfall.
    I have a longer testimony that I prepared that I would 
request would be submitted for the record, but in the interest 
of time and to keep the statements short and engage in 
questions, I thank you for your attention, and I am happy to 
answer any questions I might be able to.
    [The prepared statement of Dr. Lennon follows:]
              Prepared Statement of Alexander T.J. Lennon

                THE FOREIGN POLICY AND NATIONAL SECURITY

                 IMPLICATIONS OF GLOBAL CLIMATE CHANGE

    The Center for Strategic and International Studies (CSIS), in 
collaboration with the Center for a New American Security (CNAS), has 
been conducting a project over the past year to identify and analyze a 
wide range of potential foreign policy and national security effects of 
major disruptions in the world's climate patterns. I have co-directed 
this project with Julianne Smith, Deputy Director of the International 
Security Program when the project started and now Director of the 
Europe program at CSIS, with the guidance of Executive Director, Kurt 
Campbell, who was Senior Vice President and Director of the 
International Security Program at CSIS when the project started and is 
now the co-founder and Chief Executive Officer of CNAS.
    The project has not collectively delved into questions about 
whether climate change is occurring or who might be responsible. Nor 
has the group sought to make recommendations about what to do about the 
issue. That is not our area of expertise. It has exclusively sought to 
better understand the potential foreign policy and national security 
implications if climate change occurs.
    Within this national security framework, the project has proceeded 
from two premises. First, the national security community is not 
traditionally accustomed to planning for contingencies more than thirty 
years into the future, or about the time frame for developing new 
military capabilities. Therefore, most of the work in this project 
focused on national security implications over the next three decades. 
Project members have concluded that it is not necessary for doomsday 
predictions of glaciers melting, ice sheets breaking off, or 
catastrophic sea level rise to come to fruition for U.S. foreign policy 
and national security interests to be harmed. Instead, the analysis 
focuses on consequences associated with effects such as more severe and 
frequent storms as well as changes in rainfall patterns over the next 
thirty years. Second, national security planning is based on being 
aware of, and contingency planning for, the worst consequences that may 
be encountered in the foreseeable future.
    Through a series of working groups, this effort has sought to 
combine the best insight of two traditionally separate expert 
communities--specialists in the science and policy of climate change 
with analysts of foreign policy and national security. In consultation 
with scientific experts through these working groups, Jay Gulledge of 
the Pew Center for Global Climate Change took the lead in outlining 
scenarios for three posited worlds, two over the next thirty years 
(expected and more dramatic climatic changes, respectively), as well as 
more cataclysmic global climate change over the next 100 years.
    Based on these scenarios, foreign policy and national security 
experts John Podesta, former Chief of Staff for President Bill Clinton; 
Leon Fuerth, former Vice President Gore's National Security Adviser; 
and R. James Woolsey, former Director of Central Intelligence, then 
respectively assessed a wide range of possible foreign policy and 
national security consequences--political, economic, social, military, 
and religious--of each world. The highlights are expected to be 
published as a monograph later this fall and in greater detail as a 
book in 2008.
    Unless otherwise noted, the testimony presented today is 
principally based on the mildest of these three scenarios, or the 
expected climate change over the next thirty years, based primarily on 
a scenario presented by the Intergovernmental Panel on Climate Change 
(IPCC) and analyzed by John Podesta and Peter Ogden with feedback from 
the working group. The frame for presenting these issues in this 
testimony is my own, highlighting what most struck me as Co-Director of 
the project, but my role here is to convey the findings as a co-
director and group member, not to present my original analysis. The 
credit for the analysis goes principally to the authors as well as 
working group members.
    Overall, project authors have emphasized that two general remarks 
about climate change should be highlighted. First, while rising average 
global temperatures tend to be discussed when analyzing climate change, 
the reality is that such changing temperatures usually vary widely both 
in different parts of the globe and across time, with impacts not 
evolving linearly but often suddenly. Changes in ocean currents, 
atmospheric conditions, and cumulative rainfall will vary dramatically 
across different regions and geographies. It is unfortunately also true 
that current modeling capacity focuses on continent-sized areas. We 
currently lack the models for smaller regions, countries, or areas.
    Second, at least as important as the way that the climate reacts to 
rising temperatures is the way that societies around the world react to 
temperate and climate changes. While the greatest changes in 
temperature will be seen toward the poles, the greatest vulnerabilities 
lie near the equator where fragile societies in Africa, south Asia, and 
central and South America will experience the greatest impact from 
climate change.
    While authors raise a variety of concerns throughout the three 
scenarios, four consequences stand out to me as the greatest concerns 
to U.S. foreign policy and national security interests.

        <bullet>  First, climate change would exacerbate water, food, 
        and energy shortages and increase the risk of at least 
        political stress if not resource conflicts, possibly over water 
        in the Middle East and even sources of protein, such as fish, 
        in East Asia.

        <bullet>  Second, while many countries will face stress from 
        climate change, potential consequences in China present unique 
        challenges because of its geopolitical significance.

        <bullet>  Third, migration within and from south Asia and Sub-
        Saharan Africa, including to Europe, threatens our foreign 
        policy and national security interests.

        <bullet>  Finally, and potentially of greatest concern to me, 
        the effects of global climate change will increase the risk of 
        state weakness and failure, exacerbating the threat of global 
        terrorism over the next generation.

    These crises are all the more dangerous because they are 
interconnected: water shortages can lead to food shortages, which can 
lead to resource conflicts, which can drive migration, which can create 
new food shortages in new regions, all of which can strain a state's 
ability to govern, particularly when it is already weak or failing. 
Collectively, the greatest risks of global climate change in the next 
thirty years come from its impacts in the developing world--not just 
the demands for disaster relief, development assistance, and conflict 
prevention that will be placed on the developed world, particularly the 
United States, but also to U.S. security itself from state failure and 
terrorism.

Water and other resource shortages

    An August 20 Washington Post article raised concerns that warming 
will exacerbate global water shortages. To put it simply, hotter 
temperatures mean that more water will evaporate into the air, 
increasing droughts, while at the same time potentially causing floods 
when it descends back to Earth as more severe rain storms, only to 
evaporate again in an increasingly violent hydrological cycle. 
Increasing water scarcity due to climate change will contribute to 
instability throughout the world.
    Although references to this threat may evoke images of armies 
amassing in deserts to go to war over water, Podesta and Ogden 
emphasize that the likelihood of such open conflict over the next 30 
years is low. Nevertheless, while we are not likely to see ``water 
wars,'' water scarcity can shape geopolitical order when states 
directly compete with neighbors over shrinking water supplies.
    This is likely to be the case in the Middle East, where water 
shortages will coincide with a projected population boom. According to 
current projections, the Middle Eastern and North African population 
could double in the next 50 years. Meanwhile, seventy-five percent of 
all the water in the Middle East is located in Iran, Iraq, Syria and 
Turkey. Situated at the headwaters of the Tigris and Euphrates, Turkey 
is the only country in the Middle East that does not depend on water 
supplies that originate outside of its borders. Yet climate change will 
leave all of the other countries dependent on water from the Tigris and 
Euphrates Rivers more vulnerable to deliberate supply disruption.
    Israel, for example, is extremely water poor and will only become 
more so. By 2025, Israel will have less than half the minimum amount of 
water per capita considered necessary for an industrialized nation. 
Moreover, Israel's water is in politically unstable territory with one-
third in the Golan Heights, a source of strain in its relations with 
Syria, and another third in the mountain aquifer that underlies the 
West Bank.
    Strains over water are not limited to the Middle East, particularly 
in more severe scenarios of climate change according to Leon Fuerth. 
The Indus River system is the largest contiguous irrigation system on 
Earth with the headwater of its basin in India, making it the most 
powerful player in political disputes over water. Pakistan, Bangladesh, 
and Nepal are already engaged in water disputes with India and severe 
climate change would exacerbate those tensions.
    The ongoing genocide in Darfur may have begun as a consequence of 
water scarcity. Water shortages have led to the desertification of 
large tracts of farmland and grassland. Arab nomads in North Darfur 
subsequently moved south for livestock to graze, thereby coming into 
conflict with southern sedentary farmers and mixing with simmering 
ethnic and religious tensions. Government refusal to address the 
grievances of southern farmers led in stages to rebellion, counter-
insurgency, and eventually ethnic cleansing.
    Other resources may be affected as well, according to Fuerth, 
particular under more severe predictions for climate change. For 
example, China could find itself in direct confrontation with Japan and 
even the United States over access to fish. Rising standards of living 
are already leading to increased demands for higher quality food and 
sources of protein, such as fish, in China. This increasing demand 
combined with severe climate change at a time when all major fisheries 
may have crashed as the result of unsustainable fishing practices, 
along with the ongoing, worldwide decimation of wetlands, would create 
at least political strains over sources of protein.

China's challenges

    Depleted fisheries are not the only challenges that climate change 
will present to China or that China will present to the world. China's 
current energy production and consumption patterns alone threaten the 
long-term global environment. Unless its pattern of energy consumption 
is altered, China's carbon emissions will reinforce or accelerate 
several existing domestic environmental challenges--ranging from water 
and food shortages to desertification to unrest within China--and 
become the primary driver of global climate change itself.
    Water shortages will pose a major challenge to China. Two-thirds of 
China's cities are currently experiencing water shortages, and will be 
exacerbated by shifts in precipitation patterns and increased water 
pollution. In 2004, the UN reported that most of China's major rivers 
had shrunk, and in December 2006 it found that the Yangtze River's 
water level dropped to an all-time low because of climate change. 
Northern China faces the greatest threat in this respect, as it will be 
subject to heat waves and droughts that will worsen existing water 
shortages.
    According to the IPCC's Fourth Assessment Report in 2007, these 
regional water shortages will also lead to food shortages as ``crops in 
the plains of north and northeast China could face water-related 
challenges in coming decades, due to increases in water demands and 
soil-moisture deficit associated with projected decline in 
precipitation.'' China's first national report on climate change, 
released in late 2006, estimates that national wheat, corn, and rice 
yields could decrease by as much as an astounding 37 percent in the 
next few decades.
    China, moreover, is severely affected by desertification. More than 
a quarter of China is already desert, and the Gobi is steadily 
expanding, threatening roughly 400 million people according to the UN 
Convention to Combat Desertification. The United Nations Framework 
Convention on Climate Changes (UNFCCC) notes that desertification-prone 
countries are ``particularly vulnerable to the adverse effects of 
climate change.''
    In spite of the colossal development projects that China has 
initiated, domestic social and political turmoil are expected to 
increase. One source of unrest will be increased human migration within 
China due to environmental factors. Much of this migration will 
reinforce current urbanization trends, putting added pressure on 
already overpopulated and dangerously polluted Chinese cities. Those 
regions of China that do benefit from some additional rainfall will 
also need to cope with an influx of migrants from water-scarce areas. 
In China's northwestern provinces, where rainfall may increase, the 
acceleration of the movement of Han Chinese into Muslim Uighur areas 
will aggravate tensions that have led to low-level conflict for many 
years.
    In the last few years, concerns over environmental issues have 
provoked thousands of Chinese to demonstrate across the country. In 
April 2005, as many as 60,000 people rioted in Huaxi village in 
Zhejiang Province over the pollution from a chemical plant. Just three 
months later, 15,000 people rioted for three days in the eastern 
factory town of Xinchang, 180 miles south of Shanghai, over the 
pollution from a pharmaceutical factory.
    More broadly, the findings of a poll conducted in China last year 
by the Chicago Council on Global Affairs and WorldPublicOpinion.org 
indicate that much of the Chinese public believes that climate change 
is a uniquely serious environmental problem. Some 80 percent of 
respondents concurred that within ten years, global warming could pose 
an important threat to their country's ``vital interest.''
    On one hand, this may lead to internal political reform designed to 
address public concern. It is also possible, however, that the Chinese 
leadership will not make necessary adjustments, potentially leading to 
larger protests and violent clashes with police, as well as more 
restrictions on the press and public use of the internet. Relations 
with the West would rapidly deteriorate as a result. Whatever the 
political response, many experts including SAIS China Director David 
Lampton, former Assistant Secretary of State Jim Kelly, and Secretary 
Rice have all argued that it is not in the U.S. interest to have a 
massive country like China be weak and unstable.

Migration

    Challenges from migration are not limited to China. The United 
States itself, like most wealthy and technologically advanced 
countries, will not experience destabilizing levels of internal 
migration due to climate change, but will still be affected. According 
to the IPCC, tropical cyclones will become increasingly intense in the 
coming decades, and will force the resettlement of people from coastal 
areas in the United States.
    The United States will also experience border stress due to the 
severe effects of climate change in parts of Mexico and the Caribbean. 
Northern Mexico will be subject to severe water shortages, which will 
drive immigration into the United States in spite of the increasingly 
treacherous border terrain. Likewise, the damage caused by storms and 
rising sea levels in the coastal areas of the Caribbean Islands--where 
60 percent of the Caribbean population lives--will increase the flow of 
immigrants from the region and generate political tension.
    In the developing world, however, the impact of climate-induced 
migration will be most pronounced. Migration will widen the wealth gap 
between and within many of these countries. It will deprive developing 
countries of sorely need economic and intellectual capital as the 
business and educated elite who have the means to emigrate abroad do so 
in greater numbers than ever before. Podesta and Ogden focus on the 
effects on three regions in which climate-induced migration will 
present the greatest geopolitical challenges are South Asia, Africa, 
and Europe.
South Asia
    No region is more directly threatened by human migration than South 
Asia. The IPCC warns that ``coastal areas, especially heavily populated 
mega-delta regions in South, East and Southeast Asia, will be at 
greatest risk due to increased flooding from the sea and, in some mega-
deltas, flooding from the rivers.'' Bangladesh, in particular, will be 
threatened by devastating floods and other damage from monsoons, 
melting glaciers, and tropical cyclones that originate in the Bay of 
Bengal, as well as water contamination and ecosystem destruction caused 
by rising sea levels.
    The population of Bangladesh, which stands at 142 million today, is 
anticipated to increase by approximately 100 million people during the 
next few decades, even as the impact of climate change and other 
environmental factors steadily render the low-lying regions of the 
country uninhabitable. Many of the displaced will move inland, which 
will foment instability as the resettled population competes for 
already scarce resources with the established residents. Others will 
seek to migrate abroad, creating heightened political tension not only 
in South Asia, but in Europe and Southeast Asia as well.
    Bangladeshi migrants will generate political tension as they 
traverse the region's many contested borders and territories, including 
between India, Pakistan, and China. The India-Bangladesh border is 
already a site of significant political friction, exemplified by the 
2,100 mile, two-and-a-half meter high, iron border fence that India is 
in the process of building.
    In Nepal, climate change is contributing to a phenomenon known as 
glacial lake outburst, in which violent flood waves reaching as high as 
15 meters destroy downstream settlements, dams, bridges, and other 
infrastructure. Ultimately, this puts further stress on the already 
beleaguered country as it struggles to preserve a fragile peace and 
reintegrate tens of thousands of Maoist insurgents. Neighboring the 
entrenched conflict zone of Kashmir and the contested borders of China 
and India, an eruption of severe social or political turmoil in Nepal 
could have ramifications for the entire South Asian region.
Nigeria and East Africa
    The impact of climate change-induced migration will be felt 
throughout Africa, but its effects on Nigeria and East Africa pose 
particularly acute geopolitical challenges. Migration will be both 
internal and international. The first domestic wave will likely be from 
agricultural regions to urban centers where more social services are 
available, and the risk of state failure will increase as central 
governments lose control over stretches of their territory and their 
borders.
    Nigeria will suffer from climate-induced drought, desertification, 
and sea-level rise. Already, approximately 1,350 square miles of 
Nigerian land turns to desert each year, forcing both farmers and 
herdsmen to abandon their homes. Lagos, the capital, is one of the West 
African coastal megacities that the IPCC identifies as at risk from sea 
level rise by 2015. This, coupled with high population growth (Nigeria 
is the most populous nation in Africa, and three-fourths of the 
population is under the age of 30), will force significant migration 
and contribute to political and economic turmoil. It will, for 
instance, exacerbate the existing internal conflict over oil production 
in the Niger Delta. Nigeria is the world's eighth-largest oil exporter, 
Africa's single-largest, and the fifth-largest oil exporter to the 
United States, larger than any Middle Eastern country other than Saudi 
Arabia. This instability has an impact on the price of oil, and will 
have global strategic implications in the coming decades.
Europe
    Some migration from South Asia and Africa will likely increase the 
number of Muslim immigrants to the European Union (EU), potentially 
exacerbating existing tensions and increasing the likelihood of 
radicalization among members of Europe's growing and often poorly 
assimilated Islamic communities. The majority of immigrants to most 
Western European countries are already Muslim. Muslims constitute 
approximately five percent of the European population, with the largest 
communities located in France, the Netherlands, Germany, and Denmark. 
Europe's Muslim population is already expected to double by 2025, and 
it will be much larger if climate change spurs additional migration 
from South Asia and Africa.
    The degree of instability generated will depend on how successfully 
these immigrant populations are integrated into European society. 
Unfortunately, this process has not always gone well as articles by 
State Department analyst Timothy Savage in The Washington Quarterly and 
Robert Leiken in Foreign Affairs have discussed. Although the influx of 
immigrants from Africa--Muslim and otherwise--will continue to be 
viewed by some as a potential catalyst for economic growth at a time 
when the EU has a very low fertility rate, the viability of the EU's 
loose border controls will be called into question, and the lack of a 
common immigration policy will invariably lead to internal political 
tension.

State failure

    In addition to potentially exacerbating radicalization in Europe, 
climate change could contribute to terrorism by increasing weak and 
failing states. In poor economic and social conditions, a country's 
political direction can change quickly. For instance, the inability or 
perceived unwillingness of political leaders to stop the spread of 
disease or to provide adequate care for the afflicted would undermine 
support for the government. In countries with functioning democracies, 
this could lead to the election of new leaders with political agendas 
radically different from their predecessors. It could also breed 
greater support for populist candidates whose politics resonate in a 
society that believes that its economic and social hardships are due to 
neglect or mismanagement by the government. In countries with weak or 
non-democratic political foundations, there is a heightened risk that 
this will lead to civil war or a toppling of the government altogether.
    Water-borne and vector-borne diseases such as malaria and dengue 
fever will be particularly prevalent in countries that experience 
significant additional rainfall due to climate change. Conversely, some 
air-borne diseases will thrive in precisely those areas which become 
more arid due to drought and higher temperatures, such as in parts of 
Brazil. Shortages of food or fresh drinking water will also render 
human populations more susceptible to illness and less capable of 
rapidly recovering.
    Restrictions on the movement of goods in response could become a 
source of economic and political turmoil. Countries that depend on 
tourism could be economically devastated by even relatively small 
outbreaks. For example, the fear of Severe Accurate Respiratory 
Syndrome (SARS) sharply curtailed international travel to Thailand in 
2003. Even without trade restrictions, the economic burden that disease 
will place on developing countries will be severe from factors such as 
added health care costs combined with a loss of worker productivity 
from worker absences.
    The outbreak of disease can also lead a government to adopt 
policies that may be seen as discriminatory or politically motivated by 
segments of its own population. Treatment may be provided first, or 
exclusively, to a particular ethnic group, religious faction, or 
political party. This can provide anti-governmental groups with the 
opportunity to increase their popularity and legitimacy by providing 
those health services that the government does not.
    The threat of state failure and a base for global terrorism may be 
highest in East Africa because of the potential number of weak or 
failing states, the numerous unresolved political disputes, and the 
severe impacts of climate change. Climate change will likely create 
large fluctuations in the amount of rainfall in East Africa during the 
next 30 years--a five to 20 percent increase in rainfall during the 
winter months will cause flooding and soil erosion, while a five to 10 
percent decrease in the summer months will cause severe droughts. This 
will jeopardize the livelihood of millions of people in a region where 
80 percent of the population earns a living from agriculture and it 
constitutes about 40 percent of GDP. Meanwhile, the entire Horn of 
Africa continues to be threatened by a failed Somalia and other weak 
states. Al Qaeda cells are active in the region, and there is a danger 
that this area could become a central breeding ground and safe haven 
for jihadists as climate change pushes more states toward the brink of 
collapse.
    The risk is also high in South Asia, particularly Bangladesh, where 
hundreds of Taliban and jihadists already found safe haven in the wake 
of the U.S. invasion of Afghanistan. In his May/June 2007 Foreign 
Affairs article, ``Al Qaeda Strikes Back,'' former National Security 
Council staffer and CIA analyst Bruce Riedel warns that Bangladesh is 
among the places most likely to become a new base of operations for al 
Qaeda. The combination of deteriorating socioeconomic conditions, 
radical Islamic political groups, and dire environmental insecurity 
brought on by climate change could prove a volatile mix with severe 
regional and potentially global consequences.

The U.S. response and the risk of desensitization

    Although some of the emergencies created or exacerbated by climate 
change may ultimately be managed by the United Nations, the United 
States will often be sought as a global ``first responder'' in the 
immediate aftermath of a major natural disaster or humanitarian 
emergency. The larger and more logistically difficult the operation, 
the more urgent the appeal will be.
    The U.S. military has already played a vital role in international 
relief efforts undertaken after the December 2004 Indian Ocean tsunami. 
Podesta and Ogden emphasize that there was simply no substitute for the 
more than 15,000 U.S. troops, two dozen U.S. ships, and one hundred 
U.S. aircraft that were dedicated to the operation. The performance of 
the U.S. military was resoundingly applauded by the international 
community. In Indonesia itself, the U.S. public image improved 
dramatically. A Pew Research Center poll conducted in the spring of 
2005 found that 79 percent of Indonesians had a more favorable 
impression of the United States because of its disaster relief efforts. 
As a result, the overall U.S. favorability rating in Indonesia rose to 
38 percent after having bottomed out at 15 percent in May 2003. U.S. 
Admiral Michael Mullen, chairman of the Joint Chiefs of Staff, was 
right to describe the military's response to the tsunami and the 
subsequent improvement of the U.S. image in the region as ``one of the 
most defining moments of this new century.'' The question now is 
whether the tsunami response will be remembered in 30 years time as a 
defining case or an exception to the rule.
    If and how to respond will be a recurring question for the United 
States, each time raising a difficult set of issues with important 
national security and foreign policy implications. How much financial 
assistance should the United States pledge and how quickly? With which 
other countries should the United States seek to coordinate its 
response, either operationally or diplomatically? Should the U.S. 
military participate directly, and, if so, in what capacity and on what 
scale?
    Over time, it is possible that the United States will become 
reluctant to expend ever greater resources on overseas disaster relief, 
not to mention longer-term humanitarian and stabilization operations, 
as the impacts of climate change begin to be seen more frequently and 
felt more acutely at home. Natural disasters already cost the United 
States billions of dollars annually, and the IPCC projects that climate 
change will create an ``extended period of high fire risk and large 
increases in area burned'' in North America and particularly in the 
western United States. The United States will also have to meet rising 
health costs associated with more frequent heat waves, a deterioration 
of air quality, and an increase in water-borne disease.
    We might have glimpsed a model of this future in the response to 
the 2005 Pakistani earthquake, which occurred within a year of the 
Indian Ocean tsunami and just two months after Hurricane Katrina. With 
time and resources devoted to the Gulf Coast, the United States may not 
have responded as quickly and effectively at it otherwise would have, 
and as a result, missed a rare opportunity to recast its image in a 
strategically critical country.
    Over the next three decades, the spread and advancement of 
information and communication technologies will enable the public to 
follow these crises more closely, making it difficult to ignore the 
widening chasm between how the world's ``haves'' and ``have-nots'' are 
affected by climate change. Ironically, as noted in a recent report by 
the UK Ministry of Defense's Development, Concepts, and Doctrine 
Center, the very words and images that at first will catalyze action 
might eventually lose their impact: ``Societies in the developed and 
developing worlds may become increasingly inured to stories of 
conflict, famine, and death in these areas and, to an extent, 
desensitized.''
    Ultimately, the threat of desensitization could prove one of the 
gravest threats of all, for it is clear that the national security and 
foreign policy challenges posed by climate change are tightly 
interwoven with the global leadership challenge of helping those least 
responsible to cope with its effects.
    Climate change will present challenges to U.S. foreign policy and 
national security interests all over the globe over the next 
generation. While the greatest temperature changes will be observed 
toward the poles, the greatest threats are likely to be seen closer to 
the equator, where societies and governments are more fragile and less 
able to cope with the strains of climate change. These threats include 
water shortages in the Middle East, environmental damage and domestic 
instability in China, migration within South Asia and Africa as well as 
from those regions to Europe, and state weakness and failure 
particularly in Africa and South Asia. Ultimately, these threats are 
not simply environmental but would exacerbate the threat to U.S. 
national security from terrorism itself, both by exacerbating 
radicalization of Muslim communities in Europe, which may then seek 
harm to Western societies, and by providing a home for terrorist 
operational planning and training in increasingly strained countries in 
the generation ahead.

                  Biography for Alexander T.J. Lennon
    Alexander T. J. Lennon is the Editor-in-Chief of The Washington 
Quarterly, the Center for Strategic and International Studies's (CSIS) 
policy journal on global strategic issues. Dr. Lennon is also a fellow 
in the international security program covering the grand strategy, 
foreign and defense policy of the great powers--particularly the United 
States, China, and India, but also Europe, Japan, and Russia--and on 
nuclear proliferation prevention strategy. He is also an adjunct 
professor in security studies at Georgetown University. His current 
research projects are on the national security implications of global 
climate change and the regional risks of proliferation, especially on 
Iran and North Korea.
    Before assuming his current positions, Lennon was the Deputy 
Director of studies at CSIS. Before that, he received a Presidential 
Management Internship (PMI) and served at the U.S. Department of State 
as the political-military officer principally responsible for bilateral 
security relations with Israel. While at the State Department, Lennon 
was awarded both the Benjamin Franklin award and a State Department 
Certificate of Appreciation for his performance as the lead U.S. action 
officer for the semiannual Joint Political-Military Group (JPMG) with 
Israel. Prior to that, he worked in the political-military studies 
program at CSIS where he specialized in Northeast Asian security issues 
as well as nuclear doctrine and nonproliferation.
    Alex has published articles in The Washington Quarterly (before he 
was Editor), Internationale Politik: Global Edition, Strategic Review, 
The China Business Review, The Christian Science Monitor, The Boston 
Globe, Defense News, and Newsday, among other publications. He has 
edited or co-edited five books: Reshaping Rogue States (Cambridge, MA: 
MIT Press, 2004); The Battle for Hearts and Minds (Cambridge, MA: MIT 
Press, 2003); What Does the World Want from America? (Cambridge, MA: 
MIT Press, 2002) Contemporary Nuclear Debates (Cambridge, MA: MIT 
Press, 2002); and (with Michael J. Mazarr) Toward a Nuclear Peace: the 
Future of Nuclear Weapons After the Cold War (New York: St. Martin's 
Press, 1994).
    Lennon has been interviewed on dozens of radio programs and 
television news broadcasts, including BBC, Fox-News TV, CBC (the 
Canadian Broadcasting Company), and Feature News Service throughout 
Asia. He is a life member of the International Institute for Strategic 
Studies (IISS), the Council on Foreign Relations (CFR), and the Council 
for Security Cooperation in the Asia-Pacific (CSCAP).
    Alex earned his Ph.D. in Policy Studies, part-time, at the 
University of Maryland where he wrote his dissertation on the role of 
transnational (track-2) security policy networks with other great 
powers in U.S. nuclear nonproliferation policy. He also holds a 
Master's degree in National Security Studies from Georgetown and an 
A.B. cum laude from Harvard, where he was the national intercollegiate 
policy debate (NDT) champion.

    Ms. Hooley. Thank you. Certainly from a different 
perspective I think than we have----
    Next we have Dr. Price-Smith.

 STATEMENT OF DR. ANDREW T. PRICE-SMITH, ASSISTANT PROFESSOR, 
 DEPARTMENT OF POLITICAL SCIENCE, COLORADO COLLEGE; DIRECTOR, 
 PROJECT ON HEALTH, ENVIRONMENT, AND GLOBAL AFFAIRS, COLORADO 
    COLLEGE/UNIVERSITY OF COLORADO-COLORADO SPRINGS; SENIOR 
 ADVISOR, CENTER FOR HOMELAND SECURITY, UNIVERSITY OF COLORADO

    Dr. Price-Smith. Thank you, Madam Chairman. I will be 
discussing the impact of global climate change on infectious 
disease, its implications for economic and political 
instability, and for U.S. national security.
    As you will see from the slides now presented to you, I 
will be discussing first the precipitation trends. This is IPCC 
data from, as you can see, 1900 to 2000. In my opinion it is 
the best global data set available. Period.
    The effects of precipitation on infectious disease are 
going to be expressed through precipitation's effects on 
vectors, namely mosquitoes, flies, snails, and so forth. And, 
specifically, increased precipitation will lead to increasing 
prevalence of malaria, schistosomiasis, and perhaps other 
diseases as well.
    Next slide, please. These are the annual temperature trends 
from 1976 to 2000. What we are likely to see here is an 
expansion of the ranges of disease-bearing vectors in terms of 
both latitude and altitude, which means that diseases like 
malaria are expected to move from the tropics towards the 
Poles--so, from the tropical to the sub-tropical and temperate 
regions.
    Furthermore, malaria and other vector-borne diseases may 
expand in terms of altitudinal range--in other words, moving up 
where it is up hills and mountainsides to affect cities like 
Nairobi in Kenya, which historically was free of malaria but is 
no longer so as a result of the warming trend in that region.
    I must confess I came to this topic as a bit of a skeptic. 
It was at Kent's invitation to a conference for the TISS down 
in North Carolina. However, I have changed my views a bit on 
some of these issues.
    Another thing that is interesting, if we could go back to 
the precipitation slide for a second, is the changes in 
aridity. All right. Arid environments are, in fact, inimical to 
certain pathogens, such as schistosomiasis, which is borne by 
snail vectors, specifically oncomelania. So you will see that 
in portions of Central Africa, right there indicated by the 
orange dots, those increasingly arid environments will actually 
see a decline in certain pathogens such as malaria and 
schistosomiasis because of their declining moisture.
    So what I would like to state is that climate change 
generates winners and losers. It is contextual, and it depends 
upon both the pathogen in question and the vector.
    Into the realm of economics--well, before we get there 
actually, let us discuss non-linearities. As Woolsey 
indicated--he brought this up this morning, I think--it is 
important to think in non-linear terms. All right. Diseases 
don't gradually increase. They expand geometrically once they 
attain a rate of expansion of over one within any given 
population.
    So thinking that climate change is just going to generate 
linear, slow, incremental change in terms of disease prevalence 
may be the wrong way to go. All right. We may see exceptional 
explosions of diseases in certain areas and also rapid declines 
of disease in other regions. Again, it is contextual.
    In the realm of economics now, health is the central driver 
of economic productivity. It has been rather established, I 
think. Conversely, disease erodes productivity, savings, and 
aggregate wealth in affected societies. Jeffrey Sachs has 
estimated that malaria alone generates 1.3 percent drag on GDP 
per capita growth in affected nations.
    Furthermore, disease exhibits differential impacts on 
class. The burden of disease falls primarily on the poor and 
middle class and historically has exacerbated inequities 
between classes.
    Politically, I think that, just in conclusion here--and I 
would be happy to answer more questions--pathogens should be 
thought of as stressors upon the state and upon societies and 
upon economies. It can exacerbate pre-existing conflicts 
between classes, ethnicities, religious factions, and between 
state and society. The destabilization is likely pathogen 
specific. And areas at risk in my opinion include South Asia, 
Southeast Asia, Sub-Saharan African, and portions of Latin 
America.
    The effects on U.S. national security in my opinion will be 
primarily indirect, but disease can act as a stressor to: 1) 
weaken states; 2) radicalize populations; and 3) thus 
facilitate radical and or terrorist activities, in my opinion.
    So in sum, much more research is actually required in this 
domain. It is a very new domain of exploration, climate to 
disease to economic and political outcomes, and hopefully we 
can provide more information to you.
    Thank you.
    [The prepared statement of Dr. Price-Smith follows:]
              Prepared Statement of Andrew T. Price-Smith

 On Climate Change and Infectious Disease: Implications for Political 
                      Destabilization and Conflict

    Mr. Chairman and Members of the Science and Technology Committee, 
thank you for inviting me here today to share with you my views 
regarding the impact of Global Climate Change on Infectious Disease, 
its implications for economic and political instability, and for U.S. 
national security. I am the Director of the Project on Health, 
Environment, and Global Affairs, which is an inter-university research 
initiative between Colorado College and the University of Colorado, 
Colorado Springs, and Senior Advisor to the Center for Homeland 
Security at the University of Colorado. I serve as Assistant Professor 
of Political Science at Colorado College, and have held previous 
appointments at Columbia University and the University of South 
Florida. Over the years I have served as consultant or advisor to the 
U.S. Department of Energy, and Department of Defense, the World Bank, 
the United Nations Development Program, and the Council on Foreign 
Relations.

On Etiology and Emergence

    In the twenty first century, novel pathogens are currently 
`emerging' at the rate of approximately one new agent per annum. 
Emerging diseases often are the result of `emergent properties' wherein 
antecedent variables (e.g., population density, speed of transport) 
combine in unusual and unforeseen ways that facilitate the emergence of 
a given pathogen which then becomes endogenized within the human 
ecology. The classic modern example of such emergent properties leading 
to viral proliferation is the SARS coronavirus which appeared in 
Guangzhou, China in late 2002, and subsequently spread throughout the 
Pacific Rim nations. In that particular case, this virulent coronavirus 
spread from its natural reservoir in east Asian bat populations, into 
palm civets. The variant of the virus that infected civets was 
transmissible among humans, amplified by elements of the human ecology 
such as the `wet markets' of East Asia, the closed environments of 
modern hospitals which amplified degrees of infection, and modern jet 
airplane technology that facilitated the rapid spread of the virus 
throughout the Pacific theater. Individually these disparate variables 
would not predict the emergence of epidemic disease, however, when 
combined together the SARS contagion of 02-03 resulted.
    The dynamics of contagion frequently exhibit such emergent 
properties,\1\ and the relations between pathogen, human host, and 
vectors of transmission (e.g., mosquitoes) are central to both the 
transmissibility and lethality of any given manifestation of contagion. 
Furthermore, epidemics and pandemics exhibit non-linearities and 
threshold dynamics. For example, pathogens may simmer in a given 
population for some time, but once the rate of transmission passes from 
<1 to >1, the proliferation of the pathogen may then increase on an 
exponential scale. Diseases also exhibit high levels of interactivity, 
and the capacity for co-infection. The classic example is HIV which 
destroys the host's immune system, and thereby facilitates colonization 
by other pathogens (e.g., tuberculosis) that ultimately kill the host. 
What then is the relationship between climate change, infectious 
disease, prosperity, and political stability and security? The 
complexity of such interactions is enormous, and so we begin with the 
relations between climate and disease, focusing on malaria in 
particular.
---------------------------------------------------------------------------
    \1\ For an in-depth discussion see Andrew Price-Smith, Contagion 
and Chaos, MIT Press, forthcoming 2008.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Data provided by the IPCC regarding changes in precipitation from 
1900-2000 indicate enormous variance on a global scale. Certain 
regions, such as the arctic and sub-arctic regions of the northern 
hemisphere, the northeastern sector of south Asia, and Eastern 
Australia are clearly enjoying increased levels of precipitation. 
Certain vectors of disease, (such as mosquitoes and snails) thrive in 
wet environments. Consequently, increases in precipitation will induce 
the proliferation of vectors, and thereby increase the transmission 
rates of certain pathogens such as malaria and schistosomiasis.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Pathogens and their vectors of transmission are often highly 
sensitive to changes in temperature as well. IPCC data from 1976-2000 
clearly indicate increasing temperatures for much of the surface of the 
planet, with the greatest increases evident in the temperate to polar 
regions. As isotherms shift toward the polar regions, this will expand 
the latitudinal range of the vectors in question (i.e., anopheles 
mosquitoes) and thereby permit the expansion of malaria in previously 
non-malarious zones. Similarly, increasing surface temperatures permit 
the movement of malaria in higher altitudes than before. For example, 
Nairobi has historically been non-malarial due to its altitude, but in 
recent years increases in temperature have seen the pathogen moving 
into the region. The temperature-induced expansion of malaria is 
problematic because it exposes novel populations, who often lack any 
genetic or acquired immunity to the pathogen. Thus, the mortality and 
morbidity in such regions may be much higher than in zones where 
malaria is endemic.
    Increasing temperatures also affect the biting rate of vectors. As 
temperatures rise, the vectors (mosquitoes) feed with greater 
frequency, and therefore increase the transmission rate of the 
plasmodium (the parasite) into human populations. Furthermore, 
increasing temperatures also affect the extrinsic incubation rate of 
the pathogen, such that it replicates within the gut of the vector at a 
greatly augmented rate. Thus, under conditions of higher temperatures, 
there are greater numbers of plasmodium within the vector, and the 
vector bites with much greater frequency.\2\ On a macro level, all of 
this means that as temperatures increase, the burden of disease (e.g., 
malaria) is likely to increase to a significant degree. Precipitation 
and Sea Surface Temperatures (SST's) are strong predictors of malarial 
incidence.\3\
---------------------------------------------------------------------------
    \2\ See Reiter 2001, Kovats et al., 2001; Hunter, 2003; van 
Lieshout, 2004; Patz et al., 2005; McMichael, 2006.
    \3\ M.C. Thompson et al., 2005.
---------------------------------------------------------------------------
    In the case of cholera, increasing SST's are highly correlated with 
the growth of algal blooms. The blooms move across oceans courtesy of 
dominant currents and winds, and function as vectors of transmission of 
the vibrio. Thus, we see a long-term empirical association between SST 
and the incidence of cholera. In the case of cholera we have also seen 
that incidence is responsive to the modulation of the El Nino Southern 
Oscillation (ENSO), with preliminary evidence from case studies carried 
out in Bangladesh (Rodo, 2002). There is also considerable evidence of 
thresholds and non-linearities, such that warming temperatures may 
produce minor and linear increases in vibrio incidence until a 
threshold point is reached, after which the numbers of the pathogen 
increase at an exponential scale.\4\
---------------------------------------------------------------------------
    \4\ See Xavier Rodo et al., 2002; J. Patz, 2002.
---------------------------------------------------------------------------
    Schistosomiasis is a frequently lethal disease induced by parasitic 
blood flukes, and it is prevalent in tropical and temperate zones. The 
vector of the parasite is the snail (oncomelania) which thrives under 
conditions of increased precipitation, and within the temperature range 
of 15.3 degrees C to an optimal temperature of 30 degrees C. The 
balance of available evidence suggests that global climate change (GCC) 
will shift the distribution of the vectors into new regions, and 
thereby afflict previously uninfected populations. A caveat however, 
the IPCC data clearly indicate that certain regions (e.g., West Africa) 
are becoming increasingly arid, which is inimical to the vector. 
Consequently, those zones that witness declining precipitation levels 
will see a decline in the incidence of schistosomiasis in their 
respective populations. In those regions that exhibit both increasing 
precipitation, coupled with increasing temperature, we are likely to 
witness augmented geographic zones of transmission, and increased 
frequency of transmission within those regions. Thus, GCC will result 
in winners and losers, dependent upon the particular pathogen in 
question, and its sensitivity to aridity and temperature.\5\
---------------------------------------------------------------------------
    \5\ See Nagasaki, 1960; Zhou et al., 2002; Yang et al., 2005; 
Steinmann et al., 2006; Guo-Jing Yang et al., 2007.
---------------------------------------------------------------------------

Economic Outcomes

    The economic historian Robert Fogel won the Nobel Prize in 
economics in 1994 for his analysis of the hypothesis that population 
health was the central driver of economic productivity (NBER, 1994). If 
health promotes prosperity, then disease erodes productivity and 
wealth. At the micro-economic level disease erodes productivity through 
mechanisms such as the debilitation of workers, increased absenteeism, 
increased medical costs, reduced savings and investment, and the 
premature death of breadwinners. At the sectoral level, disease imposes 
a particular burden upon those sectors of the economy that are labor-
intensive, such as agriculture, and resource-extraction, and thereby 
imposes a relatively greater effect upon the economies of the 
developing world.
    The impact of malaria is illustrative at the macro-economic level. 
Sachs and Malaney estimate that for those countries where malaria is 
endemic, the pathogen generates a 1.3 percent drag on their GDP growth 
rate, per capita/per annum. Further, Gallup and Sachs estimated that a 
10 percent decline in malaria incidence resulted in a 0.3 percent 
increase in the growth rate of GDP per capita/per annum. McCarthy 
estimated that malaria imposed a drag on the GDP growth rate of 
affected nations, at the level of 0.25 to 0.55 percent per annum.\6\ In 
case studies of individual nations, malaria control has resulted in 
greater prosperity for the polity in question. For example, malaria 
control measures in Zambia resulted in a $7.1 billion increase to that 
nation's economy.\7\
---------------------------------------------------------------------------
    \6\ D. McCarthy et al., NBER paper 7541, 2000.
    \7\ Utzinger et al., 2002.
---------------------------------------------------------------------------
    The burden of infectious disease falls primarily upon the poor and 
middle classes, and therefore as the burden of disease increases in 
certain regions it will likely exacerbate both the perceived and real 
level of economic inequities between socioeconomic strata. 
Historically, such perceptions of inequity have led to periods of 
social and political destabilization.\8\ On a global scale, GCC-induced 
increases in the burden of disease will exert a drag on the global 
economy, and the perpetuation of poverty within the LDCs.
---------------------------------------------------------------------------
    \8\ Price-Smith, Contagion and Chaos, MIT Press, 2008, forthcoming.
---------------------------------------------------------------------------
    Assessments of the economic burden of a given illness (e.g., 
malaria) are complicated by the lack of adequate surveillance 
infrastructure throughout much of the developing world where the 
disease is endemic.\9\ Moreover, the complexity of measuring the 
economic impact of GCC-induced infectious diseases is augmented by the 
interactivity of various pathogens in a given population. For example, 
the population of country X may be increasingly beset by increased 
incidence of malaria, dengue fever, and schistosomiasis, and certain 
individuals may exhibit co-infection with one or more pathogens.
---------------------------------------------------------------------------
    \9\ Worral et al., 2004, 2005.
---------------------------------------------------------------------------
    Pathogens may also erode the functionality and efficacy of the 
state as well. For example, disease-induced economic stagnation (or 
contraction) of the macro economy will consequently reduce tax-based 
revenues available to the state. Diminished revenues will in turn 
impede the state's capacity to provide public goods and services (e.g., 
education, law enforcement) to its population. This may in turn reduce 
the populace's perceptions of the legitimacy of the state. In the 
domain of human capital, disease may further erode state capacity by 
debilitating and/or killing trained and skilled personnel, thereby 
reducing institutional resilience and efficacy.\10\
---------------------------------------------------------------------------
    \10\ An expanded analysis of the pernicious effects of disease on 
the state can be found in Andrew Price-Smith, The Health of Nations, 
MIT Press, 2002.
---------------------------------------------------------------------------

On Poverty, Instability and Conflict

    The association between poverty, political destabilization, and 
outright conflict is complex. In particular, there is an endogeneity 
issue regarding the direction of causality. However, we can make some 
preliminary observations at this point. First, various iterations of 
the State Failure Task Force conducted empirical investigations and 
determined that infant mortality (as a measure) is a strong empirical 
predictor of state failure.\11\ Ted Gurr argued that increasing levels 
of poverty induced a psychological state of deprivation (perceived 
injustice) that often led to intra-state conflict.\12\ This hypothesis 
that conditions of deprivation (both real and perceived) led to civil 
strife was supported by Deininger (2003), and low levels of the Human 
Development Index are associated with conflict in Indonesia (Malapit et 
al., 2003). Other political scientists have found that poverty combines 
with ethnic fragmentation to produce intra-state conflict (Easterly and 
Levine, 1997; Wilkinson, 2004; Korf, 2005). Charles Tilly has argued 
that inequities are directly associated with intrastate conflict 
(Tilly, 1998).\13\ Further, there is empirical evidence that social 
polarization leads to conflict (Esteban and Ray, 1994, 1999; Boix, 
2004), and that conflict may function as a `coping strategy' for those 
populations confronted with extreme levels of economic deprivation 
(Humphreys and Wienstein, 2004; Verwimp, 2005). Convincing arguments 
take the form of the state weakness hypothesis wherein deprivation 
combines with a weakened state to offer both the motive and the 
opportunity for political violence, with evidence from numerous case 
studies (see Kahl, 2006; and Homer-Dixon, 1999). Political scientists 
(Singer, 2002) have also hypothesized that increased levels of 
infectious disease may lead to conflict between sovereign states. 
Although there is evidence that contagion leads to political acrimony 
and trade disputes between nations, there is no evidence that 
infectious disease results in war between nations (Price-Smith, 2008). 
Despite the proliferation of literature to support the hypothesis that 
economic deprivation generates political violence at the intra-state 
level, additional cross-national empirical analysis, using time-series 
data, is required. That said, the balance of existing evidence supports 
the hypothesis.
---------------------------------------------------------------------------
    \11\ D. Esty et al., State Failure Task Force I and II.
    \12\ Gurr, 1970.
    \13\ Also see Stewart, 2000; Langer, 2004; Mancini, 2005.
---------------------------------------------------------------------------

Conclusions

    Pathogens function as stressors that impose burdens on both 
populations (i.e., society), and upon the structures of the state 
itself. Historical analysis of the stresses generated by epidemic 
disease demonstrate that pathogens have exacerbated preexisting 
conflicts between socioeconomic classes, between ethnicities, between 
those of different religious affiliations, and frequently induced 
conflicts between state and society.\14\ Thus, the GCC-induced 
proliferation of disease may facilitate socio-political 
destabilization, particularly in the weak states and impoverished 
populations of the developing world. However, such destabilization is 
contingent upon several factors, it is pathogen-specific, and it 
depends upon existing socioeconomic and political cleavages within the 
polity in question. Areas at risk of such disease-induced 
destabilization include the sub-tropical to temperate zones, as 
tropical pathogens and their attendant vectors expand into these 
contiguous zones to affect immunologically naive populations. Thus, we 
should be concerned about nations in South Asia, Central and East Asia, 
Southern Africa, and South America. Typically the effects of disease-
induced destabilization upon the security of the United States will be 
indirect, however, in the post 9-11 era we now recognize that weak and 
failed states in the developing world may generate externalities (such 
as terrorism and political radicalization) that threaten the material 
interests of the dominant powers of the international system, including 
the United States.
---------------------------------------------------------------------------
    \14\ See Friedrich Prinzing, 1916; David Baldwin, 2004; Richard 
Evans, 2005; Alfred Crosby, 1986; William McNeill, 1976; Charles 
Rosenberg, 1987; Sheldon Watts, 1999; Terence Ranger and Paul Slack, 
1996; and J.N. Hays, 1998.
---------------------------------------------------------------------------
    In conclusion, further research is required to flesh out the 
complex chain of possible causation that I have detailed above. This 
will require the formation of interdisciplinary teams of both social 
and natural scientists who will then model the impacts of climate 
change upon disease, and the consequent effects upon the economic and 
political domains. This might involve the compilation of a time-series 
data set across a representative sample of countries. One obvious 
problem involves modeling the long-term processes of climate change, 
however we might use the ENSO effect to model how short-term changes in 
climate induce variance in disease incidence, and then observe the 
resulting economic and political impacts over the very short-term.
    Thank you, Mr. Chairman, for providing me this opportunity to 
appear before you. I'm happy to respond to Members' questions.

Bibliography

Aron, J. and Patz, J.A. (eds.) Ecosystem Change and Public Health: A 
        Global Perspective, (Baltimore, MD: Johns Hopkins University 
        Press, 2001.

Baldwin, Peter. Contagion and the State in Europe, 1830-1930. New York, 
        NY: Cambridge University Press, 2005.

Boix, C. ``Political Violence,'' Paper prepared for the Yale Conference 
        on Order, Conflict, and Violence, Yale University, April 30th, 
        2004.

Crosby, Alfred. Ecological Imperialism: The Biological Expansion of 
        Europe, 900-1900. Cambridge, UK: Cambridge University Press, 
        1986.

Deininger, Klaus. ``Causes and Consequences of Civil Strife: micro-
        level evidence from Uganda.'' Oxford Economic Papers 55, 2003, 
        pp. 579-606.

Easterly, W. and R. Levine, ``Africa's Growth Tragedy: Policies and 
        ethnic divisions,'' Quarterly Journal of Economics, Vol. 112 
        (4) 1997, pp. 1203-1250.

Evans, Richard. Death in Hamburg: Society and Politics in the Cholera 
        Years. New York, NY: Penguin, 2005.

Esteban, J. and D. Ray, ``Conflict and Distribution,'' Journal of 
        Economic Theory, 87, pp. 379-415, 1999.

Esty, D.C. et al., State Failure Task Force Report I and II, Washington 
        DC: SAIC, 1995 and 1998.

Fogel, Robert. The Conquest of High Mortality and Hunger in Europe and 
        America: Timing and Mechanisms, NBER Historical Working Paper 
        16, September 1990.

Gallup, J. and J. Sachs, ``The economic burden of malaria,'' American 
        Journal of Tropical Medicine and Hygiene, 64 (supplement) pp. 
        85-96.

Gurr, Ted. 1970. Why Men Rebel, (Princeton NJ: Princeton University 
        Press).

Hays, J.N. The Burdens of Disease: Epidemics and Human Response in 
        Western History. New Brunswick, NJ: Rutgers University Press, 
        2003.

Homer-Dixon, Thomas. Environment, Scarcity and Violence, Princeton, NJ: 
        Princeton University Press, 1999.

Humphreys, M. and J. Wienstein, ``Handling and Mishandling Civilians in 
        Civil War,'' American Political Science Review, August 2006.

Hunter, P.R. Climate Change and waterborne and vector-borne disease, 
        Journal of Applied Microbiology, Vol. 94 (1), 2003, pp. 37-46.

Kahl, Colin. 2006. States, Scarcity, and Civil Strife in the Developing 
        World, (Princeton NJ: Princeton University Press).

Korf, B. ``Functions of violence revisited.'' Journal of Conflict 
        Resolution, Vol. 49 (4), Aug. 2005, pp. 451-482.

Kovats, R.S. et al., Early effects of Climate Change: Do they Include 
        Changes in Vector-Borne Disease? Philosophical Transactions: 
        Biological Sciences, Vol. 356, No. 1411, 2001, pp. 1057-1068.

Langer, A. Horizontal Inequities and violent conflict; the case of Cote 
        d'Ivoire, (Oxford, UK: Centre for Research on Inequality, human 
        security, and ethnicity, University of Oxford, 2004) 
        www.crise.ox.ac.uk/pubs/workingpaper13.pdf

Malapit, H., et al., Does violent conflict make chronic poverty more 
        likely? The Mindanao experience, Working paper 2003. 
        www.chronicpoverty.org/pdfs/conferencepapers/malapit.pdf

Mancini, L. Horizontal Inequality and Communal Violence: evidence from 
        Indonesian Districts, (Oxford, UK: Centre for Research on 
        Inequality, human security, and ethnicity, University of 
        Oxford, 2005) www.crise.ox.ac.uk/pubs/workingpaper22.pdf

McCarthy, D., et al., The Growth Costs of Malaria, NBER paper 7541, 
        Feb. 2000.

McNeill, William. Plagues and Peoples. New York, NY: Doubleday, 1976.

McMichael, Tony. Human Frontiers, Environments and Disease, New York: 
        Cambridge University Press, 2001.

Patz, J. ``A human disease indicator for the effects of recent global 
        climate change,'' Proceedings of the National Academy of 
        Sciences, Vol. 99 (20), 2002, pp. 12506-12508.

Price-Smith, Andrew. The Health of Nations: Infectious Disease, 
        Environmental Change and Their Effects on National Security and 
        Development, (Cambridge, MA; MIT Press, 2002).

Price-Smith, Andrew. Contagion and Chaos, Disease and Political Discord 
        in the era of Globalization, (Cambridge, MA; MIT Press, 2008), 
        forthcoming.

Prinzing, Friedrich. Epidemics Resulting from Wars. Oxford, UK: 
        Clarendon Press, 1916.

Ranger, Terence, and Paul Slack, eds. Epidemics and Ideas: Essays on 
        the Historical Perception of Pestilence. Cambridge, UK: 
        Cambridge University Press, 1992.

Reiter, Paul. Climate Change and Mosquito-Borne Disease, Environmental 
        Health Perspectives, Vol. 109, 2001, pp. 141-161.

Rodo, X. et al., ``ENSO and cholera: a nonstationary link related to 
        climate change? Proceedings of the National Academy of 
        Sciences, Vol. 99 (20), pp. 12901-12906.

Rosenberg, Charles. The Cholera Years. Chicago,IL: University of 
        Chicago Press, 1987.

Sachs, J. and P. Malaney, ``The economic and social burden of 
        malaria,'' Nature, Vol. 415, 7 February 2002, pp. 680-685.

Steinmann, P., et al., ``Schistosomiasis and water resource 
        development: systematic review, meta-analysis, and estimates of 
        people at risk,'' Lancet Infectious Diseases, Vol. 6 (7), 2006, 
        pp. 411-425.

Stewart, Frances. ``Root causes of violent conflict in developing 
        countries,'' British Medical Journal, Vol. 324, 9 February 
        2000, pp. 342-345.

Thompson, M.C. et al., ``Use of Rainfall and Sea surface temperature 
        monitoring for malaria early warning in Botswana,'' American 
        Journal of Tropical Medicine and Hygiene, Vol. 73 (1), 2005, 
        pp. 214-221.

Tilly, Charles, Durable Inequalities, (Berkeley CA: University of 
        California Press, 1998).

Utzinger, J. et al., ``The economic payoffs of integrated malaria 
        control in the Zambian copperbelt between 1930 and 1950,'' 
        Tropical Medicine and International Health, Vol. 7 (8), pp. 
        657-677, August 2002.

Van Lieshout, M, et al., Climate Change and malaria: analysis of the 
        SRES climate and socio-economic scenarios, Global Environmental 
        Change, Vol. 14, 2004, pp. 87-99.

Verwimp, P. ``An economic profile of peasant perpetrators of genocide: 
        micro-level evidence from Rwanda,'' Journal of Development 
        Economics, Vol. 77 (2), August 2005, pp. 297-323.

Watts, Sheldon. Epidemics and History: Disease, Power and Imperialism. 
        New Haven, CT: Yale University Press, 1997.

Wilkinson, Steven. Votes and Violence: Electoral competition and Ethnic 
        riots in India, (New York: Cambridge University Press, 2004).

Worral, E. et al., ``The burden of malaria epidemics and cost-
        effectiveness of interventions in epidemic situations,'' 
        American Journal of Tropical Medicine and Hygeine 71 (2 suppl) 
        2004, pp. 136-140.

Worral, E. et al., ``Is malaria a disease of poverty? A review of the 
        literature,'' Tropical Medicine and International Health, Vol. 
        10 (10), pp. 1047-1059, October 2005.

Yang, G.J. et al, ``Effect of temperature on the development of 
        Schistosomiasis japonicum within Oncomelania hupensis, and 
        hibernation of O. hupensis,'' Parasitology Research, Vol. 100 
        (4), March 2007, pp. 695-700.

Yang, G.J. et al., ``A potential impact of climate change and water 
        resource development on the transmission of schistosoma 
        japonicum in China,'' Parassitologia, Vol. 47 (1), March 2005, 
        pp. 127-34.

Zhou et al, ``Potential Impact of Global Warming on the transmission of 
        schistosomiasis,'' Chinese Journal of Epidemiology, 2002.

                  Biography for Andrew T. Price-Smith
    Andrew T. Price-Smith is Director of the Project on Health, 
Environment, and Global Affairs, which is an inter-university research 
initiative between Colorado College and the University of Colorado, 
Colorado Springs, and Senior Advisor to the Center for Homeland 
Security at the University of Colorado. He is also Assistant Professor 
of Political Science at Colorado College, and Adjunct Professor of 
Environmental Science. He received his Ph.D. in Political Science from 
the University of Toronto in 1999, where he also served as founding 
Director of the Project on Health and Global Affairs at the Munk Center 
for International Studies. From 1999-2000 he served as a post-doctoral 
Fellow in the Earth Institute and taught at the School of International 
and Public Affairs of Columbia University. Following that he taught at 
the University of South Florida in both the Department of Government, 
and the Environmental Science and Policy Program. He is author of The 
Health of Nations (MIT Press, 2002), which was short-listed for the 
Grawemeyer Award; co-author with John L. Daly of Downward Spiral: HIV/
AIDS, State Capacity and Political Conflict in Zimbabwe (USIP Press, 
2004), and editor of Plagues and Politics: Infectious Disease and 
International Relations (Palgrave, 2001) as well as various chapters, 
articles, papers and book reviews. Andrew is the Chair of the Section 
on Health and Population Studies for the International Studies 
Association-West, and serves as a member of the governing board of ISA-
West as well. Dr. Price-Smith is a specialist in international health 
and economic development, and biosecurity issues.

    Ms. Hooley. Thank you so much. Again, another interesting 
perspective, and I am glad that you told me about snails 
because I understood mosquitoes and flies but I thought, what 
do snails have to do with this? So thank you.
    Next we have Dr. Butts. Welcome.

  STATEMENT OF DR. KENT HUGHES BUTTS, PROFESSOR OF POLITICAL 
 MILITARY STRATEGY; DIRECTOR, NATIONAL SECURITY ISSUES, CENTER 
        FOR STRATEGIC LEADERSHIP, U.S. ARMY WAR COLLEGE

    Dr. Butts. Thank you, Madam Chairman, for allowing me to 
contribute to the work of the Subcommittee on Investigations 
and Oversight.
    The relationship between climate change and security is 
important and will play a major role in defining the future 
vitality of the United States. Today I will focus on the role 
of the Department of Defense in addressing climate change and 
security issues, and in particular highlight the value of 
involving the regional combatant commands in building sovereign 
nation capacity for mitigating and destabilizing climate change 
threats.
    Before I begin, please allow me to note that I am appearing 
today on my own behalf, and my views do not represent the views 
of the U.S. Army War College or the United States Army or the 
Department of Defense or any other establishments with which I 
am associated.
    While debate continues on the causes of climate change, 
significant consensus for addressing its security dimensions 
already exists, and it creates many opportunities for alliance 
and partner cooperation, building on issues of major 
significance to regional security. The security community is 
still coming to grips with soft security issues in general and 
climate change in particular. For years security studies 
focused on force-on-force issues and reflected the Cold War 
milieu. New definitions take time to build constituencies. 
Terms such as environmental security, economic security, human 
security have different stakeholders and require different 
approaches from the security community.
    Climate change is an environmental security issue and 
should be considered in that context. Environmental security 
refers to a ``process whereby solutions to environmental 
problems contribute to national security objections.'' While 
the relationship of environmental issues to security was 
recognized previously, the end of the Cold War brought a new 
examination of the dimensions of security and the recognition 
that environmental issues could inflame existing tensions into 
conflict but could also serve as confidence-building measures 
to reduce tensions.
    NATO's post-Cold War strategic concept made this clear. 
Risks to security are less likely to result from calculated 
aggression but rather from the adverse consequences of 
instabilities faced by many countries. Security and stability 
have political, economic, social, and environmental elements as 
well as the indispensable defense dimension. Climate change 
affects the management of these elements and is a threat 
multiplier for instability in most of the volatile nations of 
the world. In the post-Cold War era, then, instability is the 
chief threat to U.S. national security interests.
    Soft security issues left untended have the potential to 
destabilize regions and become hard security issues which 
require the introduction of combat forces and threaten U.S. 
security interests.
    The security dimensions of climate change could be 
characterized as having three levels: global, geopolitical, and 
regional. If you looked at the 2006 Quadrennial Defense Review 
of the Department of Defense, it states that the transformed 
DOD seeks to take preventative action so problems do not become 
crises. This should be the U.S. approach to climate change and 
security and involve all elements of national power.
    Department of Defense as the military element of national 
power should support that effort. DOD can contribute to 
security dimensions at each level. DOD can reduce its energy 
consumption and carbon emissions. It can encourage 
technological research, development, and energy conservation, 
clean fuels, and alternative energy. It can prepare for 
military responses to new geopolitical realities such as 
competition for arctic resources. It can proactively build 
regional capabilities and alliances to create climate change 
resilience and preserve regional stability.
    These missions make sense and will result in major source 
savings for energy, waste disposal, and combat arms 
deployments. However, DOD should not assume the climate change 
responsibilities of other agencies. These agencies should be 
properly resourced and directed to assume their climate change 
missions.
    While the ongoing National Intelligence Estimate and 
Military Advisory Board summaries of the threat to security are 
pressing, we need to do more. The questions should be asked: 
Where is DOD possibly involved in solving environmental 
security issues? Where are U.S. national security threats 
evidence? What resources should be brought to bear? And how 
should the Department of Defense be working with other agencies 
to do that?
    If we put those questions in our national security 
strategy, if we suggest answers to those questions and 
delineate which agencies will be involved, then DOD's strategic 
documents will address climate change, and we will have the 
best minds nationwide addressing the security dimension, and we 
will preserve the vitality of the United States.
    Thank you very much.
    [The prepared statement of Dr. Butts follows:]
                Prepared Statement of Kent Hughes Butts

                      Climate Change and Security

    I am pleased to be able to contribute to the work of the 
(Subcommittee on Investigations and Oversights) House Committee on 
Science & Technology on ``The National Security Implications of Climate 
Change.'' The relationship between climate change and security is 
important and will play a major role in defining the future vitality of 
the United States (U.S.). Today, I will focus on the role of the 
Department of Defense (DOD) in addressing climate change security 
issues and, in particular, highlight the value of the regional 
combatant commands in building sovereign nation capacity for mitigating 
destabilizing climate change threats. Before I begin, please note that 
I am appearing today on my own behalf and my views do not represent the 
views of the United States Army, Department of Defense, or any other 
establishment with which I am associated.

CHANGE BRINGS OPPORTUNITY

    Today we have an opportunity for addressing the security dimensions 
of climate change that did not previously exist. President Bush's 
recent leadership role on climate change issues and his decision to 
support the 33rd G8 Summit's effort to at least halve the global carbon 
dioxide emissions by 2050 was a watershed for the United States climate 
change policy.\1\ It reflects a growing recognition in the United 
States of the importance of proactively addressing the issue of climate 
change and encourages research on its security dimensions.
---------------------------------------------------------------------------
    \1\ Mr. James Gertenzang and Mr. Richard Simon, ``Bush Offers to 
Take Climate Lead,'' Los Angeles Times, June 1, 2007 available at 
http://www.latimes.com/news/nationworld/nation/la-na-
bush1june01,1,27206787.story?track=crosspromo&col; Fact Sheet: ``A New 
International Climate Change Framework,'' The White House, President 
George W. Bush, Office of the Press Secretary, May 31, 2007.
---------------------------------------------------------------------------
    In order to understand the way that the United States is 
approaching climate change one must consider many domestic variables. 
There is substantial movement on climate change in the United States 
that are now being recognized and changing the milieu in which the 
security dimensions of climate change are being considered.
    The election of the 110th Congress is having a significant impact 
on how the United States approaches climate change. Congress is drawing 
governmental attention to environmental issues across many agencies 
often in a bipartisan way. The Amendment to the Defense Appropriations 
Act requiring the Department of Defense to consider climate change in 
its planning and operations was submitted by Senator Clinton but 
supported by some Republicans.\2\ Senators Domenici and Bingaman 
recently co-authored a major paper on climate change regulating 
greenhouse gasses.\3\
---------------------------------------------------------------------------
    \2\ Press Release, United States Senate, Carl Levin, Michigan, 
Chairman, Committee on Armed Services, SR-228 Russell Senate Office 
Building, Washington, DC 20510, May 25th 2007.
    \3\ Senators Pete V. Domenici and Jeff Bingaman, Issue Paper 
``Design Elements of a Mandatory Market Based Greenhouse Gas'' 
Regulatory System, February 2006.
---------------------------------------------------------------------------
    The faith based community is a powerful force in U.S. politics from 
the local to the national level. President Bush has made clear the 
importance of his faith and this community. Recently leaders of the 
evangelical Christian community have entered the debate on 
environmental degradation and climate change. The National Association 
of Evangelicals has taken a pro environmental stance that reflects the 
concept of humankind being held accountable for what they do with the 
world God created.\4\ Thus, within the religious conservative 
community, there is a re-examination of environmental issues and 
growing support for national efforts to mitigate activities that may 
contribute to climate change.
---------------------------------------------------------------------------
    \4\ Ms. Barbara Bradley Hagerty, ``Global Warming: Evangelical 
Leaders Urge Action on Climate Change,'' available at http://
www.npr.org/templates/story/story.php?storyId=5194527; Mr. James Sherk, 
``Christians and Climate Change: Should Followers of Christ concern 
themselves with the threat of Global Warming?'' Available at http://
www.evangelicalsociety.org/sherk/wwjdpf.html
---------------------------------------------------------------------------
    There are other political realities at play. Polls have noted a 
trend toward taking action on climate change variables among both 
political parties. In the last national presidential election, polls 
showed that a majority of Republican voters favored doing more to curb 
tailpipe admissions. Being against taking action to address climate 
change is no longer of value to candidates running for office in many 
states. This is an important trend.
    The private sector is becoming a powerful force for climate change 
regulation. The private sector is increasingly lining up behind taking 
action on greenhouse gas emissions. Faced with growing State and local 
legislation aimed at controlling emissions, the private sector is 
seeking a place at the table where this legislation is being crafted, 
particularly at the national level. The private sector would prefer one 
federal standard to which it could adapt production technology rather 
than varying standards across states and regions.
    It is particularly important to remember that much environmental 
policy in the United States originates at the State and local level. 
The U.S. air and water quality standards were first developed at the 
State level. Because of its sizable economy, air quality standards in 
California drove the auto industry to drop opposition to emissions 
control and produce vehicles to meet that state's and federal 
requirements. However, it often takes years for State standards to 
become federal standards. It may appear that the United States is not 
moving forward on climate change mitigation, but in fact, the recent 
environmental policies implemented in California are already changing 
the national debate as other states consider similar legislation.\5\ 
The impact of State climate change policies and recent U.S. Supreme 
Court decisions are being felt at the national level.
---------------------------------------------------------------------------
    \5\ California Governor Arnold Schwarzenegger, Press Release, 
``Governor Schwarzenegger Applauds California Climate Action Registry 
for Joining First Multi-State Greenhouse Gas Tracking,'' May 8, 2007, 
available at http://gov.ca.gov/index.php?/press-release/6165/.
---------------------------------------------------------------------------
    There are other key variables in the shift of public opinion on 
climate change. The Intergovernmental Panel on Climate Change (IPCC) 
report presented a strong case for mitigating climate change, providing 
previously lacking consensus among the scientific community on critical 
aspects of the debate.\6\ Media coverage of obvious phenomena of 
climate warming, such as the melting of glaciers and polar ice caps, 
was highly influential, even among those unfamiliar with the technical 
dimensions of the climate change debate. Former Vice President Gore's 
movie, personal appearances, and their publicity reinforced the IPCC 
report and gave an abstract (to some) concept a clear image. 
Complementing these activities has been the growing understanding of 
the importance of climate change to the traditional national security 
objectives.
---------------------------------------------------------------------------
    \6\ Intergovernmental Panel on Climate Change Report, June 2007.
---------------------------------------------------------------------------

CLIMATE CHANGE AND SECURITY

    Climate change is an Environmental Security issue and should be 
considered in that context. Environmental security refers to ``a 
process whereby solutions to environmental problems contribute to 
national security objectives.'' \7\ While the relationship of 
environmental issues to security was recognized previously, the end of 
the Cold War brought a new examination of the dimensions of security, 
and the recognition that environmental issues could inflame existing 
tensions into conflict, but could also serve as confidence building 
measures to reduce tensions. NATO's post Cold War Strategic Concept 
made this clear, ``Risks to Allied security are less likely to result 
from calculated aggression. . .but rather from the adverse consequences 
of instabilities. . .faced by many countries. . .security and stability 
have political, economic, social, and environmental elements as well as 
the indispensable defense dimension.'' \8\ Climate change affects the 
management of these elements and is a ``threat multiplier for 
instability in some of the most volatile regions of the world.'' \9\ In 
the Post Cold War era, instability is the chief threat to traditional 
U.S. national security interests.
---------------------------------------------------------------------------
    \7\ Environmental Security, Strengthening National Security Through 
Environmental Protection, Washington DC, Environmental Protection 
Agency, September 1999, p. 1.
    \8\ ``The Alliance New Strategic Concept,'' NATO Press Service, 
1991, p. 3.
    \9\ The Military Advisory Board, National Security and the Threat 
of Climate Change, Alexandria, VA, CNA Corporation, 2007, p. 6.
---------------------------------------------------------------------------
    The intelligence community has focused on environmental hot spots 
as potential sources of instability, but environmental issues also 
provide a valuable element of outreach and engagement, which may serve 
as confidence building measures between countries or regions of 
existing enmities. NATO used Environmental Security successfully to 
promote dialogue and cooperation with former East Bloc countries in the 
early 1990s. India, Pakistan, and China have cooperated on seismic 
disaster preparedness.\10\ The Madrid Peace Process for the Middle East 
used water, migration, and other environmental issues as vehicles of 
multilateral engagement between Israel and regional states. Climate 
change creates new opportunities for environmental engagement, 
cooperation and tension reduction.
---------------------------------------------------------------------------
    \10\ Professor B.F. Griffard, COL (Ret.) Art Bradshaw, and 
Professor Kent Hughes Butts, Disaster Preparedness: Anticipating the 
Worst Case Scenario, U.S. Pacific Command South Asia Seismic Disaster 
Preparedness Conference, 22-24 February 2005, Center for Strategic 
Leadership, U.S. Army War College.
---------------------------------------------------------------------------
    For the last 15 years, the United States has used an interagency 
approach in applying Environmental Security to promote national 
security and diplomatic objectives, encourage stability and 
multilateral cooperation, and prevent conflicts. The Department of 
State (DOS) has established Environmental Hubs in U.S. embassies around 
the world that use environmental diplomacy to create cooperation among 
regional states.\11\ The Department of Defense and its regional 
Combatant Commanders use Environmental Security as an engagement 
vehicle and have worked closely with these Hubs to build cooperative 
relationships among regional states and Military Support for Civil 
Authority and democracy. DOD cooperation with partner countries has 
been regularly supported by agencies such as the: U.S. Agency for 
International Development (USAID); U.S. Geological Society; 
Environmental Protection Agency; and Department of the Interior. These 
build partner capacity and capabilities to address Environmental 
Security issues and promote stability. It is important to understand 
that this international interagency cooperation is ongoing and already 
addressing the security dimensions of many climate change issues.
---------------------------------------------------------------------------
    \11\ DOS Environmental Diplomacy, The Environment and U.S. Foreign 
Policy, April 1997, p. 31.
---------------------------------------------------------------------------
    The 9/11 terrorist attacks have drawn the attention of the security 
policy-making community to the underlying conditions of terrorism. As 
the 9/11 Report states, ``When people lose hope, when societies break 
down, when countries fragment, the breeding grounds for terrorism are 
created.'' \12\ The United States has found that attacking terrorists 
and their organizations is not sufficient to win the war on terror. New 
analysis of terrorism suggests that it should be treated as an 
insurgency with the people as the center of gravity, and highlights the 
importance of regional stability, good governance, and governmental 
legitimacy. Capable, stable regimes can address water and food 
security, health and disease management, sustainable development, 
energy requirements, and other needs of the people that constitute 
demands upon the political system. Doing so prevents social unrest and 
migration, humanitarian crisis, failed states, the spread of ungoverned 
territory, and the encroachment of terrorist ideology. As the two 
recent U.S. National Security Strategies make clear, terrorism has been 
the top, stated national security priority. The significant role of 
environmental issues in creating the underlying conditions terrorists 
seek to exploit has caused the security community to take notice; 
climate change can weaken political systems and exacerbate 
environmental threats.
---------------------------------------------------------------------------
    \12\ The 9/11 Commission Report; Final Report of the National 
Commission on Terrorist Attacks Upon the United States, Official 
Government Edition, WW Norton & Company, July, 2004 and Mr. Byron York, 
``Al Qaeda, Iran, North Korea-and Global Warming,'' National Review 
Online 10 May 2007.
---------------------------------------------------------------------------
    In addition to the ongoing intelligence community National 
Intelligence Estimate, the well regarded Center for Naval Analysis 
Corporation (CNA) Report, ``National Security and the Threat of Climate 
Change,'' pointed out the major role climate change is playing in 
security. As the report states, climate change is a ``threat multiplier 
for instability in some of the most volatile regions of the world.'' 
\13\ While many of these regions are part of the terrorist equation, 
all are important to U.S. national security interests, such as: energy 
access; terrorism; strong market economies, and nonproliferation. Thus, 
variables that exacerbate a threat should be addressed by the security 
community and the elements of national power, including the military, 
but not necessarily in a lead role.
---------------------------------------------------------------------------
    \13\ Military Advisory Board, 2007, p. 6.
---------------------------------------------------------------------------
    The President has authorized the establishment of the African 
Command (USAFRICOM) and its framing documents state that the deputy 
commander should be from the DOS and its focus is not war fighting but 
helping to build partner capacity and promote regional stability. 
Environmental Security issues determine stability in much of Africa and 
the effects of climate change will greatly affect this relationship and 
very likely the engagement strategies of other regional commands.\14\
---------------------------------------------------------------------------
    \14\ Rear Admiral Robert Moeller, Executive Director, ``U.S. Africa 
Command,'' June 7, 2007, available at http://www.eucom.mil/africom/
index/asp
---------------------------------------------------------------------------
    While debate continues on the causes of climate change, significant 
consensus for addressing its security dimensions already exists in the 
United States and creates many opportunities for alliance and partner 
nation cooperation on issues of major significance to regional 
stability.

THE ROLE OF THE DEPARTMENT OF DEFENSE

    Climate change may be characterized as affecting U.S. national 
security at three levels. At a global level, climate change affects 
moisture patterns and energy retention and will have a direct impact on 
the Earth, the U.S. and its possessions and reduce the resources upon 
which humankind depends. More powerful storms, extended dry periods and 
droughts, periods of more intense flooding and increased migration may 
challenge the U.S. directly. At a geopolitical level, the melting 
icecaps, rising sea levels and loss of habitable space are creating new 
geopolitical areas of concern and complicate the ability of defense 
planners to project power, influence regional events and secure forward 
basing. At the regional level, changes in climate will threaten the 
survival of fragile states, create opportunities for extremist ideology 
and insurgencies, put at risk access to strategic fuel and non-fuel 
resources, and create instability that threatens U.S. national security 
interests.
    The DOD has no overarching directive or policy guidance that 
directs DOD organizations to address the security threats of climate 
change or act to mitigate its effects. However, the nature of the 
military is such that once the Commander's intent is given, individual 
units may use their own initiative in accomplishing the mission. This 
is particularly valuable because of the ``fog of war'' which often 
prevents direct communication with the Commander and rewards units that 
may operate independently to accomplish the mission. This independent 
culture is evident in the approach of organizations within DOD that 
have recognized the need to address the economic and security of supply 
dimensions of energy, the environment and stability and have already 
undertaken significant activities in response to threats to U.S. 
national security interests relating to climatic disruption. The DOD 
Office of Net Assessment sponsored a study by Peter Schwartz and Doug 
Randall in 2003 that used scenarios to frame the potential national 
security implications of climate change. Although certainly not its 
first effort to come to grips with its security dimensions, this well 
publicized study generated much discussion, demonstrated the interest 
of the Department of Defense in Environmental Security issues and 
encouraged further climate change related activities at all three 
levels.

GLOBAL LEVEL

    At the global level organizations within DOD have begun to address 
its carbon footprint through a variety of efforts to conserve energy 
and reduce environmental pollution. Perhaps the best example of these 
efforts is provided by the office of Mr. Tad Davis, the Deputy 
Assistant Secretary of the Army Environment, Safety and Occupational 
Health. His office has undertaken a sustainability program that is 
saving the Department of Defense millions of dollars and is mitigating 
such climate change issues as clean water generation, energy 
efficiency, and emissions, and waste reduction.
    The Army is using the concept of sustainability to ensure the wise 
use of scarce resources and the ability to accomplish its mission now 
and in future years. Sustainability refers to, ``. . .the ability of a 
system to continue functioning into the indefinite future without being 
forced into decline through the exhaustion or overloading of the key 
resources on which that system depends.'' \15\ It is a functional 
approach that is being successfully used internationally by the 
Environmental Protection Agency, USAID and the DOS. Sustainable 
development seeks to ensure that resources are consumed at a rate that 
provides for future generations by addressing the social, economic and 
environmental dimensions of development. The Army has created its own 
triple bottom line of sustainability that includes mission, 
environment, and community.
---------------------------------------------------------------------------
    \15\ Mr. Robert Gilman, ``Background Paper on Sustainability for 
City Council Work Session,'' Context Institute, 8 September, 1999, 
available at http://www.propertyrightsresearch.org/articles6/
background<INF>-</INF>paper<INF>-</INF>on<INF>-</INF>sustainabili.htm
---------------------------------------------------------------------------
    Recognizing that the planet's life supporting resources are 
declining and rising population and economic growth are increasing the 
pattern of resource consumption, the Army is seeking to meet this 
threat and public concerns over this equation by changing its pattern 
of resource management to minimize resource consumption while ensuring 
mission accomplishment, or, ``sustain the mission, secure the future.'' 
Given the vast land holdings of Army bases, the energy and water 
resources that Army forces consume and the environmental impacts of 
operating and maintaining Army weapon systems, the application of 
sustainability to the Army mission is doing much to reduce Army 
contributions to greenhouse gases and address the security dimensions 
of climate change at the global level. The Army's motivation is 
captured in the Army Environmental Strategy; A sustainable Army is, ``. 
. .simultaneously meeting current as well as future mission 
requirements worldwide, safeguarding human health, improving quality of 
life, and enhancing the natural environment.'' \16\
---------------------------------------------------------------------------
    \16\ Army Environmental Strategy for the Environment, Army 
Environmental Policy Institute, 2004.
---------------------------------------------------------------------------
    The Army began the application of sustainability at the base level 
using such important Army bases as Fort Bragg, North Carolina and Fort 
Lewis, Washington to apply the business transformation techniques of 
changed management, risk management, performance management, and 
professional development to challenge leaders in addressing triple 
bottom line elements. This holistic, bottom up approach was succeeded 
by an Army wide implementation of lessons learned about the benefits of 
sustainability and is now being applied at the international level to 
support the Combatant Command's work on stability. The focus has gone 
beyond leadership and management to address alternative energy, energy 
efficiency, clean water generation, and waste reduction technologies 
for both installations and theater operations. As a result, the Army 
has: made 48 percent of its non-tactical vehicles alternative fuel 
capable; reduced its energy consumption by over 25 percent from 1985 
levels; committed to reduce base carbon dioxide emissions by 30 percent 
and energy use by 35 percent by 2010; and created a partnership with 
the private sector that funded $543 million in energy efficiency 
projects through Energy Savings Performance Contracts.\17\
---------------------------------------------------------------------------
    \17\ Institute of Land Warfare, Association of the United States 
Army, ``Sustaining the Mission, Preserving the Environment, Securing 
the Future,'' Torchbearer, National Security Report, Washington DC, 
February 2007, p. 16.
---------------------------------------------------------------------------
    Of particular value in reducing Army environmental expenditures is 
the application of sustainability and environmental variables to the 
Future Combat Systems (FCS) design and development. This approach 
minimizes life cycle costs by reducing energy consumption and hazardous 
materials generation while increasing efficiency and combat 
effectiveness. At Fort Leonard Wood, Missouri, the Army is testing 
alternative fuels for tactical vehicles, such as the light High 
Mobility Multi-Purpose Wheeled Vehicle, and at the motor pool where two 
thirds of vehicles now use alternative fuels. Given that in Iraq the 
U.S. is consuming approximately 56 million gallons of fuel per month, 
the benefits of these programs are significant and save lives.\18\
---------------------------------------------------------------------------
    \18\ Ibid, p. 12. In a combat environment, reducing the energy 
consumption of military vehicles and weapons systems means less, highly 
vulnerable, energy convoys, fewer lucrative targets and reduced 
casualties.
---------------------------------------------------------------------------
    The Army's energy and water conservation program has developed five 
initiatives to reduce energy consumption, water pollution and costs. 
The drivers of this program are to eliminate energy waste, reduce 
dependence on fossil fuels, increase energy efficient buildings, 
conserve water resources, and improve energy security and resulted in 
solar energy based communities and the adoption of U.S. Green Building 
Council's Leadership in Energy and Environmental Design (LEED) silver 
standards for new military building construction. The Army 
sustainability program has been successful at the global level because 
it demonstrated its value to military commanders. Reduced energy costs 
at bases release more funding for operations, maintenance and training. 
Maintaining or restoring oxygen producing forests and wetlands ensures 
realistic training ranges and garners public support for base 
expansion. While many DOD energy projects are underpinned by rising 
energy costs and insecure sources of supply, the Army sustainability 
program adds another dimension, global resource conservation.
    The Air Force has taken a similar direction in its efforts to deal 
with energy, security and the environment. In an address to the recent 
Southern Command (USSOUTHCOM) Environmental Security Conference in 
Miami, Kevin Billings, Deputy Assistant Secretary of the Air Force for 
Energy, Environment, Safety and Occupational Health, spoke at length 
about the way the Air Force is addressing environmental and ecological 
issues and seeking to reduce the $7.0 billion that the Air Force spends 
on energy resources each year. Like the Army, the Air Force is focused 
on building energy efficient LEED infrastructure and finding synthetic 
fuels to power its aircraft and ground equipment. In 2006, the Air 
Force consumption of renewable energy totaled approximately one million 
kilowatt hours. It is partnering with the Department of Energy's 
National Energy Technology Laboratory to improve carbon capture, 
sequestration and reuse technology, which will be necessary for coal 
conversion to synfuel, and to use biomass to power its synthetic fueled 
fleet. These programs and the base ``greenway'' concept which preserves 
forests and natural terrain, speak directly to reducing overall energy 
consumption, improving energy efficiency and mitigating the effects of 
greenhouse gases.\19\
---------------------------------------------------------------------------
    \19\ Mr. Kevin Billings, Address Deputy Assistant Secretary of the 
Air Force for Energy, Environment, Safety and Occupational Health to 
the USSOUTHCOM Environmental Security Conference, September 17, 2007, 
Miami, FL.
---------------------------------------------------------------------------
    There are two major DOD energy task forces nearing the completion 
of their work. The Defense Science Board Task Force on DOD Energy 
Strategy is examining DOD energy usage practices to determine 
technological opportunities for reducing energy consumption while still 
achieving mission, force structure, and global posture objectives.\20\ 
The DOD Energy Security Task Force, headed by the Director, Defense 
Research and Engineering, is defining an investment strategy to 
increase energy efficiency, reduce fossil fuel dependence, identify 
alternate energy sources and increase operational readiness.\21\ 
Whether these reports will recommend a formalized DOD program for 
energy security remains to be seen but they have the potential to make 
significant contributions to reducing DOD's carbon footprint and 
providing economic incentives to the private sector to undertake 
climate change related science and technology research and development 
(RED). DOD is the Nation's largest single consumer of oil, with daily 
consumption of 340,000 barrels per day, or approximately 1.8 percent of 
U.S. total.\22\
---------------------------------------------------------------------------
    \20\ Mr. Kenneth Krieg, Office of the Under Secretary of Defense, 
``Memorandum for Chairman Defense Science Board, Subject Terms of 
Reference--Task Force on DOD Energy Strategy,'' Pentagon, Washington 
DC, May 2, 2006; Mr. Chris DiPetto, Power Point Presentation, ``Defense 
Science Board,'' Task Force on DOD Energy Strategy, 27 June 2007.
    \21\ Mr. John J. Young, Director of Defense Research and 
Engineering, ``Memorandum Subject: Power and Energy Alternatives and 
Efficiency,'' Pentagon, Washington, DC, 12 April 2006.
    \22\ Mrs. Mindy Montgomery, Deputy Director for Investment, Office 
of the Director, Defense Research and Engineering, Address to the 
USSOUTHCOM Environmental Security Conference, 18 September 2007.
---------------------------------------------------------------------------

GEOPOLITICAL LEVEL

    At a geopolitical level, the Department of the Navy has partnered 
with other agencies to begin an analysis of the climate change related, 
security implications of greatly reduced ice sheets in the Arctic. The 
rapidly warming Arctic is an area of intense geopolitical interest to 
the U.S. and other world powers. Historically locked under a sheet of 
ice that denied resource access and economic development, and the 
passage of commercial or military surface ships, the warming of the 
climate has led to significant increases in the year round temperature 
of the region. The current rate of ice melt exceeds those predicted by 
the IPCC report published in June 2007 and portends an era of intense 
State activity to establish territorial control, resource access, and 
to come to grips with the geopolitical implications of significant 
environmental change.\23\ The U.S. Navy has been encouraging this 
analysis.
---------------------------------------------------------------------------
    \23\ NSIDC Staff, ``Models Underestimate Loss of Arctic Sea Ice,'' 
Security Innovator, University of Colorado, Boulder, May 1, 2007.
---------------------------------------------------------------------------
    In 2001, the Navy co-sponsored with the Arctic Research Commission 
the Naval Operations in an Ice Free Arctic Symposium. The symposium 
identified the operational implications of an ice free Arctic for naval 
operations, reviewing possible naval missions and future operational 
requirements. This salient event drew the attention of many naval 
stakeholders to such critical strategic issues as, the Seas of Oktotsk 
and Japan remaining ice free year round and the Canadian Archipelago, 
and the Russian coast being open to navigation by non-ice strengthened 
ships during the summer months. It also recognized the economic 
importance of greater Russian access to its substantial Arctic 
resources (energy, mineral, timber) and speculated on climate change 
affects on the Arctic hydrological processes and resultant sociological 
changes.\24\ Of particular note, it pointed out such vulnerabilities as 
the U.S. having only three polar ice breakers, and the strategic 
importance of bilateral and multinational alliances in defining 
territorial boundaries, and interpreting the United Nations Convention 
on Law of the Sea (UNCLOS).\25\
---------------------------------------------------------------------------
    \24\ Naval Operations in an Ice Free Arctic Symposium, April 17-18, 
2001, Office of Naval Research, Washington, D.C.
    \25\ ``Two Polar Icebreakers Needed to Project U.S. Presence and 
Protect Interests in Arctic and Antarctica,'' The National Academies 
Report News Release, September 26, 2006. Particularly striking is the 
fact that a Russian icebreaker had to be hired to resupply the U.S. 
McMurdo Sound research stations in Antarctica.
---------------------------------------------------------------------------
    The U.S. Navy conducted a second event in July 2007, Symposium: On 
the Impact of and Ice-Diminishing Arctic on Naval and Maritime 
Operations. This symposium extended the focus of the 2001 meeting and 
emphasized oil and gas exploration in response to heightened demand in 
Asia, the importance of collecting marine geology and geophysical data 
to support U.S. territorial claims and the strategic implications of 
commercial shipping. The persistence of elevated year round, Arctic 
temperature measurements, warmer water moving north through the Bering 
Strait over the last decade, and the unexpected retreat of Arctic ice 
at a rate exceeding most computer models added a sense of urgency to 
the deliberations.\26\
---------------------------------------------------------------------------
    \26\ Symposium: Impact of an Ice-Diminishing Arctic on Naval and 
Maritime Operations, July 10-12, 2007, U.S. Navy Memorial & Naval 
Heritage Center, Washington, D.C.; available at http://
www.orbit.nedis.noaa.gov
---------------------------------------------------------------------------
    The importance of these naval sponsored exchanges to U.S. 
geopolitical interests was underscored in August when the Russian 
Antarctic Research Fleet flagship followed its nuclear powered ice 
breaker to the North Pole, where two Russian parliamentarians descended 
in a Russian mini-sub to the Arctic Sea floor. After leaving a titanium 
Russian flag staking Russia's claim to the Arctic, one of the Russians, 
Artur Chilingarov said, ``we must prove the North Pole is an extension 
of the Russian Continental Shelf,'' and subsequently, ``the Arctic has 
always been Russian.'' \27\ Canada has been expeditious in registering 
its concern over Russian territorial ambitions, and for good reason. 
Some estimates by geologists posit that 25 percent of global oil and 
gas resources as well as significant non-fuel mineral resources may 
soon be accessible in the Arctic via the northern sea route.\28\ 
Canadian Foreign Minister, Peter McKay, dismissed the Russian claim, 
but Canada is planning on building eight additional patrol ships. This 
climate change phenomenon may also intensify existing territorial 
arctic disagreements between Canada, Denmark, the U.S., Norway and 
Russia.\29\
---------------------------------------------------------------------------
    \27\ Mr. Barry Zellen, ``The New Cold War: Global warming reveals 
hidden riches beneath the polar sea, causing Arctic resource conflicts 
to heat up,'' Security Innovator, August 17, 2007.
    \28\ Ibid.
    \29\ Mr. Paul Reynolds, ``Russia ahead in Arctic `gold rush' '' BBC 
News, August 1, 2007. See also ``McKay mocks Russia's ``15th century'' 
Arctic claim,'' Reuters, Yahoo News Canada, August 2, 2007.
---------------------------------------------------------------------------
    Russia's geopolitical initiative is more worrisome when set in the 
context of its strategic plan to reestablish itself as a world power. 
Russia is realizing significant wealth from its sales of oil and 
natural gas and is bartering access to these resources for power and 
influence in both Europe and Asia. Moreover, Russia has initiated a 
geopolitical strategy for engagement in Asia based upon weapons sales 
to salient states and the reconstitution of its regional military 
forces and bases.
    Russia was the leading arms exporter to Asia from 1998 to 2005, 
with $29 billion in sales. Key recipients include China, India, Iran, 
which agreed to acquire a $700 million air defense system in 2005, and 
Indonesia. Indonesia, which is a littoral state to the oil choke points 
of the Sunda and Malacca Straits, with a Muslim population of 200 
million, signed a $1 billion arms agreement that includes quiet and 
efficient Kilo-class submarines. Revenues from resource and arms sales 
will contribute to Russia's stated plans of reconstituting its Far East 
forces and Pacific fleet. These plans include building six new aircraft 
carriers, three of which would be stationed in Asia, and refurbishing 
its submarine base on the Kamchatka Peninsula, which fronts the Bering 
Sea.\30\<SUP>,</SUP>\31\
---------------------------------------------------------------------------
    \30\ Mr. Donald Greenlees, ``Russia arms old and new friends in 
Asia,'' International Herald Tribune, September 6, 2007, p. 1 and p. 8.
    \31\ Mr. Tim Johnston, ``Russia to get Australian Uranium,'' 
International Herald Tribune, September 8, 2007, p. 3.
---------------------------------------------------------------------------
    Climate change has the potential to alter the geopolitical arena in 
which the quest for State power in the contested Arctic. The currently 
affected areas range from the Arctic to resource rich Africa, where 
China is aiding drought stricken states as a quid pro quo for resource 
supply, and to South Asia, where access to glacial melt waters is of 
vital importance. If IPCC predictions prove accurate, to project U.S. 
power overseas will require extensive reexamination.

REGIONAL LEVEL

    At the regional level, the Department of Defense has taken action 
that addresses the destabilizing issues climate change can multiply. 
Department of Defense documents now stress the importance of 
proactively addressing destabilizing issues. The 2006 Quadrennial 
Defense Review (QDR) states that the transformed DOD seeks to undertake 
``preventive actions so problems do not become crises.'' \32\ DOD 
Directive 3000.05, Military Support for Stability, Security, 
Transition, and Reconstruction (SSTR) Operations, stated that the 
immediate goal of stability operations, ``is to provide the local 
populace with security, restore essential services, and meet 
humanitarian needs.'' Significantly, DOD Directive 3000.05 says, 
``stability operations are a core U.S. military mission. . .they shall 
be given priority comparable to combat operations.'' \33\ These 
strategic level documents are important because they provide guidance 
to the Combatant Commands whose responsibility it is to translate 
policy into operations and planning at the regional level. Climate 
change makes a proactive regional security strategy essential.
---------------------------------------------------------------------------
    \32\ United States Department of Defense, Quadrennial Defense 
Review, February 6, 2006.
    \33\ United States Department of Defense, Directive 3000.05, 
Military Support for Stability, Transition, and Reconstruction (SSTR) 
Operations, November, 2006.
---------------------------------------------------------------------------
    The Combatant Commands should be thought of as the tip of the DOD 
spear, serving as they do as the military elements that execute DOD 
policy. They have two primary missions, war fighting and engagement. 
The operational plans that allow them to prepare for regional 
contingencies and be prepared to address operational threats to U.S. 
security interests are classified in nature. The engagement functions 
are generally unclassified and delineated in Theater Security 
Cooperation Plans (TSCP). The TSCP are designed to build good will and 
access with regional states, develop influence and partner military 
capabilities. The benefits of the TSCP programs are striking. General 
Tony Zinni, when serving as the Commander of the Central Command 
(USCENTCOM), often stated that if he did engagement right, he would not 
have to do war fighting. General Zinni proved that point when he 
interceded in the military conflict between India and Pakistan over 
Kashmir and encouraged a de-escalation of that conflict between the two 
nuclear powers.
    A major function of the TSCP is to work with host nation militaries 
to build their capacity for and interest in supporting civilian 
authority. Because many developing countries have thinly staffed 
civilian agencies, the effectiveness of these agencies in protecting 
the vital resources of their countries and dealing with non-military 
threats is often limited. All too often, civilian agencies dealing with 
environmental security, resource conservation and climate change 
related threats are provided the least amount of governmental 
resources. However, the well-resourced, host nation militaries can 
provide substantial support to civil authority: good communication, 
presence on distant frontiers and in border areas, good transportation 
assets, technical expertise, security missions, and preparation for 
crises and disasters. They are usually the best funded of all 
government agencies. Dedicating a portion of military capabilities to 
supporting these civilian agencies as they seek to confront 
environmental security and climate change issues, may be the difference 
between their failure and success; it may also mean the difference 
between increased desertification and the loss of arable land, 
deforestation, the spread of water borne diseases and large scale 
destabilizing migration. Because the effects of climate change can 
enflame preexisting tensions and trigger conflict, it is an excellent 
preventive defense strategy to use the TSCP proactively to address 
these destabilizing environmental security issues. The Combatant 
Commands have active programs to build the necessary military 
supporting capabilities and encourage regional military capacities and 
capabilities to combat the effects of climate change.
    The Combatant Commands have existing environmental security and 
disaster preparedness programs. New leadership at several of the 
Commands is renewing the priority of their environmental security 
programs at this opportune time of enhanced awareness of the link 
between climate change and security. At USSOUTHCOM, Admiral James 
Stavridis has directed his Command to reenergize its focus on 
environmental security. On September 17th and 18th, 2007 he opened 
USSOUTHCOM's the fifth major environmental security conference, which 
brought in critical regional allies and the U.S. interagency community 
to explore new ways to create effective partnerships in addressing 
climate change and other environmental security issues. The USSOUTHCOM 
program has been particularly successful. These major regional 
environmental security conferences have been attended by state 
presidents, vice presidents and ministers of defense and environment. 
In close cooperation with DOS Environmental Hubs in Brazilia and San 
Jose, the Command has built regional multilateral and interagency 
cooperation by conducting train the trainer workshops that brought 
together the police, civilian environmental managers and military 
forces for common training in addressing such climate change issues as 
fire fighting, deforestation and disaster preparedness. In a region 
where governments struggle with narco-terrorists, limited resource's 
category four or five hurricanes and maintaining governmental 
legitimacy of democratic states, the development of this capacity is a 
welcome contribution to regional stability.
    The USCENTCOM, which began its environmental security program under 
General Tony Zinni, built environmental security programs for its three 
sub regional areas: the Central Asian States; the Arabian Gulf; and the 
Horn of Africa. These programs have been particularly valuable and 
credited by the USCENTOM Deputy Combatant Commander with improving 
U.S.-regional State relations in regions of critical importance to U.S. 
national security and the war on terrorism. During the ongoing Iraq 
War, the Command has focused on water, medical issues and disaster 
preparedness in conferences, workshops and exercises with the Arabian 
Gulf countries supporting U.S. war efforts. In the arid Central Asia 
States, the Command addressed such issues as scarce water resources, 
salt resistant agriculture and disaster preparedness. In the Horn of 
Africa where droughts, migration, flooding and failed states are 
regular issues, the Command was instrumental in creating a 
multinational Center of Excellence for Disaster Management training in 
Nairobi, Kenya. Praised by Kenya's Vice President at its opening for 
addressing regional humanitarian issues, the Center continues to train 
regional military and civilian crises managers able to direct regional 
resources against multiple climate change related threats. The arrival 
of former USPACOM Commander, Admiral William Fallon to USCENTCOM has 
resulted in reexamination of Command programs in light of the 
restructuring of Combatant Command Area of Responsibility (AOR) and the 
loss of the Horn of Africa to the new Africa Command (USAFRICOM). The 
plans and policy directorate is actively exploring the use of 
environmental security and climate change to address the Command's 
evolving priorities.
    In the Pacific Command environmental security has long been part of 
regional engagement efforts. Transnational issues, such as terrorism, 
and illegal logging and other trafficking activities play a major role 
in threatening U.S. interests in the region. USPACOM has used these 
issues to build multilateral cooperation, and overcome misperceptions 
of U.S. foreign policy. Responding to partner nation military requests, 
USPACOM has stressed non-kinetic approaches to addressing the terrorist 
threat. The Command has treated terrorism as an insurgency, in which 
the center of gravity is the population. Underlying conditions such as 
inadequate fresh water, poor disaster management, and the illegal 
exploitation of resources, threaten governmental legitimacy and invite 
the introduction of extremist ideology. In Southeast Asia, the Command 
cosponsored a series of conferences and workshops examining the role of 
these underlying environmental conditions in the growth of terrorism. 
These activities resulted in best practices workshops hosted by 
regional states in which the host countries educated other nations in 
the use of the military element of power to mitigate developmental 
issues such as poor soil fertility, reforestation, flood control and 
drought management to build governmental legitimacy and good will. On 
the Philippine Archipelago, Cholo and Basilan, the Pacific Special 
Operations Command (SOPAC) worked closely with the Philippine Armed 
Forces and local civilian authorities to successfully apply these 
lessons and defeat the terrorist threat.
    In the vast USPACOM area of responsibility, changing climate 
patterns have affected monsoon intensity, giving rise to increased 
flooding and droughts. Other natural disasters, such as tsunamis, 
earthquakes and erupting volcanoes further challenge regional 
government efforts to address human security problems. Using its 
Multinational Planning Augmentation Team (MPAT), USPACOM facilitated 
the creation of a multilateral disaster response program and common 
standard operating procedures that have the capacity to deal with 
climate change effects and other disasters. The ability of USPACOM and 
its regional allies to successfully respond to these crises has paid 
large dividends. In Indonesia the effective response of the Indonesian 
and U.S. Armed Forces to the Aceh tsunami enhanced the legitimacy of 
the newly elected democratic government and resulted in a decrease of 
20 percent in the popularity of the Al Qaeda franchise, Jamaah 
Islamiah, and a 30 percent increase in the popularity of the United 
States.\34\ Recognizing the power of meeting these soft security 
threats, the new USPACOM Commander, Admiral Timothy Keating is 
including environmental security as a major topic in his October 2007 
Chiefs of Defense Force Conference.
---------------------------------------------------------------------------
    \34\ Interview, Dr. Ermaya Suradinata, Governor, National 
Resilience Institute, Jakarta, Indonesia, June 21, 2005.
---------------------------------------------------------------------------
    Newly created, USAFRICOM's mission is predominantly humanitarian 
assistance driven, encouraging stability in the fragile petroleum and 
minerals rich, but drought and flood plagued continent. The Command 
identifies the threats to stability in its region and works with host 
nation military, regional organizations, the U.S. interagency, and 
other non-governmental organizations to build the local capacity to 
mitigate those threats. It is currently holding a series of 
sustainability workshops in which all of these organizations provide 
their insights into theater security cooperation planning. Most of the 
threats to stability in the region are environmental in nature. For 
example, in the Sudan and Nigeria, tensions between different religious 
and cultural groups are erupting into violent conflict because of the 
persistent drought and competition between herders and farmers for 
increasingly scarce arable land and water. Other climate change related 
issues threatening stability include disease, decreasing marine 
resources, drought, flooding and soil erosion. While the Command will 
be responsible for military operations against the evolving terrorist 
threat in weak or failed states, its primary mission is to address the 
underlying humanitarian conditions and poverty that encourage the 
spread of terrorist ideology and threaten regional stability. The 
chronic weakness of many African states makes them particularly 
vulnerable to predicted climate change.
    It may be useful to conceptualize the role of the Combatant 
Commands in addressing this destabilizing issue as creating climate 
change resilient communities. The National Oceanic and Atmospheric 
Administration (NOAA) was tasked by Congress in 1994 to assess tsunami 
awareness and preparedness for parts of the United States. As a result 
of their analysis and research, NOAA developed a concept for mitigating 
the damage of tsunamis: it is called Tsunami Resilient Communities and 
was created ``to provide direction and coordination for tsunami 
mitigation activities in the absence of a disaster.'' \35\ Recognizing 
that no mitigation effort would be successful without the support of 
local communities, NOAA designed a plan to leverage planning, education 
and awareness to minimize losses and reduce fatalities and property 
damage. The seven (7) variables of resilient communities are designed 
to enhance national, State and local capabilities by: determining the 
threat; preparedness; timely and effective warnings; mitigation; public 
outreach and communication; research; and international coordination. 
This concept can easily be adapted to climate change and security.
---------------------------------------------------------------------------
    \35\ ``Tsunamis Tsunami Information": NOAA Watch: NOAA's All Hazard 
Monitor available at http://noaawatch.gov/themes/tsunami.php
---------------------------------------------------------------------------

CONCLUSIONS AND RECOMMENDATIONS

    The Department of Defense is already doing much to address the 
security implications of climate change. However, much remains to be 
done.
    Climate change is increasingly recognized as a multiplier effect 
for existing tensions and regional instabilities. It places additional 
stress on the state political system, complicating the ability of 
governments to meet the demands placed on the system by a suffering 
population, and reducing system resilience. This can lead to a loss of 
legitimacy, internal conflict, state failure and the growth of 
extremist ideology. Addressing the factors of sustainable development 
in a way designed to ``sustain regional stability,'' by building the 
capacity of states and local communities to mitigate the effects of 
climate change, would enhance the resilience of the political system 
and reduce the likelihood of state failure. The military, through its 
Combatant Command TSCPs, in close cooperation with U.S. interagency and 
international organizations, could play a significant role in creating 
climate change resilient communities. By enhancing the capabilities of 
regional militaries to support civil authority in applying the seven 
variables of resilience to the unique climate change effects on their 
countries, threats to regional stability and security can be reduced. 
This concept, however, needs to be led by the regional and 
international organizations and other U.S. agencies in a synchronized 
and coordinated process.
    While it may be a popular perception that DOD has been reluctant to 
support climate change mitigation strategies because of political 
issues, I contend that to be largely incorrect. It is only recently 
that the security dimensions of climate disruption have attained 
national prominence and overcome the focus of climate change debate on 
the causes of climate change. A more important barrier to establishing 
a DOD wide emphasis on addressing climate change, greenhouse gases and 
their security dimensions is the well reasoned argument that climate 
change and environmental security issues are soft security issues that 
should be addressed by civilian organizations with that primary 
function; the DOD is the only organization capable of fighting and 
winning the nations wars and dealing with hard security issues and 
conflict. The problem with this reasoning is that it is reactive in 
nature and dooms the U.S. to the expensive military solution of 
destabilizing regional conflicts that might have been prevented through 
proactive military intervention in its underlying causes.
    Soft security issues left untended have the potential to 
destabilize regions and become hard security issues which require the 
introduction of combat forces and threaten U.S. security interests. The 
costly humanitarian relief efforts in Somalia, Rwanda and Haiti are a 
case in point. As the Provincial Reconstruction Teams (PRTs) 
demonstrate, until the U.S. adequately resources foreign assistance and 
agencies such as DOS and USAID, DOD will have no choice but to assume 
these stability missions. Concern over such ``mission creep'' is a 
barrier to enhanced DOD leadership in the climate change and security 
area. The active involvement of the regional Combatant Commanders in 
building partner military capacity to address destabilizing soft 
security issues such as the effects of climate change is a cost 
effective and proactive concept that should be reinforced by DOD 
priority and direct language in such influential documents such as the 
Global Employment of Forces (GEF) document.
    As the security dimensions of climate change become recognized and 
debated, DOD should become more directly involved. At the global level, 
DOD can save millions of dollars and reduce its significant 
contribution to U.S. greenhouse emissions through such concepts as 
sustainability and incentivized energy efficiency programs. At the 
geopolitical level, DOD will realize new geopolitical vulnerabilities, 
revise its operational plans, determine possible new force structure 
adjustments, and order new weapons systems and capabilities such as ice 
strengthened naval vessels. At the regional level, climate change will 
exacerbate human security demands on fragile State political systems 
and present opportunities for Combatant Command regional capacity 
building to prevent failed states. Thus, for DOD, climate change brings 
opportunity and will become a driver for environmentally efficient and 
operationally less costly weapons systems, research and development and 
sustainable base management as well as heightened regional state 
interest in increased security cooperation. Certain events need to 
transpire in order to make this possible.

        <bullet>  It is time to move beyond debating the causes of 
        climate change and recognize climate change as the threat to 
        U.S. national security that it is.

        <bullet>  Appoint a DOD task force to define its roles and 
        mission in addressing the climate change related threats to 
        U.S. national security at the global, geopolitical and regional 
        levels.

        <bullet>  While the ongoing National Intelligence Estimate and 
        Military Advisory Board report are excellent first steps in 
        coming to grips with the security dimension of climate change, 
        more research needs to be done. Climatic Disruption has the 
        potential to create multiple major disasters beyond the 
        management capabilities of the national security community. 
        Where are U.S. security interests threatened; how should these 
        threats be addressed and by which organizations; and what 
        resources will be required?

        <bullet>  DOD should direct the Combatant Commands (through its 
        Global Employment of Forces (GEF) document) to consider climate 
        change as a primary engagement issue. Good governance is the 
        best defense against the destabilizing effects of climate 
        change. Sustain stability by building climate change 
        resilience.

        <bullet>  Appoint a senior DOD official to prioritize and 
        synchronize DOD climate change activities.

        <bullet>  Because of its size, resources and capabilities, 
        there is a danger that DOD may be seen as the ``Mr. Fixit'' of 
        the U.S. climate change issue. This should not be DOD's role. 
        DOD can reduce its energy consumption and carbon emissions; it 
        can encourage technological research development in energy 
        conservation, clean fuels, and alternative energy; it can 
        prepare for military responses to new geopolitical realities; 
        it can be proactive in building regional capabilities, and 
        alliances to create climate change resilience and preserve 
        regional stability. These missions make sense and will result 
        in major sources of savings for energy, waste disposal and 
        combat force deployments. However, DOD should not assume the 
        climate change responsibilities of other agencies.

        <bullet>  The White House and Congress should insist on 
        properly resourcing agencies such as the Department of State, 
        USAID, USGS, EPA and NOAA so that they may properly execute 
        these climate change missions. The current limitations of DOS 
        and USAID in reconstruction and stabilization should not become 
        a model for the DOD role in addressing climate change.

                    Biography for Kent Hughes Butts
    KENT HUGHES BUTTS is Professor of Political Military Strategy and 
the Director of the National Security Issues Group at the Center for 
Strategic Leadership, U.S. Army War College. He leads the Center's 
Combatant Command support efforts, focusing extensively on 
destabilizing environmental security issues. His prior positions 
include: Research Professor in the Strategic Studies Institute (SSI) of 
the Army War College, Associate Professor, Science Research Laboratory, 
U.S. Military Academy at West Point, and United States Defense and Army 
Attache and Security Assistance Officer in Uganda, Tanzania and Malawi. 
A graduate of the U.S. Military Academy, he holds a Master's Degree in 
Business Administration from Boston University, an M.A. and Ph.D. in 
Geography from the University of Washington, and was a John M. Olin 
Post-Doctoral Fellow in National Security at the Center for 
International Affairs, Harvard University. He is a graduate of the 
Command and General Staff College at Fort Leavenworth and the U.S. Army 
War College, and formerly held the Army War College George C. Marshall 
Chair of Military Studies. Dr. Butts teaches the Army War College 
Environmental Security, Geography and National Security, Weapons of 
Mass Destruction, and Strategic Planning elective courses and has 
organized and conducted international conferences, workshops or games 
on environmental security in the Middle East, Europe, Asia and Latin 
America. He headed the U.S. delegation and co-chaired the NATO 
Environmental Security Pilot Study Meetings in Warsaw and Prague, and 
was a member of the U.S. delegation to the OSCE Economic Forum 
(Prague). He has been interviewed by the BBC, Washington Post, 
Baltimore Sun and other media on the topic of Climate Change and 
Security. Dr. Butts was appointed a principal member of TRADOC's 
Homeland Defense Council and was a member of the Chemical and 
Biological Defense Command, Nunn-Lugar, Biological Improved Response 
Task Force. He is author or editor of numerous national security 
publications, and co-author of the book, Geopolitics of Southern 
Africa: South Africa as Regional Superpower, published by Westview 
Press. His military awards include the Defense Superior Service Medal 
and the Legion of Merit.

                               Discussion

    Ms. Hooley. And thank you very much.
    I do have some questions. Again, very interesting 
testimony. Would like to talk to you further about the work 
that you are doing.

            Are Current Multinational Structures Sufficient?

    First of all, this is a question to all three of you. Are 
the multinational structures for cooperation that we have in 
place adequate to meet the scope of the challenges. Are we 
facing a moment in the not-too-distant future when new 
institutions will be needed? Has the time come when we should 
be thinking about designing and creating them?
    And you can go in any order you want, anyone that wants to 
answer first. Don't be bashful.
    Dr. Butts. Madam Chairman.
    Ms. Hooley. Yes. Dr. Butts. Yes.
    Dr. Butts. I think we have the institutions in place that 
we need to work the problem. It is a matter of assigning a 
priority and resources. That is not to say that for all 
security issues we shouldn't have a re-architecturing of our 
security apparatus; but in terms of dealing with this issue 
from my perspective, I think we can go a long way towards 
solving many of these problems and promoting resilience and 
dealing with the stability aspects of this by creatively using 
the institutional resources that we have in place.
    Dr. Price-Smith. I will go next if that is fine, Alex. I 
would say in the realm of global public health, no. I don't 
think that global institutional structures and institutions are 
adequate to deal with the issue at this point in time, and the 
analogy would be looking at the global HIV/AIDS epidemic, which 
has ravaged much of the developing world over the last few 
years. It continues to expand.
    In recent work I have done on the HIV/AIDS epidemic, UNAIDS 
has painted a very rosy picture for you. But in fact, when you 
take the data and crunch it and look at it, the epidemic 
continues to expand in South Asia, in East Asia, certainly in 
Russia and the former Soviet Republics, and other regions of 
the planet as well. So even though there has been some decline 
in HIV, it is not uniform. In fact, it continues to expand. 
Malaria is not under control whatsoever. Dengue fever is 
restricted right now by temperature radiance and vectors, but 
it may expand.
    And I am very concerned about the lack of funding for the 
WHO, the World Health Organization. I am very concerned about 
the lack of human capital within that organization. I think 
that organization has suffered historically from some rather 
poor leadership in recent years. I know I am not going to be 
invited to their parties anymore for saying this, but I have my 
concerns.
    And so I think that the United States in particular needs 
to truly reassess the WHO and try to augment its capacity to 
deal with some of the changes that I foresee.
    Ms. Hooley. If you were king for a day--I just want to 
follow up on your answer--how would you organize it? What do 
you think we need to do?
    Dr. Price-Smith. Wow. Thank you, Madam Chairman. I would 
look at the politicization of that organization over the years, 
and I would try to address some of the things that have gone on 
there in terms of demoting key personnel for what I see as 
political reasons. I will give you one example.
    Dr. David Heymann was in charge of the Polio Eradication 
Initiative for many, many years. He achieved spectacular 
successes, and yet because of his successes he was, I won't say 
demoted, but removed from that position. And of course, polio 
has exploded out of Sub-Saharan Africa back into South Asia, I 
believe largely as a result of that.
    So I think that a study should be undertaken to look at 
that type of reorganization. And if the Congress was going to 
task us with something, we would be pleased to undertake that.
    Ms. Hooley. Thank you. Dr. Lennon.
    Dr. Lennon. Thank you, Madam Chairman. I come at this more 
from a geopolitical angle, and one of the things that has 
struck me in my brief analysis of climate change is how 
incredibly quickly this issue has jumped up on the 
international scene.
    And I think about your question in two ways: institutions 
to address the causes of climate change and institutions to 
address the consequences of climate change. I think for most 
analysts, you hear the words ``mitigation'' and ``adaptation'' 
come up, and there is an increasing sense that some of both is 
going to be needed to address the challenge as it emerges and 
as it becomes clearer what we are dealing with over time.
    On the front end of dealing with the causes of climate 
change, I think you are only beginning to see existing 
international institutions deal with the issue. You had it at 
the US-EU Summit in April, at the G-8 Summit in June, at the 
APEC meeting in September. You now have a new Major Emitters 
Conference today and tomorrow. All of this proliferation within 
existing institutions I think is probably the right way to 
manage the issues, as well as supplement it with new bilateral 
conversations.
    To my knowledge there is no bilateral conversation with 
China, for example. The focus is exclusively on climate change 
as an issue. It is dealt with as a subset of the senior 
economic dialogue or as an energy issue exclusively rather than 
as the broader consequences that may be involved with climate 
change.
    On the consequence side I think Dr. Butts is better 
equipped than I am to answer it. You have seen some initial 
cooperation in things like the response to the Indian Ocean 
Summit that has to jump up on a regional basis. But the pre-
positioning of some form of, if not institutional cooperation, 
at least informal cooperation that could be drawn upon when a 
crisis emerges, could be beneficial to deal with future events 
like an Indian Ocean tsunami if they occur in the future.

                            Disease Vectors

    Ms. Hooley. Thank you. Dr. Price-Smith, in your written 
testimony you say the balance of available evidence indicates 
that global climate change will shift the distribution of 
disease vectors into new regions and thereby afflict previously 
uninfected populations. Can you state some cases in which this 
process is already underway or, given the existing trends in 
global warming, appears likely?
    Dr. Price-Smith. Yes, Madam Chairman. In fact, one of the 
best examples of this has been the expansion of mosquito-borne 
malaria into the city of Nairobi in Kenya, which 
epidemiologists that I am familiar with attribute directly to 
the increasing temperatures--nighttime temperatures in 
particular--of Nairobi, which have allowed the mosquitoes to 
thrive at that altitude.
    There is not sufficient information across all types of 
pathogens, so we need to do greater studies. I can give you 
another: There is evidence that cholera is responsive to 
temperature. And cholera tends to be transported throughout the 
oceans in the form of algal blooms. So the cholera bacilli 
actually go into the algae blooms, and then they drift across 
the ocean currents. What tends to happen is that it is 
associated with non-linear progressions of sea-surface 
temperature. But as sea-surface temperature increases to a 
certain threshold point, you will suddenly see an explosion of 
algae, and that explosion of algae correlates with an explosion 
in cholera bacteria.
    And so, again, we may see, you know, not a lot of cholera 
for some time, and then suddenly you will hit that threshold 
point, and you may see an explosion of it.

                   DOD Thinking About Climate Change

    Ms. Hooley. Thank you. Dr. Butts, according to your written 
testimony the Defense Department has no overarching directive 
or policy guidance that directs DOD organizations to address 
the security threats of climate change or act to mitigate its 
effects. Does this mean that the Department has applied no 
strategic thinking to how it would deal with problems of 
climate change, that climate change may provoke? If so, what 
steps in your view could be taken to remedy this?
    Dr. Butts. Well, this morning I think we heard General 
Sullivan address the fact that he thought that many of the 
leaders at Department of Defense were actively thinking about 
climate change and had undertaken activities that were related 
to it. And I would agree.
    The results of that Defense Science Board study that Mr. 
Woolsey is on will demonstrate that there is much thinking 
going on in energy. You can look at the work of the Deputy 
Assistant Secretary of the Army for Installations and 
Environment, Mr. Tad Davis's work on sustainability and the 
ability there to reduce energy consumption and promote the use 
of scarce resources in an efficient fashion.
    But most of these efforts have been driven by economics and 
national security, reduce dependence on unstable sources of 
energy supply, reduce our expenditures on energy, reduce the 
vulnerability of task forces that must carry supplies of fuel 
to the front.
    What is missing is an overarching set of guidelines that 
tell all elements of the Department of Defense to examine the 
security dimensions of the climate change phenomenon and apply 
it to their work. And if this were to reflect a national 
security strategy mention or directive to do so, then 
Department of Defense would address it through its own 
strategic documentation, and we could get a greater return on 
investment.
    It is being done in a decentralized fashion. There are many 
things that are being done, but they haven't been coordinated. 
It hasn't been applied universally across all of our combatant 
commands, for example, and I think improvements can be made.
    Ms. Hooley. Let me just ask a follow-up question to you. Is 
the Department of Defense--you talk about that they have done 
some things in terms of global climate change, but has there 
been sort of an overall directive in terms of, ``Here are all 
the things that you can do to make your buildings more energy 
effective''? ``When you build new buildings, this is what you 
need to do.'' I know the number of vehicles you have trying to 
cut down on clearly using oil, gas.
    But is there a Department, or people at the top level, 
saying, ``We have to do this''? Okay.
    Dr. Butts. Not that I know of, Madam Chairman. And I think, 
though----
    Ms. Hooley. But it would be a good idea?
    Dr. Butts. Yes, ma'am. I agree, and I think that it takes a 
certain amount of time for these new strategic issues to take 
hold in the security community. Dr. Lennon pointed out that the 
focus on the security dimensions of climate change is rather 
recent.
    Ms. Hooley. Right.
    Dr. Butts. The CNA Military Advisory Report that General 
Sullivan shared was only brought out in June. The NIE on 
climate change and security hasn't been published yet. So these 
are drivers that bring the attention of people in key 
leadership positions so that they will begin to consider it and 
apply it across the board.
    But at this point, to my knowledge there isn't anything 
that speaks to climate change in an overarching fashion at 
Department of Defense.

                        More on the IPCC Report

    Ms. Hooley. Thank you. Dr. Lennon, the draft of the chapter 
by John Podesta and Peter Ogden, on which your testimony 
concentrates, declares inevitable the A1B greenhouse gas 
emission scenario of the Intergovernmental Panel on Climate 
Change. It is a scenario that includes massive food and water 
shortages, devastating natural disasters, and deadly disease 
outbreaks. The draft chapter further states that there is no 
foreseeable political or technological solution that will 
enable us to avert the majority of the climate impacts 
projected in the IPCC scenario.
    If this is so, what are we to do, and where do we begin?
    Dr. Lennon. As you mentioned, the work that John Podesta 
and Peter Ogden had done focuses in part on the consequences 
over the next 30 years, and in that time, in the generation 
from our interaction with scientists that work with the 
committee, one of the things that surprised me was their advice 
that essentially over that period of time we know what is 
likely to come about. It could be even worse than that if you 
get these negative, or ``positive,'' feedback effects, 
ironically titled, that Jim Woolsey spoke about this morning.
    I think it is likely that those will come about based on 
the science coming in. One of the sort of clashes at the 
communities that we found in our study was that a lot of the 
national security community was frustrated with how cautious 
the scientific community was--obviously, or somewhat 
ironically, because they wanted the scientific community to 
give more definitive answers, which someone in the position of 
government would require from their staff even in imperfect 
information, which is what the national security community is 
used to dealing with. The scientific community didn't have that 
pressure, so they didn't face that.
    That, I think, was the presumption behind Podesta and 
Ogden's--I don't want to speak for them--but behind their 
assessment that it was inevitable and that it may be even worse 
than the IPCC assessment because of the natural cautiousness 
built into the scientific community in a consensus-driven 
process--as opposed to those in the national security community 
that are used to working with imperfect information and what to 
do about it.
    Now, the answer to the question what to do about it frankly 
goes beyond the scope of what we did in the project. We 
essentially peeled off the front end of whether it is occurring 
from the back end of what to do about it. But it did raise 
consequences that brought concern to the national security 
community in a way that the project was designed, to try and 
raise the issues and what they should begin to be thinking 
about, rather than what to do about it as quickly as possible.

              Policy Measures to Reduce Spread of Disease

    Ms. Hooley. Dr. Price-Smith, are there policy measures 
besides those designed to arrest or reverse climate change 
itself that can help forestall or mitigate the effects of the 
changes in disease incidence and prevalence that are likely to 
result from that?
    Dr. Price-Smith. Thank you, Madam Chairman. Yeah. That is 
an interesting question: What can we do in terms of policy?
    Before I answer that, if I can return to your prior 
question on evidence, and then we can proceed from there into 
the policy realm. I have been thinking about it a little bit 
more. In fact, there is considerable data now coming out of 
Bangladesh, and what the scientific, the epidemiologist, what 
the scientific community has been doing is using the El Nino 
Southern Oscillation effect to model long-term climate change, 
but to truncate it temporally and to measure the short-term 
changes and try to project from them the impacts on infectious 
disease.
    And what Rodo and others have found is that in Bangladesh a 
lot of diseases, in fact, correlate very highly with El Nino 
Southern Oscillation changes. Similarly, in Peru there is 
evidence as well that diarrheal diseases and other intestinal 
diseases respond to changes in winter temperatures.
    And, again, this is a very nascent field, and I am a 
political scientist, so it is unusual that I am speaking on 
those issues. But as the evidence accumulates, we will be able 
to provide you with far better answers as to how these things 
may be correlated.
    Now, what I am actually proposing in terms of a policy 
measure is, we need to establish these empirical links. Are 
these empirical links, in fact, generalizable around the world? 
To do that, what would need to happen is that Congress or 
another body might establish a task force on this issue, and we 
would actually go out and measure these changes in 
epidemiological indicators such as vectors and pathogens. And 
this would involve the formation of an inter-disciplinary team 
of researchers including epidemiologists, economists, political 
scientists, and so forth to see, all right, how do these 
changes occur and what are the consequences in a short span of 
time for those territories? And we could do that.
    In terms of policy measures, once we have established that, 
in fact, these correlations hold over the globe, sure, there 
are some things we can do. We can, in fact, ask the WHO to 
reprioritize its budgetary expenditures--because for a long, 
long time the WHO has been fixated upon chronic illnesses and 
not necessarily upon infectious diseases. And so I suggest that 
we might approach the WHO and say: ``Look, we would like you to 
target a little more funding towards areas X, Y, and Z in the 
realm of pathogens.''
    Additional policy measures: I think that funding USAID and 
its initiatives to deal with diseases like malaria, dengue, 
diarrheal diseases, and so forth is excellent but should 
continue perhaps at a greater level. So I would advocate that.
    And in general, I think that the U.S. Federal Government 
needs to be more cognizant of the role that disease plays in 
instability throughout the developing world. If you look at a 
Mercator projection map of the planet, you will notice that 
most of the industrialized nations in the world happen to be in 
the temperate zones and not in the tropical regions. And as 
many historians of public health have argued, such as Alfred 
Crosby and William McNeill, there is a correlation between the 
burden of disease in the tropics and not only the economic 
underdevelopment of those societies, but also perhaps the 
political stability of those regions, or the political 
instability of those regions.
    Thank you.

       U.S. Assistance in Major Global Disasters and Emergencies

    Ms. Hooley. Thank you very much. Dr. Lennon, in your 
written testimony you predicted that the United States will 
often be sought as a global first responder in the immediate 
aftermath of a major natural disaster or humanitarian 
emergency. What should be the limits of U.S. participation, and 
are there mechanisms either existing or yet to be created 
whereby such responsibility might be shared? Should the United 
States develop a policy regarding its fulfillment of this role, 
or is it inevitable that this will be determined on a case-by-
case basis?
    Dr. Lennon. Thank you. I think it is both inevitable that 
the U.S. will be sought for its assistance in response to a 
disaster, primarily because the U.S. military is the only one 
capable of pulling off the size of an operation that would be 
required in some of these cases, as it was after the tsunami in 
the Indian Ocean in 2004. But I also think that in some cases 
the United States will want to step up to that role in its 
position as a global leader.
    There is no question that there are limits to what the 
United States should do. I would probably phrase those as 
guidelines that should guide U.S. responses. If there are 
incidents in some countries, not only may the U.S. not want to 
respond to it, but it may be the case that those countries 
wouldn't accept responses from the United States if there are 
particularly bad relations with that country. It may be an 
opportunity to improve relations with those countries, at least 
by offering assistance, but it is unlikely to be accepted for 
political reasons within those countries
    And a couple of examples: Again, the institutions that 
exist, I think, are less formal and more--if not ad hoc, then 
they are more informal. In the Asian cases I think we have had 
the informal cooperation that was quickly sought from other 
countries--such as Japan, India, Australia, possibly South 
Korea--that could serve as an informal regional factor to be 
able to respond to the demands of any crisis in the region.
    I think if something were to happen in Europe or the Middle 
East, the European Union would seek to respond sometimes by 
themselves, sometimes in cooperation with the U.S., depending 
on the demands.
    But, and to directly answer your question, I think there is 
no question that some of the responses are going to have to be 
made up as we go along based on the severity of the 
consequences themselves. But we could go further in developing 
the types of guidelines to understand the size of the 
operations that would require U.S. help and the political 
benefits as well as risks of doing so in those cases.
    Ms. Hooley. Yes. Dr. Butts.
    Dr. Butts. I wondered if I might add to that.
    Ms. Hooley. Absolutely.
    Dr. Butts. The Department of Defense has security and 
cooperation programs through its regional combatant commanders 
to deal with the militaries in their regions and build their 
capacities. And their capacities quite often, as it relates to 
climate change and environmental security, has to do with the 
issue of disaster response and preparedness.
    We quite often try to--we meaning Department of Defense or 
the military--try to reach out to regional security 
organizations, ASEAN--or the ASEAN Regional Forum, which is the 
military element of that--to see if they might take a leading 
role in encouraging that type of response. So that it doesn't 
require the United States to come back and be the lead agent in 
each instance.
    So the Pacific command, for example, developed a 
Multinational Planning Augmentation Team, the MPAT, that worked 
with regional countries to draft a multinational disaster 
response SOP that deals with these types of issues. And then, 
through their exercises every year--Cobra Gold, for example, 
that is held in Thailand--they train against those new SOPs and 
reinforce that.
    By focusing the guidance from Department of Defense to the 
regional combatant commanders on these types of issues, putting 
wording in there that encourages them to do more, we can 
strengthen those regional organizations and strengthen the 
military element of power within many of these developing 
countries--and use what is almost always the best-resourced 
agency within those governments to address that humanitarian 
dimension of climate change or other natural disasters.

                        More on Disease Vectors

    Dr. Price-Smith. I would like to buttress my comments to 
your further question. Or, sorry, your prior question.
    And one thing that I think we might also do in terms of 
policy measures is that we might focus on social ingenuity and 
not necessarily technical ingenuity. Now, in this society we 
have a proclivity to focus on technological silver bullets and 
quick fixes and new vaccines and so forth. When the reality is 
dealing with infectious agents across the world, we might want 
to look at social relationships and changing patterns of 
behavior. Particularly in terms of dealing with viruses, the 
reason being that viruses don't respond to antibiotics, as we 
all know.
    And so a great historical example comes from the 1918 
influenza, which I have been doing a lot of work on recently, 
and one of the best ways of dealing with pandemic influenza is 
not to go hunting for a vaccine or to rely upon tamiflu but 
rather to engage in what we call ``social distancing.'' In 
other words, people were told, ``Don't go to movie theatres, do 
not go to ballgames,'' and so forth.
    All right: Voluntary quarantine. And one of the best social 
measures that existed at the time was, in fact, the Civil 
Defense Associations that had been formed in response to the 
First World War. And those Civil Defense Associations went out 
and actually enabled communities to deal with that pandemic 
from a grassroots level.
    Now, similarly, you might say, ``Well, in terms of malaria 
we need bed nets, and we need various other forms of 
prophylaxes.'' But one thing that disturbs me is there is a 
perennial focus upon technical ingenuity and money when it 
comes to dealing with global health issues. And there is almost 
never a serious focus upon involving social measures and social 
scientists in terms of dealing with issues of contagion. And I 
think that really needs to be addressed.
    Thank you.
    Ms. Hooley. First of all, I want to thank all of our 
witnesses. You did a terrific job, and again, bringing us a 
little different perspective on global warming. Appreciate all 
of your comments.
    Changes in arctic ice, drought in Africa, these are real, 
contemporary events that our witnesses suggest are a mere 
foreshadowing of what will come over the coming century.
    The witnesses have articulated the threats very clearly. 
They have offered some suggestions for action that may 
contribute to the mitigation of global warming. But this is 
just a start. We need to be better, and we need to better 
understand the full range of global warming consequences.
    We also need to work harder to build support for positive 
steps.
    Again, thank you for your time. I hope you will continue to 
engage with the Committee and with Congress. I think you have a 
lot to offer, a lot to contribute, and hopefully we will see 
some changes made.
    So, again, thank you very much for your time.
    [Whereupon, at 1:50 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by R. James Woolsey, Vice President, Booz Allen Hamilton

Questions submitted by Chairman Brad Miller

Q1.  Are the multinational structures for cooperation that we have in 
place adequate to meet the scope of the challenges that you expect 
climate change will pose? Are we facing a moment in the not-too-distant 
future when new institutions will be needed? Do you have any 
suggestions for designing and creating them?

A1. The current multinational structures to meet climate change 
challenges are, in my view, inadequate. The most urgent need is to 
development international machinery that could manage a carbon cap-and-
trade system. The European system has not worked well in the last few 
years and has produced a very low price for carbon dioxide, one that 
will have, at best, negligible effect on carbon emissions. Our own 
national system of cap-and-trade for certain sulfur emissions to deal 
with the problem of acid rain has worked much better, probably in part 
because it only applies to one country and those involved in the system 
can have confidence that other parties will fulfill their obligations.

Q2.  Will government and business require new ways of working together 
in meeting the challenges of rebuilding and development that climate 
change may bring to some areas of the world? How do you see the two 
sectors' current roles and models for cooperation changing?

A2. We need to learn from the history of success, and there has been 
some, of international public and private cooperation benefiting the 
environment. For example, former Secretary of State George Shultz has 
written persuasively of the possibility of using the Montreal Protocol, 
which set up an international public-private system for dealing with 
chlorofluorocarbons, as a model for partnership to address climate 
change.

Q3.  In your written testimony, you state: ``We have to learn to think 
about phenomena the way they in fact occur--nature is not always going 
to behave in linear fashion because our minds tend to think that way.'' 
Can you provide some suggestions as to how our citizens and our policy-
makers can go about learning this new way of thinking?

A3. This is a very difficult challenge. Perhaps seminars at 
universities and think tanks conducted by climatologists and other 
scientists (I would nominate Ray Kurzweil to be a leading figure) with 
journalists in attendance would be useful. We are mainly informed of 
these matters by the press and particularly those journalists who cover 
climate and related issues for major national publications. They should 
have priority in attending such seminars.

Questions submitted by Representative F. James Sensenbrenner, Jr.

Q1.  Climate change is just one of many threats facing our nation 
today. Where does it stand as a priority in relation to other 
transnational threats such as terrorism, weapons proliferation, drug 
trafficking, smuggling, and organized crime?

A1. I believe that climate change (although a ``malignant'' as distinct 
from a ``malevolent'' threat as set out in my testimony) is an 
extraordinarily serious issue that can affect the lives of all of us, 
or at least our grandchildren. Thus I would put it more in the category 
of such threats as the proliferation of nuclear and biological weapons 
and large-scale terrorism, above the level of (still-serious) drug 
trafficking and organized crime. The key point, however, as my 
testimony sets out is that there are many things we can do that will 
address, and improve the resilience of our society to, both climate 
change and large-scale terrorism--particularly potential terrorist 
attacks on our energy systems. Thus if we are smart we may be able to 
deal with more than one major threat with each of a number of steps--
for example, moving away from oil's monopoly on transportation fuel and 
moving both toward substantially greater energy efficiency and 
distributed generation and production of electricity and fuels.

Q2.  What types of information are needed by national security 
officials to appropriately characterize the potential effects of 
climate change on national security, and prepare for how to respond to 
those challenges?

A2. It seems to me there are two types of relevant information. One is 
the likely effect on our and others' behavior and infrastructure 
insofar as it may require us to take steps to make our armed forces 
more effective. For example, we may need to take account in our design 
of our forces how to deal with refugee crises caused by increasing 
emigration out of nations whose water supply and crops become affected 
by climate change. Second, we may find that there are opportunities to 
build resilience into our military infrastructure--e.g., to make our 
military bases less vulnerable to terrorist assaults on our electricity 
grid--at the same time the military contributes to a reduction in 
CO<INF>2</INF> emissions by developing affordable and efficient methods 
of using renewables or small nuclear reactors for on-base power.

Q3.  When you were the Director of Central Intelligence from 1993-1995 
you presumably were tasked with establishing a budget for many of the 
intelligence agencies. Where did climate change fall as a priority 
within your budget? Where would you place it as a priority now? What 
types of other threats would you consider a higher priority? What types 
of other threats would you consider a lower priority?

A3. Between February 1993 and January 1995, the two years I was DCI, 
climate change was not a particular priority in the intelligence 
community; humanitarian crises such as those in Bosnia and Somalia were 
front and center. We also did our best to assess trends in 
proliferation, terrorism, and international organized crime. The 
exception was that we continued the evolution of using our national 
intelligence collection systems, such as reconnaissance satellites, to 
improve the country's knowledge of the environment. This was a matter 
of, principally, pulling together material that had been collected for 
other purposes or incidentally (a record of the shoreline of the 
Caspian Sea, e.g.). So what we were doing regarding climate change and 
related issues was unique and useful, but entailed very little 
additional budgetary cost. The priority I would assign today is set 
forth in answer to Question 1, above.

Q4.  Many of the issues that climate change will exacerbate such as 
famine, disease, resource scarcity, and refugee migration are already 
issues that national security leaders have to deal with today. Would it 
be prudent to address these specific effects of climate change 
individually rather than in a generalized manner so that we can 
prioritize resources appropriately and direct resources to the issues 
that are more immediate or more threatening? Does an issue-by-issue 
``menu'' approach give us more flexibility in responding to challenges 
than attempting an all-or-nothing approach to climate change as a 
whole?

A4. Intelligence collection, typically the most expensive part of the 
intelligence process by far, can rarely be prioritized in budget terms 
except by target. The choice of target is, in turn, affected by both 
the seriousness of the threat and the difficulty of penetrating it--
e.g., we spend much more effort on collecting against Iran and North 
Korea than against less virulent and closed regimes, even ones that are 
somewhat hostile to us. Climate change, being a ``malignant'' as 
distinct from a ``malevolent'' threat typically presents no collection 
target such as a hostile and closed regime from which we need to steal 
secrets. Normally with respect to climate change one is simply taking 
information collected by the Intelligence Community for other purposes 
(such as the record of the shore line of the Caspian), adding to it 
publicly available information, and using it to assess both individual 
subjects (enhanced risk of mass emigrations) and the overall phenomenon 
(can we improve our judgment about when the tundra may begin to melt, 
release methane, and possibly speed up climate change in general). It 
seems to me it is important that both of these tasks be done, and the 
cost of emphasizing one over the other is largely just a matter of 
allocating the time of analysts, not a costly matter of allocating 
collection resources. But except for the ready access to the satellite 
data it is not a matter of certainty that the Intelligence Community 
need be the institution in government that does either or both 
analytical tasks. If, e.g., the Department of State had the analysts 
familiar with these issues and there were some reason to assign the 
tasks to them rather than to the Intelligence Community that could be a 
reasonable option.
                   Answers to Post-Hearing Questions
Responses by Alexander T.J. Lennon, Research Fellow, International 
        Security Program, Center for Strategic and International 
        Studies; Editor-in-Chief, The Washington Quarterly

    In many cases, the answers to the questions are addressed in the 
longer report, released in early November, which I co-directed with 
Kurt Campbell, CEO from the Center for a New American Security (CNAS), 
and Julianne Smith, Director of the CSIS Europe program. These answers 
are drawn from The Age of Consequences: The Foreign Policy and National 
Security Implications of Global Climate Change.

Questions submitted by Chairman Brad Miller

Q1.  In your testimony, you said that ``the geopolitical significance 
of China and the water shortages, desertification, migration, and 
public unrest that it may face over the next 30 years could undermine 
any fragile progress in economic and political modernization in that 
country or Beijing's ability to act as a responsible stakeholder in the 
international system.'' Can you elaborate on this statement, perhaps 
sketching the path or paths you envision to either or both of the 
outcomes?

A1. The key to China's stable growth and ability to act as a 
responsible stakeholder in international affairs rests on both economic 
progress and domestic stability. As mentioned in the submitted 
testimony, John Podesta and Peter Ogden raised concerns about climate 
change causing water shortages, desertification, potentially drastic 
declines in crop yields, and migration exacerbating urbanization and 
crowding in China's cities. In the last few years, environmental 
concerns such as these have led to demonstrations in China which raise 
concerns about social stability, threatening their ability to act as a 
responsible stakeholder.

Q2.  Much of your testimony focuses on the weaknesses that climate 
change may cause in other states. Are the effects that climate change 
may have on strong powers such as Russia likely to hold implications 
for U.S. national security as well?

A2. The principal national security concern raised, in my opinion, is 
that climate change will cause weakness in states which will threaten 
U.S. interests. Even though temperature changes will be greatest toward 
the poles, it is the weaker states that will not be able to adapt to 
even relatively milder changes in temperature. Kurt Campbell wrote in 
our study that, ``A breakdown in state authority and capabilities is 
only one of the more alarming potential prospects of dramatic climate 
change. It is clear that large-scale migrations and movements of people 
will trigger deep insecurity in some communities, but it is far from 
clear whether these anxieties will trigger a traditional `national 
security response.' Under certain scenarios, a well-armed nation 
experiencing the environmental ravages brought on by climate change 
might conceivably seize by force another country's milder, more fertile 
territory. Yet a broader range of potential problems, including 
disease, uncontrolled migration, and crop failure, are more likely to 
overwhelm the traditional instruments of national security (the 
military in particular) than cause them to be used [to acquire 
resources].''
    On Russia specifically, Campbell wrote that ``attention will 
inevitably turn to potential climate change `winners' and `losers,' and 
there may indeed be some early gains to be had. Some reports have 
suggested that Russia and Canada, among others, may emerge as the 
national winners in a world marked by a modest warming trend. Yet, our 
group determined that it is virtually impossible to predict genuine 
`winners' over the medium- and long-term. Even if the most dramatic 
climate change effects are likely to be localized, in all probability, 
there will be cascading and reinforcing global implications. So, even 
if growing seasons increase in some areas or frozen seaways open to new 
maritime traffic in others, there are likely to be negative offsetting 
consequences--such as a collapse of ocean systems and with it global 
fisheries, massive species extinctions, and profound water shortages--
that will easily mitigate any perceived local or national advantages. . 
.. In such a dynamic and unstable environment, it is the height of 
folly to be thinking in terms of `winners.' ''

Q3.  Underlying all witnesses' testimony is a perceived need for the 
U.S. to continue as a global leader in helping countries and peoples 
deal with humanitarian crises, but in a future when these crises arise 
as a consequence of global warming. If we are the largest industrial 
country resisting aggressive action to reduce our reliance on carbon, 
as well as mandatory targets for reducing carbon emissions, are we 
providing effective leadership on global warming in our time?

A3. Dealing with global warming will require both mitigation and 
adaptation strategies. As Podesta and Ogden wrote in our study, ``While 
some of the emergencies created or worsened by climate change may 
ultimately be managed by the United Nations, the United States will be 
looked to as a `first responder' in the immediate aftermath of a major 
natural disaster or humanitarian emergency. The larger and more 
logistically difficult the operation, the more urgent the appeal will 
be.
    The question of if and how to respond will be a recurring one for 
the United States, each time raising a difficult set of questions with 
important national security and foreign policy implications: How much 
financial assistance should the United States pledge and how quickly? 
With which other countries should the United States seek to coordinate 
its response, either operationally or diplomatically? Should the U.S. 
military participate directly, and, if so, in what capacity and on what 
scale? . . .Ultimately, the threat of desensitization could prove one 
of the gravest threats of all, for it is clear that the national 
security and foreign policy challenges posed by climate change are 
tightly interwoven with the moral challenge of helping those least 
responsible to cope with its effects.'' U.S. leadership will be 
challenged over the next generation to continually provide assistance 
for those in need.

Q4.  If national governments are unable to cope on their own with such 
massive and acute problems as shortages of food and water or mass 
migration, what will be the future of governance in regions heavily 
affected by climate change? Might nation-states give way to regional 
forms of government, or formal governmental functions be exercised by 
multilateral organizations?

A4. This is one of the key unknown aspects of our study. In the milder, 
expected scenario, Podesta and Ogden discussed the potential for 
international cooperation to increase to address the effects of climate 
change, bringing countries together to face a common security 
challenge. On the other hand, in the more extreme scenario, Leon Fuerth 
speculated that demands may become so constant that people and 
countries will become desensitized and retreat into isolationism, to 
fend for themselves. It is simply uncertain but, in either case, 
governance will change dramatically: either increasing cooperation or 
increasing isolationism and near anarchy.
    Podesta and Ogden, discussing the milder scenario, wrote ``the 
United Nations and other multinational organizations will be called on 
with increased frequency to help manage refugee flows, food aid 
distribution, disaster relief, and other emergencies.'' The European 
Union specifically would likely ``cement its position as the most 
responsible and united regional organization on the issue of climate 
change.''
    Fuerth, analyzing a more extreme scenario, wrote that in that case, 
``alliance systems and multilateral institutions may collapse-among 
them, the UN, as the Security Council fractures beyond compromise or 
repair.'' He summarized that ``the consequences of even relatively low-
end global climate change include the loosening and disruption of 
societal networks. At higher ranges of the spectrum, chaos awaits. The 
question is whether a threat of this magnitude will dishearten 
humankind, or cause it to rally in a tremendous, generational struggle 
for survival and reconstruction. If that rally does not occur 
relatively early on, then chances increase that the world will be 
committed irrevocably to severe and permanent global climate change at 
profoundly disruptive levels.''
                   Answers to Post-Hearing Questions
Responses by Andrew T. Price-Smith, Assistant Professor, Department of 
        Political Science, Colorado College; Director, Project on 
        Health, Environment, and Global Affairs, Colorado College/
        University of Colorado-Colorado Springs; Senior Advisor, Center 
        for Homeland Security, University of Colorado

Questions submitted by Chairman Brad Miller

Q1.  Which of the world's nations or regions do you see as most 
immediately vulnerable to the changes in disease prevalence that 
climate change can bring? How do you see their own security and that of 
other nations, including the U.S., being affected as a result of 
instability and other problems that climate change can cause?

A1. Those regions that exhibit the greatest level of vulnerability to 
GCC-induced disease prevalence are the tropical though temperate zones, 
particularly in those nations that lack established public health and 
medical infrastructure and/or access to health services. Thus, we 
should be concerned about South Asia (Pakistan and Northern India in 
particular), South-East and East Asia, sub-tropical regions of South 
America, and much of Sub-Saharan Africa.
    Disease-induced poverty, and socio-political instability may 
undercut effective governance within affected polities, and contribute 
to macro-level political destabilization over the longer term. Failing 
or failed states may then generate externalities such as the 
destabilization of their contiguous neighbors, or may serve as bases of 
operations for radical organizations (i.e., terrorists) who may then 
pursue operations against the United States and her allies.

Q2.  What public health risks will the U.S. face due to changing 
pathogen behavior in the next 30 years?

A2. Largely unknown, although we can speculate that we will see 
increasing levels of vector borne disease in Mexico and the Caribbean. 
Ergo the U.S. southern border regions will likely see increasing levels 
of malaria, dengue. The transmission of such pathogens will be enhanced 
by poverty, and the cross-border movement of peoples in the region.
    Perhaps the most important concern is that climate change will 
combine with other facets of globalization (i.e., trade, migration) to 
result in the emergence of entirely novel pathogens, to which we have 
little or no natural immunity, nor vaccines or other forms of 
prophylaxis.

Q3.  Are there diseases in addition to malaria or cholera whose 
incidence can be predicted from Sea Surface Temperatures or other 
phenomena affected by global climate change?

A3. Yes, apparently diarrhea (and presumably dysentery) is also highly 
correlated with Sea Surface Temperature, with preliminary evidence from 
Peru. Further investigation into the relationship between SST and other 
diseases is required.

Q4.  Has climate change played a role in the emergence of new diseases, 
or have its effects to date been confined to augmenting and/or shifting 
the prevalence of existing diseases?

A4. GCC has not yet played a causal role in the emergence of new 
pathogens, rather it has generally resulted in shifting the burden of 
various vector-borne pathogens from the tropics towards the polar 
regions, or to higher altitudes.

Q5.  Could extreme weather events, whose frequency seems to rise with 
global temperatures, become significant factors in the emergence and/or 
proliferation of vector borne diseases? Could new diseases emerge as a 
result of such events?

A5. Extreme weather events (particularly those involving exceptional 
precipitation) are correlated with the emergence of encephalitis within 
the United States. Certainly, they may contribute to other vector/
pathogen combinations as well, although more study is required in this 
area. It is conceivable that extreme weather events could combine with 
other factors (i.e., population density) to result in the emergence of 
novel pathogens although this has not occurred to date.

Q6.  What role can the U.S. play in combating the emergence and 
proliferation of new diseases, or old diseases given new energy by GCC?

A6. An enormous subject. Briefly, the U.S. must exhibit global 
leadership by acknowledging the threat posed by the GCC-induced spread 
of disease. Washington must then provide R&D support for the 
investigation of the relationship between environmental change, disease 
proliferation, and the economic and political consequences of such 
changes. Such analyses will permit the development of concrete policy 
recommendations to inform Washington and the global community. In the 
short-term, the U.S. should take immediate action to slow the processes 
of GCC, preferably by reducing greenhouse gas emissions, and promoting 
renewable domestic sources of energy including wind power, biomass 
fuels, etc. Ultimately, the U.S. must provide a much greater level of 
global leadership on a range of environmental issues including GCC.

Q7.  What will be the future of governance in regions heavily affected 
by climate change? Might nation states give way to regional forms of 
government, or formal governmental functions be exercised by 
multilateral organizations?

A7. Possibly, although the outcomes are likely dependent on state 
capacity and shared norms in affected regions. Given that the most 
affected states are developing nations with low levels of state 
capacity (i.e., resilience), a more likely outcome is that GCC will 
erode effective governance, with many states devolving into quasi-
states or failed states (e.g., the Democratic Republic of Congo, 
Somalia). Such states will retain sovereignty in a de jure sense, but 
lack any de facto capacity for self-regulation. In some cases they may 
become wards of multilateral institutions such as the UN.

Q8.  Are there neglected areas of technology that we should invest in 
to prepare for or avert problems related to climate change? Are there 
existing areas that are deserving of more emphasis?

A8. Again we should certainly invest greater resources in the 
generation of renewable energy on a domestic level, and with our allies 
(such as Canada). However, a central problem is our fixation upon 
technological ingenuity, while we typically neglect those advances that 
could be made through a focus on social ingenuity. Social ingenuity 
involves reconfiguring markets to accurately price the costs of fossil 
fuels (including externalities such as health costs, and defense 
expenditures), and reformulating structures of governance (both 
domestic and international) to permit greater levels of adaptation in 
the face of profound changes. Finally, we need to invest in training a 
new generation of policy-makers in consilient (interdisciplinary) modes 
of analysis that combine expertise in the natural and social sciences.

Q9.  Are there relevant areas of scientific research that might merit 
increased federal support to prepare for, or avert, climate change?

A9. Averting GCC is ostensibly impossible at this point. Thus, the U.S. 
Federal Government should provide considerable support for those 
projects that seek to ameliorate (or limit) the damage generated by 
GCC. To that end, Congress and the Administration should focus on 
providing support to interdisciplinary research projects that combine 
the social and natural sciences, in an effort to augment the adaptive 
capacity of the U.S. and affected nations. The Project on Health, 
Environment, and Global Affairs which involves collaboration between 
Colorado College and the Center for Homeland Security at the University 
of Colorado, Colorado Springs is one such initiative. The U.S. 
government should also consider funding the construction of an 
interdisciplinary research network involving several major regional 
universities in order to generate solutions to such grave problems. An 
optimal network for applied research on the nexus between GCC, health, 
and security would involve (in addition to the Project detailed above); 
Columbia University, Colorado State University, the University of North 
Carolina-Chapel Hill, the University of South Florida, the University 
of California, and the University of Washington.
                   Answers to Post-Hearing Questions
Responses by Kent Hughes Butts, Professor of Political Military 
        Strategy; Director, National Security Issues, Center for 
        Strategic Leadership, U.S. Army War College

Questions submitted by Chairman Brad Miller

Q1.  According to your testimony, DOD Directive 3000.05 declares that 
``stability operations are a core U.S. military mission. . .they shall 
be given priority comparable to combat operations.'' How long has this 
relationship of parity between stability operations and combat 
operations been the stated policy of the Department of Defense? With 
particular reference to the potential and actual problems associated 
with climate change, what has been its practical effect?

A1. The 2005 Report of the Defense Science Board Task Force on 
institutionalizing stability operations within the Department of 
Defense provided substantial impetus for DOD Directive 3000.05, which 
was published in 2006. It has been DOD's stated policy since that time. 
That stability operations were critical to the success of military 
operations and regional stability has been well known to the Special 
Operations Community and historians concerned with such previous 
conflicts as the Vietnam War. However, it was only with the detailed 
reviews of military operations in Iraq and Afghanistan that the broader 
military community became convinced that success depended upon well 
planned and resourced stability operations in pre- and post-conflict 
phases.
    The practical effect of DOD Directive 3000.05 has been to involve 
an increasing number of Department of Defense organizations in 
stability operations doctrine and planning. The Army Action Plan for 
Stability Operations, for example, directs the Army service components 
for the combatant commands, the U.S. Army Forces Command, the U.S. Army 
Training and Doctrine Command, and even the U.S. Army Materiel Command 
to integrate support for stability operations into their missions. It 
also had the effect of encouraging those policy-makers and strategists 
in the Pentagon who believe that the Department of Defense should take 
a pro-active role in addressing stability and security issues in an 
effort to prevent conflict rather than restrict the U.S. military to 
more traditional war-fighting and crisis-response missions. While these 
actions facilitate the involvement of DOD organizations and military 
forces in addressing climate change issues that threaten regional 
stability, there is rarely any direct mention of climate change or the 
effects of global warming. A notable exception was the recent 
``Strength of the Nation'' article by the Army Chief of Staff, General 
George W. Casey Jr. In it, General Casey characterized a future of 
persistent conflict fueled by emerging global trends such as climate 
change, natural disasters and resource demand that would promote 
violent confrontation by exacerbating existing frictions and tensions, 
``thus creating conditions ripe for exploitation by extremist groups 
attempting to undermine and destroy the societies and values we are 
attempting to nurture and sustain.''

Q2.  Can you give us any insights into the current state of U.S. 
strategic thinking or contingency planning focused on the Arctic?

A2. In December of 2004 President Bush issued an executive order 
establishing the Committee on Ocean Policy, chaired by the Council on 
Environmental Quality. This committee generated momentum and manages a 
series of subcommittees, interagency working groups and the Interagency 
Committee on Ocean Science and Resource Management Integration 
(ICOSRMI). This process has begun to examine offshore land and water 
issues and is developing a framework process and management regime. 
Although primarily domestically focused, the process has generated 
important action to improve U.S. security interests in the Arctic.
    In 2007, the President urged Congress to act favorably on U.S. 
accession to the United Nations Convention on the Law of the Sea; this 
watershed action, when completed, will greatly enhance the position of 
the United States in negotiations for territory and resource access in 
the Arctic. In addition, the administration has undertaken a review 
process for United States Arctic policy. This process establishes a 
working group co-chaired by the Department of State and National 
Security Council, with representation from the U.S. Coast Guard, DOD, 
DOE, Interior, DOC and EPA, that recognizes that the changes in the 
Arctic environment during the next 20 years will alter human activity 
in the region and affect U.S. national security interests. The Arctic 
Policy Working Group will have four subgroups dedicated to: 
international governance, territorial and scientific issues; shipping, 
defense and national security issues; energy, environmental and 
economic issues; and identifying government resources required for 
Arctic activity. This group will be closely associated with the ICOSRMI 
process and by January of 2008 should present a recommendations paper 
to an NSC PCC. It is thought that this will generate a new Arctic 
Policy NSPD that will replace the 1983 NSDD 90 document (U.S. Arctic 
Policy).

Q3.  What limits would you place on the military's role in disaster 
relief? How would you divide up the various responsibilities involved 
between the military and other U.S. and multilateral entities?

A3. As a general rule, the military is used as a supplement to state 
and local civilian emergency management forces and police that have the 
primary responsibility for planning for and managing disasters, 
becoming involved when the capabilities of these forces are overwhelmed 
by the emergency. Reserve Component (RC) forces such as the National 
Guard, which can be called up by the state governors, would be the 
first military involved, with the active forces joining relief efforts 
if they had unique and critical capabilities or the scope of the 
disaster exceeded RC capabilities. This approach has the potential to 
work well if proper planning and rehearsals, and a clear chain of 
command, are given priority.
    Internationally the role of the military in disaster preparedness 
varies with country; however, models similar to that of the United 
States are not uncommon. Disaster preparedness to manage natural or 
man-made disasters offers a valuable opportunity for multilateral 
cooperation and confidence building. The combatant commands have well-
developed disaster preparedness programs that serve as security 
cooperation and engagement vehicles. Disaster preparedness offers an 
irresistible reason for working with the United States and allows U.S. 
forces to build critical capabilities and capacities in host-nation 
militaries that enable those forces to support civil authority, often 
at deterministic nodes when demands placed upon the political system 
could easily cause it to fail.
    The value of having the military involved in disaster preparedness 
work was demonstrated in the aftermath of the December 2004 tsunami 
that cost over 130,000 Indonesian lives. When the United States and 
other donor countries and organizations responded to the massive 
devastation in the Aceh Province of Indonesia, it created goodwill and 
eroded support for the terrorist organization Jemaah Islamiah (JI), an 
Al Qaeda franchise. In fact, the spiritual leader of JI, Abu Bakar 
Bashir, said that as a result of the U.S. military relief effort, he 
was losing the battle for the hearts and minds of the people. In polls 
taken after the relief effort, the positive perception of the United 
States rose by over 30 percent, while the popularity of Al Qaeda 
dropped 20 percent. Although not a climate change disaster, the tsunami 
demonstrated the value of disaster preparedness in advancing U.S. 
foreign policy objectives.
    In terms of limitations on the military's role in disaster relief, 
it is important to understand that the military, both domestically and 
internationally, should not be the lead organization. A civilian entity 
should be in charge. In both situations, before the military begins 
operations or enters a foreign country, an exit strategy should already 
be developed, with one of the objectives being to strengthen the 
capacities of local forces so that they may accrue legitimacy in the 
eyes of the population.

Q4.  Underlying all witnesses' testimony is a perceived need for the 
U.S. to continue as a global leader in helping countries and peoples 
deal with humanitarian crises, but in a future when these crises arise 
as a consequence of global warming. If we are the largest industrial 
country resisting aggressive action to reduce our reliance on carbon, 
as well as mandatory targets for reducing carbon emissions, are we 
providing effective leadership on global warming in our own time?

A4. The international community believes the United States should 
provide strong leadership on climate change. As the country with the 
highest per capita consumption of energy resources and emissions of 
carbon, the decision of the United States not to press for mandatory 
targets in carbon emissions undermines its efforts to claim the moral 
high ground as it competes for influence in the world. Moreover, this 
provides an excuse for the largest carbon emitter, China, to refrain 
from making the reduction of carbon emissions a national priority at a 
time when its growing economy necessitates the building of a coal-fired 
power plant every week to ten days. More effective US leadership on a 
global effort to reduce dependence on carbon fuels and limit carbon 
emissions would facilitate greater cooperation between regionally 
influential countries and the United States on other issues critical to 
U.S. national security. Making this a priority would also contribute to 
the air quality in the United States and reduce a significant health 
threat, curtail the growing U.S. foreign exchange deficit, limit U.S. 
dependence on politically unstable sources of petroleum supply, and 
slow the inflationary increase in resource commodity prices. It would 
also provide a much needed time period for energy exploration and 
alternative energy research and development.

Q5.  If national governments were unable to cope on their own with such 
massive and acute problems as shortages of food and water or mass 
migration, what will be the future of governance in regions heavily 
affected by climate change? Might nation-states give weight to regional 
forms of government, or formal governmental functions be exercised by 
multilateral organizations?

A5. I do not see a trend away from state-centric regional governance to 
regional forms of government. Although there may be rare instances of 
the external administration of a failed state, I believe these would be 
ephemeral. U.S. foreign policy seeks to support regional organizations 
in addressing regional issues and promoting stability. However, many of 
these organizations are ineffectual and limited in their ability to 
develop consensus for regional policies and to enforce them. In Africa, 
where the effects of climate change are pronounced, the African Union 
continues to struggle. The Southern African Development Community lost 
much of its raison d'etre with the end of apartheid in South Africa. 
While it does have some effective programs, it finds its unity 
challenged by such divisive issues as Zimbabwe and support for United 
States policies. Even the Economic Community of West African States, 
which has had some degree of success in dealing with regional security 
issues, turns on the stability and leadership of the increasingly 
troubled country of Nigeria. It is for good reason that U.S. foreign 
policy and the objectives of military organizations such as the new 
Africa Command continue to prioritize developing good governance and 
state capacity; for where go state legitimacy and effective governance, 
go regional stability and security.
    Climate change will have some impact upon the global system of 
governance. Migration pressures on Europe could create a Fortress 
Europe at odds with and less willing to help the regional 
organizations, and split by divisiveness among allies. Moreover, 
natural disasters can erode the power of insurgent organizations, as 
was seen in Aceh, Indonesia, when the Free Aceh movement suffered 
severe losses in the tsunami and the Indonesian government's disaster 
response gained it legitimacy in the eyes of the Aceh people. One could 
also argue that it is far easier to influence the behavior and increase 
the capacity of a small group of regionally influential states than it 
is to build unanimity of purpose within regional organizations. For 
this reason, it is essential that organizations dedicated to 
strengthening nation-states and promoting stability, such the 
Department of State and its Office of the Coordinator for 
Reconstruction and Stabilization (S/RS) and USAID, be recognized as 
leaders in the deterministic struggle for regional stability and 
security and the protection of U.S. national security interests, and be 
adequately resourced by Congress and the Administration.

Q6.  Are there neglected areas of technology that we should begin to 
invest in to prepare for or avert problems related to climate change? 
Are their existing areas that are deserving of more emphasis? Are there 
relevant areas of scientific research that might merit increased 
federal support to prepare for or avert climate change?

A6. There are numerous technologies that demonstrate great promise for 
dealing with elements of the climate change problem. It would be doing 
a disservice to the United States to take any of these off the table. 
However, there are several areas where priority makes sense. Petroleum 
was a significant factor in the strategic decisions of World War II. 
The OPEC oil embargo demonstrated the U.S.'s inability to meet domestic 
demand from U.S. sources of supply, its strategic vulnerability to 
political decisions, and instability in oil-producing countries. 
Knowing that in approximately two decades China's and India's petroleum 
imports will equal the current U.S. and Japanese petroleum imports, and 
that the price of oil is nearing $100 a barrel, it makes sense to begin 
reducing the hidden subsidies for fossil fuels and to change the rules 
of the Great Game by speeding the transition to alternative fuels. This 
effort would benefit from increased federal support. So too would 
reducing carbon emissions. Other areas where federal support is 
warranted include: carbon sequestration technology, concentrating 
solar-power technology, and hydrogen technology. Whether it is the 
Manhattan Project or NASA missions, the Federal Government has the 
capacity to jump-start technological development when it makes research 
a national priority.

Questions submitted by Representative F. James Sensenbrenner, Jr.

Q1.  Climate change is just one of many threats facing our nation 
today. Where does it stand as a priority in relation to other 
transnational threats such as terrorism, weapons proliferation, drug 
trafficking, smuggling, and organized crime?

A1. The threats that you mention--terrorism, weapons proliferation, 
drug trafficking, smuggling, and organized crime--are transnational 
problems that the United States has been attempting to manage for many 
years. Many of these issues struggle for adequate leadership, priority 
and resources, in part because they are international in nature and the 
American people consistently demonstrate a relative lack of interest in 
and understanding of international affairs. Even terrorism, which is 
listed in the National Security Strategy as the Nation's number one 
national security threat, lacks a central point of leadership, 
dedicated financial resources and a process to synchronize all 
terrorism-combating activities. Climate change has a limited history of 
public acceptance as a security issue. And, while its constituency is 
growing as its perceived phenomena--such as the drought in the 
Southeast, large powerful storms, and reduced snowfall--begin to 
directly affect the American people, it will take some time before 
pressure mounts to make it the number one national security issue here 
as it is in Great Britain.

Q2.  What types of information are needed by national security 
officials to appropriately characterize the potential effects of 
climate change on national security and to prepare for how to respond 
to those challenges?

A2. The chief impediment to making climate change a priority issue is 
its lingering role as a partisan issue. Characterizing climate change 
as a security issue that is currently threatening U.S. national 
security interests allows the United States to move beyond this barrier 
and take advantage of science that allows us to predict where climate 
change forces will stress weak and failing states and thereby threaten 
regional stability. Therefore, information that demonstrates the 
relationship between climate change phenomena and regional instability 
(the chief threat to U.S. national security), the underlying conditions 
of terrorism, natural disasters and the economic vitality of the United 
States would allow national security officials to characterize the 
importance of climate change to the American people and better identify 
concepts for dealing with the challenges.

Q3.  Many of the issues that climate change will exacerbate such as 
famine, disease, resource scarcity, and refugee migration are already 
issues that national security leaders have to deal with today. Would it 
be prudent to address the specific effects of climate change 
individually rather than in a generalized manner so that we can 
prioritize resources appropriately and direct resources to the issues 
that are more immediate or more threatening? Does an issue-by-issue, 
``menu'' approach give us more flexibility in responding to challenges 
than attempting an all-or-nothing approach to climate change as a 
whole?

A3. I believe both approaches are necessary if the United States is to 
have success in addressing the security elements of climate change in a 
timely fashion. Bundling all climate change-related security issues 
runs the risk of minimizing the individual contributions of the 
multiple organizations already actively involved in addressing these 
issues. Moreover, choosing a generalized approach could affect the 
interests of Congressional Committees and other stakeholders 
responsible for the various elements of the initiative and run the risk 
of incurring resistance--as we have seen with other national security 
priorities. The smaller the resources, the more intense the 
bureaucratic competition and the less likely there will be cooperation, 
coordination and synchronization among the U.S. agencies attempting to 
apply these scarce resources. Nevertheless, a generalized approach has 
benefits.
    The point to which I alluded earlier concerning the lack of 
understanding among the American people for funding efforts to shape 
the international security milieu is salient and bears repeating. It is 
unlikely that meaningful resources, a sound strategy and a clear end-
state for dealing with the security aspects of climate change will be 
forthcoming from the United States government until such time as the 
American people fully understand their importance and demand them. The 
resources with which to address the security dimensions of climate 
change are lightly funded and lack strong constituencies in the 
Congress. The foreign assistance account, security assistance funding, 
monitoring agencies (such as the Environmental Protection Agency and 
National Oceanic and Atmospheric Administration) and leadership 
agencies (such as the Department of State and the U.S. Agency for 
International Development) struggle for resources. A generalized 
approach to climate change and security should be undertaken, as it is 
an excellent first step in raising awareness of climate change and 
security among the American people and among congressional and 
administration leaders in Washington, DC. A framing document for this 
effort could be a new, regionally based National Security Strategy that 
clearly articulates the security dimensions of climate change, 
identifies the resources necessary to successfully address these issues 
and makes agencies of the United States government responsible for 
them. However, until such time as this approach bears fruit, we should 
not forget the foot soldiers that are currently waging the fight and 
their need for increased resources.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre></body></html>
